No. _____

IN THE

Supreme Court of the United States
————

BIOGEN MA INC.,
Petitioner,
v.
EMD SERONO, INC., PFIZER INC.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
NICHOLAS GROOMBRIDGE
ERIC ALAN STONE
PETER SANDEL
JENNY C. WU
JOSEPHINE YOUNG
PAUL, WEISS, RIFKIND
WHARTON & GARRISON
LLP
1285 Ave. of the Americas
New York, NY 10019
(212) 373-3000

JEFFREY A. LAMKEN
Counsel of Record
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioner

QUESTION PRESENTED
The patent in this case claims a method of medical
treatment that requires use of a “recombinant,” or synthetic version, of a human protein. That synthetic, recombinant version does not exist in nature. The Federal
Circuit held, in violation of this Court’s longstanding
precedent, that the claim term “recombinant” must be
ignored in assessing whether the method of treatment is
novel. The question presented is:
Whether courts may disregard the express claim term
“recombinant” so as to render a method-of-treatment
patent anticipated—and thus invalid—in light of prior-art
treatments that used the naturally occurring human
protein, where it is undisputed that the recombinant
protein was not used in the prior art?

(i)

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Biogen MA Inc. (“Biogen”). Respondents
are EMD Serono Inc. and Pfizer Inc. (together except
where noted, “Serono”).
Bayer Healthcare Pharmaceuticals, Inc. and Novartis
Pharmaceuticals Corp. (together except where noted,
“Bayer”) were defendants in a parallel district court
proceeding, previously consolidated with this case but
later severed, at Bayer’s request.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court,
Petitioner Biogen MA Inc. states that it is a wholly
owned subsidiary of Biogen Inc., which is a publicly held
corporation traded on the Nasdaq Stock Market under
the symbol BIIB. No other publicly held corporation
owns 10% or more of the stock in Biogen MA Inc.

TABLE OF CONTENTS
Page
Question Presented .....................................................

i

Parties to the Proceedings .........................................

ii

Corporate Disclosure Statement ...............................

iii

Opinions Below.............................................................

1

Statement of Jurisdiction ...........................................

1

Statutory Provisions Involved ...................................

2

Preliminary Statement ...............................................

2

Statement of the Case .................................................

7

I. Technological Background of the
Invention and the Resulting Patent .............

8

A. The Unfulfilled Promise of
Interferon-Ⱦ, and Dr. Fiers’s
Solution ......................................................

8

B. The ’755 Patent .........................................

10

I. Procceedings Below ........................................

12

A. Proceedings Before the Trial Court ......

12

B. The Federal Circuit’s Decision ..............

15

Reasons for Granting the Petition ............................

17

I. The Federal Circuit’s Decision
Contravenes This Court’s Settled
Precedents ........................................................

17

A. The Federal Circuit’s Decision
Conflicts With the Patent Act and
This Court’s Precedents ..........................

18

(iv)

v
TABLE OF CONTENTS—Continued
Page
B. The Federal Circuit’s Decision Will
Undermine Longstanding
Incentives and Discourage
Investment Essential To
Developing New Therapeutic
Treatments ................................................

24

C. This Is an Appropriate Vehicle To
Address These Important Issues ..........

29

Conclusion .....................................................................

29

Appendix A – Amended Court of Appeals
Opinion (Sept. 28, 2020) ..............................................

1a

Appendix B – Errata for the Court of Appeals
Opinion (Nov. 20, 2020) ............................................... 22a
Appendix C – Errata for the Court of Appeals
Opinion (Oct. 9, 2020) .................................................. 24a
Appendix D – Original Court of Appeals Opinion
(Sept. 28, 2020) ............................................................. 25a
Appendix E – District Court Opinion
(Sept. 7, 2018) ............................................................... 46a
Appendix F – Order of the Court of Appeals
Denying Rehearing and Rehearing En Banc
(Mar. 23, 2020) .............................................................. 155a
Appendix G – Relevant Statutory Provision............ 157a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
Amgen Inc. v. Hoffman-La Roche Ltd.,
580 F.3d 1340 (Fed. Cir. 2009) ............... 16, 19, 20
Ass’n for Molecular Pathology v. Myriad
Genetics, Inc.,
569 U.S. 576 (2013) ..................................... 6, 21, 23
Cochrane v. Badische Anilin & Soda Fabrik,
111 U.S. 293 (1884) .............................................

19

Dewey & Almy Chem. Co. v. Mimex Co.,
124 F.2d 986 (2d Cir. 1942) ...............................

19

Gen. Elec. Co. v. Wabash Appliance Corp.,
304 U.S. 364 (1938) .......................................... 19, 22
Graham v. John Deere Co. of Kansas City,
383 U.S. 1 (1966) .................................................

18

Le Roy v. Tatham,
63 U.S. 132 (1860) ...............................................

18

Lind v. Schenley Indus., Inc.,
278 F.2d 79 (3d Cir. 1960) .................................

15

Perricone v. Medicis Pharm. Corp.,
432 F.3d 1368 (Fed. Cir. 2005) .........................

21

Planing-Mach. Co. v. Keith,
101 U.S. 479 (1880) .............................................

18

Summit 6, LLC v. Samsung Elecs. Co.,
802 F.3d 1283 (Fed. Cir. 2015) .........................

15

STATUTES AND RULES
28 U.S.C. § 1254(1) ..................................................

1

vii
TABLE OF AUTHORITIES—Continued
Page(s)
28 U.S.C. § 1292(c)(2) .............................................. 15
35 U.S.C. § 101 ........................................................

21

35 U.S.C. § 102(a)-(b) (2006) ..................................

2

35 U.S.C. § 103 .........................................................

18

35 U.S.C. § 271(b) ....................................................

13

35 U.S.C. § 271(c) ....................................................

13

Fed. R. Civ. P. 50(c) ................................................

14

OTHER AUTHORITIES
Arthritis by the Numbers, Arthritis
Foundation (2019), https://www.arthritis.
org/getmedia/e1256607-fa87-4593-aa8a8db 4f291072a/2019-abtn-final-march2019.pdf ...............................................................

27

Biotechnology Innovation Organization,
Clinical Development Success Rates 20062015 (2016)......................................................... 4, 28
Derek Burkhard, et al., The Top 10 BestSelling Drugs of 2020, Scrip (Apr. 23,
2021), https://scrip.pharmaintelligence.
informa.com/SC 144160/The-Top-10-BestSelling-Drugs-Of-2020.......................................

25

J. Cody, et al., Recombinant human
erythropoietin for chronic renal failure
anaemia in pre-dialysis patients,
Cochrane Database Syst. Rev. (2005) .............

26

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Coronavirus (COVID-19) Update: FDA
Authorizes Monoclonal Antibodies for
Treatment of COVID-19, U.S. Food &
Drug Administration (Feb. 9, 2021),
https://www.fda.gov/ news-events/pressannouncements/coronavirus-covid19update -fda-authorizes-monoclonalantibodies-treatment-covid-19-0 .....................

27

Joseph A. DiMasi, et al., Innovation in the
pharmaceutical industry: New estimates
of R&D costs, 47 J. of Health Econ. 20
(2016)....................................................................

28

Fast Facts Data and Statistics About
Diabetes, American Diabetes Association
(Dec. 2015), https://professional.diabetes.
org/sites/professional.diabetes.org/files/me
dia/fast_ ...............................................................

26

Michael L. Ganz, et al., The Economic and
Health-related Impact of Crohn’s Disease
in the United States: Evidence from a
Nationally Representative Survey, 22(5)
Inflamm. Bowel Dis. 1032 (2016) .....................

27

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Global Therapeutic Proteins Market Report
2020: Market was Valued at $93.14 Billion
in 2018 and is Expected to Grow to $172.87
Billion through 2022, Business Wire (Dec.
21, 2019), https://www.businesswire.com/
news/home/2019122 3005228/en/GlobalTherapeutic-Proteins-Market-Report2020-Market-was-Valued-at-93.14-Billionin-2018-and-is-Expected-to-Grow-to172.87-Billion-through-2022--ResearchAndMarkets.com ...............................

24

Bruce Goldman, Stanford scientists link
ulcerative colitis to missing gut microbes,
Stanford Medicine (Feb. 25, 2020),
https://med.stanford.edu/ news/allnews/2020/02/stanford-scientists-linkulcerative-colitis-to-missing-gutmicro.html#:~:text=About%201%
20million%20people%20in,condition%20to
%20a%20missing%20microbe ..........................

27

Humira, https://www.humira.com/ ......................

27

Kidney Disease Statistics for the United
States, National Institute of Health (2015),
https://www.niddk.nih.gov/healthinformation/health-statistics/kidneydisease#:~:text=More%20than%20661%2
C000%20Americans%20have,with%20a%2
0functioning%20kidney%20transplant ...........

26

Wolfgang Landgraf & Juergen Sandow,
Recombinant Human Insulins—Clinical
Efficacy and Safety in Diabetes Therapy,
12(1) Eur. Endocinology 12 (2016) ..................

25

x
TABLE OF AUTHORITIES—Continued
Page(s)
Preventing Infections in Cancer Patients,
Centers for Disease Control and
Prevention (Nov. 10, 2020), https://www.
cdc.gov/cancer/preventinfections/provider
s.htm#:~:text=Each%20year%2C%20abo
ut%20650%2C000%20cancer,clinic%20in%
20the%20United%20States ..............................

26

Psoriasis Statistics, National Psoriasis
Foundation (Oct. 8, 2020), https://www.
psoriasis.org/psoriasis-statistics/ .....................

27

Recombinant Therapeutic Antibodies and
Proteins Market, PharmiWeb (Dec. 17,
2020), https://www.pharmiweb.com/
press-release/2020-12-17/recombinanttherapeutic-antibodies-and-proteinsmarket-share-and-trend-analysis-by-topleading-playe.......................................................

24

Marzieh Rezaei & Sayyed H. ZarkeshEsfahani, Optimization of production of
recombinant human growth hormone in
Escherichia coli, 17(7) J. Rsch. Med. Sci.
681 (2012).............................................................

25

Treatment of Hemophilia, Centers for
Disease Control and Prevention (July 17,
2020), https://www.cdc.gov/ncbddd/
hemophilia/treatment.html ..............................

25

IN THE

Supreme Court of the United States
————

BIOGEN MA INC.,
Petitioner,
v.
EMD SERONO, INC., PFIZER INC.,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
OPINIONS BELOW
The opinion of the Federal Circuit is reported at 976
F.3d 1326 and reproduced at App., infra, 1a-21a. The
opinion of the district court is reported at 335 F. Supp. 3d
688 and reproduced at App., infra, 46a-155a.
STATEMENT OF JURISDICTION
The Federal Circuit entered judgment on September
28, 2020, App., infra, 1a, and denied rehearing and
rehearing en banc on December 18, 2020, App., infra,
157a. This petition is timely pursuant to this Court’s
Rule 13 and this Court’s March 19, 2020 Order. The
Court has jurisdiction under 28 U.S.C. § 1254(1).

2
STATUTORY PROVISIONS INVOLVED
The relevant provision of Title 35 of the United States
Code is reproduced at App., infra, 158a-159a. Section
102 of Title 35, as applicable to pre-America Invents Act
(“pre-AIA”) patents such as the patent here, states in
relevant part:
A person shall be entitled to a patent unless–
(a) the invention was known or used by others
in this country, or patented or described in
a printed publication in this or a foreign
country, before the invention thereof by the
applicant for patent, or
(b) the invention was patented or described in a
printed publication in this or a foreign
country or in public use or on sale in this
country, more than one year prior to the
date of the application for patent in the
United States.
35 U.S.C. § 102(a)-(b) (2006).
PRELIMINARY STATEMENT
The Federal Circuit’s decision in this case upends
decades of settled jurisprudence that the invention of a
new medical treatment is patentable. The decision holds
that a novel, never-performed method of treating disease
can be anticipated—i.e., deemed not new and thus unpatentable—even though the claimed method had never
been disclosed or performed in the prior art.
Here, the claimed method of treatment required the
use of “recombinant” or genetically engineered biological
material that was different from the naturally occurring
human protein. The prior art did not disclose such treatment. The art did disclose treatment methods using the

3
analogue human protein, but such treatments were
unworkable because the naturally occurring protein
could not be harvested in sufficient quantities. Yet the
Federal Circuit held the patent’s requirement of administering a structurally different “recombinant” protein
could simply be ignored. As a result, it ruled that an old
and unworkable treatment method using the natural
protein could anticipate and invalidate the claim to a
novel and new method that has transformed medicine.
If not corrected, the decision will have severe adverse
consequences for biomedical research and development.
Recombinant therapies have enormous medical significance. More than 140 recombinant proteins have been
approved for therapeutic use by the Food and Drug Administration, and five of the top ten therapeutic products
by sales value are recombinant proteins. Analysts estimate the annual global market for recombinant therapeutics to be over $90 billion. Many diseases and conditions are caused by the human body failing to make, or
failing to make enough of, a given human protein. Methods of treatment using proteins made with recombinant
techniques allow scientists and pharmaceutical innovators to replace or augment those human proteins with
recombinant analogues. Across the medical landscape,
from hemophilia to diabetes to cancer to multiple
sclerosis, methods of treatment with recombinant proteins have revolutionized patient care for millions and
millions of patients. For example, there are more than
one million patients suffering from multiple sclerosis in
this country; before recombinant interferon-Ⱦ there was
no treatment available. Approximately six million Americans take recombinant insulin. Across the spectrum of
diseases, millions of lives have been improved or saved
with these therapies.

4
Those inventions, however, are highly expensive and
risky. The most recent studies show that bringing a new
biologic medicine (the category in which recombinant
proteins fall) to market costs $2.6 billion on average. For
every successful new treatment, there can be dozens of
failures. See, e.g., Biotechnology Innovation Organization, Clinical Development Success Rates 2006-2015, at 3
(2016).1 Robust patent protection allows the United
States to maintain its position as the world’s leading biomedical innovator. The Federal Circuit’s decision imperils the scientific investments needed to develop these
promising new therapies that may help millions of patients. Personalized medicine is now moving to the fore
and recombinant technology is becoming ever more important. The timing of the Federal Circuit’s sea change
could not be worse.
This case concerns an invention that dates from the
dawn of—and that helped prompt—the biotechnology
revolution. In 1980, when today’s techniques for producing new biological products were mere hypotheses,
scientist Walter Fiers did something unprecedented: He
caused E. coli bacteria to produce an analogue to a protein ordinarily generated by the human immune system—interferon-Ⱦ. He determined, moreover, that the
interferon-Ⱦ he was able to produce in bacteria matched
the biological activity of the native, human protein.
Dr. Fiers thus solved a problem that had plagued
science (and fascinated the popular press) for years.
Human interferon-Ⱦ was thought to be a treatment for all
manner of viral conditions and diseases. It was, however,
https://www.bio.org/sites/default/files/legacy/bioorg/docs/Clinical%2
0Development%20Success%20Rates%202006-2015%20-%20BIO,%20
Biomedtracker,%20Amplion%202016.pdf.

1

5
available in only infinitesimally small amounts, harvested
with great difficulty from discarded human tissue. Dr.
Fiers overcame this problem using “recombinant” DNA
technology. That technology takes genetic material from
different sources and joins them—or “recombines”
them—before inserting them into a host cell. The host
cell—in this case, a non-human host cell—in turn uses
the DNA to produce a synthetic protein having similar
properties but a different molecular structure from the
human protein. By producing recombinant interferon-Ⱦ
in a non-human cell, and proving that it had the same
biological activity as the naturally occurring human version, Dr. Fiers overcame a barrier—scarcity—that had
prevented that protein’s widespread medical use. Biogen, which underwrote Dr. Fiers’s research, made the
financial investments needed to turn that discovery into
Avonex®, a leading treatment for multiple sclerosis.
Dr. Fiers’s patent application spent 29 years being
thoroughly examined by the Patent Office.2 By the time
the patent issued in 2009 as U.S. Patent No. 7,588,755
(the “ ’755 Patent”), respondents EMD Serono, Inc. and
Pfizer Inc. together sold their recombinant interferon-Ⱦ
product Rebif® for use in a treatment that the jury found
infringes Biogen’s patent. Following trial and verdict,
the district court entered judgment for Biogen. It rejected as a matter of law respondents’ argument that
treatments using naturally occurring human interferon-Ⱦ
anticipate treatments using recombinant interferon-Ⱦ.
App., infra, 55a-81a. Under longstanding precedent,
Much of that time was consumed by interference proceedings to
determine who was the first inventor of the subject matter, as
several applicants had filed for patents. Substantive review was
suspended—in effect, stayed—for a lengthy period because of actual
or potential interferences.

2

6
proof of anticipation requires the defendant to establish
that each and every element of the patent claim was
disclosed in a single prior art reference. “The evidence
presented at trial,” the court explained, “demonstrates
that native interferon-Ⱦ and recombinant interferon-Ⱦ
are not structurally identical,” App., infra, 65a, and thus
prior art methods using native interferon-Ⱦ could not anticipate Dr. Fiers’s patented method.
The Federal Circuit’s decision reversing that judgment does violence to this Court’s precedents and
threatens the viability of patent protection for—and thus
the incentive to develop—treatments using recombinant
technologies. It invoked “product-by-process law,” under
which an old product does not become patentable merely
because it is made by a new process. App., infra, 12a17a. That law, it ruled, applies to and invalidates the ’755
Patent’s method-of-treatment claims because the same
treatment using natural (not recombinant) interferon-Ⱦ
was previously known. App., infra, 17a-20a. That holding runs headlong into this Court’s decision in Association for Molecular Pathology v. Myriad Genetics, Inc.,
569 U.S. 576, 595 (2013), which recognizes that methods
of treatment are patentably distinct from the products
administered in those methods. In Myriad, this Court
held that, although the DNA coding for a human protein
could not be patented, methods of treatment based on
that protein were analytically distinct: “It is important to
note what is not implicated by this decision. First, there
are no method claims before this Court. Had Myriad created an innovative method of manipulating genes while
searching for the BRCA1 and BRCA2 genes, it could
possibly have sought a method patent.” Id. at 595.
Rejecting that very distinction here, the Federal
Circuit held that the ’755 Patent’s method of treatment

7
using recombinant interferon-Ⱦ was anticipated even
though that method did not exist in the prior art. It further ignored that recombinant interferon-Ⱦ made in a
non-human cell is not identical to native, human interferon-Ⱦ. That was error. And it rejected the district
court’s exercise of its discretion to grant a new trial,
holding such method-of-treatment claims invalid as a
matter of law even though, all agree, the method had
never before been practiced.
The Federal Circuit’s ruling does not merely negate
an unbroken line of cases stretching back to before the
Patent Act. It threatens innovation where it is needed
most: to cure diseases against which the body’s natural
immune response is insufficiently robust. This Court
should grant review, reverse the Federal Circuit, and
either reinstate the district court’s judgment as a matter
of law of no anticipation or reinstate its conditional grant
of a new trial on that issue.
STATEMENT OF THE CASE
This case concerns the sort of breakthrough that the
patent laws unquestionably should reward. The ’755
Patent is directed to a treatment that was not previously
possible—administering a new recombinant protein that
has the biological activity of naturally occurring interferon-Ⱦ. Recombinant interferon-Ⱦ was the first successful large-scale therapy for multiple sclerosis, a devastating disease in which the body’s own immune mechanism damages the material that insulates and protects
the nerves.

8
I. TECHNOLOGICAL BACKGROUND OF THE INVENTION
AND THE RESULTING PATENT
A. The Unfulfilled Promise of Interferon-Ⱦ, and
Dr. Fiers’s Solution
The human immune system makes proteins called
“interferons” to help fend off attacks by viruses. See,
e.g., C.A. App. 7783 (24:30-18). Beginning in the 1950s,
doctors sought to isolate human interferons and to use
them to treat viral diseases, cancers, and other conditions. C.A. App. 118-119 (2:53-4:22); C.A. App. 7784
(25:13-23). By the late 1970s, one form of human interferon, interferon-Ⱦ, had shown great promise as a miracle
drug. See C.A. App. 66140. But interferon-Ⱦ is found in
only infinitesimal amounts in human cells. C.A. App. 119
(4:49-55). The most common source of interferon-Ⱦ was
fibroblast cells in discarded human foreskin. See C.A.
App. 119-120 (4:49-5:3). Harvesting interferon-Ⱦ from
those cells was inefficient and yielded impure compositions. Ibid. Thus, in 1979, Omni described interferons as
the “miracle cure at $22 billion per pound.” C.A. App.
66140. The next year, Time dubbed interferons “the IF
drug,” playing on their name and their tantalizing unobtainability. C.A. App. 66145-66146.
1. As the ’755 Patent (with a priority date of June 6,
1980) explained, human interferon “has potential application in antitumor and anticancer therapy,” but such
“applications of IFN-Ⱦ have been severely hampered by
lack of an adequate supply of purified IFN-Ⱦ.” C.A. App.
119 (3:57-4:13). Dr. Fiers noted that then-“recent advances in molecular biology” created the possibility for
recombinant expression of desired proteins in non-human
cells. C.A. App. 120 (5:4-16). He achieved that goal, producing interferon-Ⱦ with the “immunological or biological
activity of ” human interferon-Ⱦ. C.A. App. 120 (5:49-6:5).

9
“By virtue of this invention,” he explained, “it is possible
to obtain polypeptides displaying an immunological or
biological activity of ” human interferon-Ⱦ “for use in antiviral, antitumor or anticancer agents and methods. This
invention allows the production of these polypeptides in
amounts and by methods hitherto not available.” C.A.
App. 120 (5:54-59).
Dr. Fiers was not the only person working to achieve
that goal. Several groups of the world’s leading scientists
were attempting to express interferon-Ⱦ in a non-human
cell line and to determine whether the resulting, recombinant protein would have biological activity like that of
native, human interferon-Ⱦ. But Dr. Fiers was the first
to figure out how to achieve that goal. He was the first to
recombinantly express interferon-Ⱦ-like proteins and to
demonstrate that, even though they are structurally different from the human analogue, they have the biological
and immunological activity of native, human interferon-Ⱦ.
Because recombinant proteins can be manufactured in
large quantities, this meant they could be made in
therapeutically effective amounts for treatment. See
C.A. App. 136-140 (37:18-46:37). The United States
Patent Office awarded Dr. Fiers the ’755 Patent, directed
to methods of treatment using recombinant interferon-Ⱦ
made in a non-human cell.
2. While the recombinant interferon-Ⱦ mimics the activity of native human interferon, it is not structurally
identical to naturally occurring human interferon-Ⱦ. Like
all proteins (or “polypeptides”), interferon-Ⱦ consists of
amino-acid building blocks. C.A. App. 77878 (29:2-13).
Specifically, interferon-Ⱦ comprises 166 amino acids connected end-to-end. C.A. App. 77878 (29:19-22). Because
of various molecular forces, that linear array of amino
acids will conform or fold into a complex three-dimen-

10
sional shape. If the three-dimensional shape is correct,
interferon-Ⱦ will be biologically active, C.A. App. 77880
(31:8-14), modulating the immune system, reducing inflammation, and increasing cells’ resistance to viruses.
C.A. App. 77574 (62:2-9); C.A. App. 77872 (23:15-19); C.A.
App. 47551 (47:14-15). In effect, the complex threedimensional shape is like a key, fitting into a lock to set in
motion subsequent biological processes.
Native, human interferon-Ⱦ is a glycoprotein, which
means it has sugars attached to one of its amino acids in a
branched structure. C.A. App. 77882 (33:11-25). The
sugar branches can vary for individual interferon-Ⱦ proteins, even when they are made within the same cell.
Thus, in any given sample of native interferon-Ⱦ taken
from a human, each interferon-Ⱦ molecule can have one
of a variety of sugar branches attached to it. C.A. App.
51646 (Kagawa); C.A. App. 80514-80515 (100:5-101:2).
While similar proteins can be made by cells of different species, the cells of different species make glycolproteins with different sugar branches, or sometimes
none at all, and are thus not identical. E. coli, for example, does not glycosylate proteins. C.A. App. 80514
(100:5-20); C.A. App. 79094 (47:12-21). The interferon-Ⱦlike proteins produced by E. coli thus lack the sugar
attachments of native, human interferon-Ⱦ and thus have
a different molecular structure.
B. The ’755 Patent
The ’755 Patent discloses that therapeutic use of
native, human interferon-Ⱦ was known in the prior art,
C.A. App. 118-110 (2:53-4:22), and how compositions of
native, human interferon-Ⱦ had been prepared, C.A. App.
119-120 (4:49-5:3). Its claims were limited to a method of
treatment with “a therapeutically effective amount of a

11
composition,” said composition comprising a recombinant
interferon-Ⱦ-like polypeptide made in a non-human host
transformed by certain DNA sequences.
During prosecution of a sister patent application,
Biogen explained that the “non-human” host limitation
was added for the purpose of distinguishing recombinant
interferon-Ⱦ from native interferon-Ⱦ:
As amended, the claims expressly recite production
in non-human cells. * * * This is not semantics.
IFN-Ⱦ produced in human cells is glycosylated and
has a particular type and content of sugar groups.
The claimed polypeptides do not have the identical
type or content of sugar groups. They cannot have.
They are produced in non-human cells whose ability
to post-translationally modify proteins is different
from that of human cells.
C.A. App. 24315.
Claim 1 of the ’755 Patent thus recites:
1. A method for immunomodulation or treating a
viral condition[ ], a viral disease, cancers or tumors
comprising the step of administering to a patient in
need of such treatment a therapeutically effective
amount of a composition comprising:
a recombinant polypeptide produced by a nonhuman host transformed by a recombinant DNA
molecule comprising a DNA sequence selected from
the group consisting of:
(a) DNA sequences which are capable of hybridizing to any of the DNA inserts of G-pBR322(Pst)/
HFIF1, G-pBR322(Pst)/HFIF3 (DSM 1791), GpBR322(Pst)/HFIF6 (DSM 1792), and G-pBR322
(Pst)/HFIF7 (DSM 1793) under hybridizing condi-

12
tions of 0.75 M NaCl at 68° C. and washing conditions of 0.3 M NaCl at 68° C., and which code for a
polypeptide displaying antiviral activity, and
(b) DNA sequences which are degenerate as a result of the genetic code to the DNA sequences
defined in (a);
said DNA sequence being operatively linked to an
expression control sequence in the recombinant
DNA molecule.
App., infra, 4a-5a (emphasis added); see C.A. App. 142
(49:59-50:12).
II. PROCEEDINGS BELOW
In 2010, Biogen sued respondents for infringement of
claims 1 and 2 of the ’755 Patent.
A. Proceedings Before the Trial Court
1. During a nearly five-week trial, the jury heard
about worldwide efforts in 1980 among leading scientists
to do what had never been done: to use recombinantDNA technology to engineer an analogue of a known
human protein, interferon-Ⱦ, that had biological activity
like the native, human protein and that thus could be
used to treat disease. Pet’r C.A. Br. 2. The jury heard
that Dr. Fiers produced interferon-Ⱦ-like polypeptides in
E. coli, rigorously tested and retested their biological
activity to exclude false positives, and filed his patent
application before anyone else. Ibid. The jury heard extensive testimony about the patent’s 29-year history in
the Patent Office (during much of which time prosecution
was suspended due to multiple interference proceedings).
And the jury heard respondents’ refrain, which the jury
rejected, that all this was obvious. Id. at 3.

13
What the jury did not hear was any evidence that the
’755 Patent was anticipated by the prior art. Pet’r C.A.
Br. 15-16. No witness identified a prior-art reference in
which recombinant interferon-Ⱦ, made in a non-human
host cell, was used to treat disease. Indeed, everyone
agreed that had never happened. Ibid. Nor did any witness testify that recombinant interferon-Ⱦ and native, human interferon-Ⱦ are themselves identical. Id. at 23. Indeed, respondents’ expert conceded that they are not
identical. Ibid. When it came time for summations, respondents did not even mention their anticipation defense. Id. at 31. Consistent with this Court’s precedents—and without objection—the district court instructed the jury that it must compare the claimed
method of treatment to the prior art to determine whether the “identical invention” was made, used, or disclosed before. C.A. App. 47665.
The jury found that the use of respondents’ recombinant interferon-Ⱦ product, Rebif®, directly infringes
claims 1 and 2 of the ’755 Patent, and that respondents
Serono and Pfizer each contribute to the infringement
under 35 U.S.C. § 271(c). Pet’r C.A. Br. 10. The jury
rejected respondents’ obviousness, written-description,
and enablement defenses.3 Ibid. The jury found, however, that the claims of the ’755 Patent are anticipated by
prior-art uses of native, human interferon-Ⱦ. Ibid.
2. All parties sought judgment as a matter of law.
The district court’s “comprehensive opinion,” App., infra,
7a—spanning over 90 pages, App., infra, 46a-154a—careWhile not relevant to this petition, the jury found in favor of
respondents on induced infringement under 35 U.S.C. § 271(b), App.,
infra, 83a, a ruling the district court then overturned as a matter of
law, id. at 84a-96a.

3

14
fully reviewed the evidence before the jury. App., infra,
62a-74a. It denied respondents’ motions across the
board, App., infra, 154a, and it granted Biogen’s motions
to set aside the verdict on anticipation. It held that
product-by-process law does not render the patent anticipated. That law, it explained, does not apply to a method
of treatment that uses a product made in a particular
way. App., infra, 77a-81a. It held that the products used
in the treatment were not identical to native interferon-Ⱦ
in any event. App., infra, 65a-77a. Among other things,
native interferon-Ⱦ is glycolsylated—that is, it has sugar
branches attached to one of its amino acids. Recombinant interferon-Ⱦ made in a non-human cell, on the
other hand, has different glycolsylation patterns, or, in
the case of recombinant interferon-Ⱦ made in E. coli, no
glycosylation at all. App., infra, 66a-72a.
Because the anticipation defense had received scant
attention at trial, the district court also exercised its discretion to conditionally grant a new trial on anticipation
under Fed. R. Civ. P. 50(c). App., infra, 81a-82a. The
court found that the jury’s determination was “against
the weight of the evidence” and that a new trial was
warranted because of “the overall setting of the trial, the
character of the evidence, and the complexity of the legal
principles that the jury was asked to apply to the facts.”
App., infra, 82a. As the district court explained, the jury
spent the vast majority of the five-week trial hearing
testimony on issues other than anticipation. Ibid. Because the “five-week trial in this case was ‘long and
complicated,’ required complex factual determinations on
multiple infringement, validity, and damages issues, was
noticeably focused on issues other than anticipation, and
involved scientific concepts that are not the ‘subject matter . . . lying within the ordinary knowledge of jurors,’ ” a

15
new trial would be warranted if its ruling in favor of
Biogen were overturned on appeal. App., infra, 81a
(quoting Lind v. Schenley Indus., Inc., 278 F.2d 79, 90-91
(3d Cir. 1960)). Because a judgment in a patent case
leaving open only damages issues is immediately appealable as of right, see 28 U.S.C. § 1292(c)(2), respondents
appealed.
B. The Federal Circuit’s Decision
The Federal Circuit reversed the district court’s grant
of judgment as a matter of law, reinstated the jury’s
verdict of anticipation, and held that the district court
had abused its discretion in conditionally granting a new
trial.
The Federal Circuit noted the longstanding rule that a
claim is anticipated “only if ‘each and every [limitation] is
found within a single prior art reference.’ ” App., infra,
10a (citing Summit 6, LLC v. Samsung Elecs. Co., 802
F.3d 1283, 1294 (Fed. Cir. 2015)). It then proceeded to
jettison that rule. The claims at issue claimed treatment
of disease with a recombinant polypeptide made in a
non-human host cell, something that respondents conceded did not exist in the prior art. Indeed, as the district court explained, the use of recombinant interferon-Ⱦ
is what overcame the biggest obstacle in the prior art—
the difficulty of obtaining interferon-Ⱦ in sufficient quantities. App., infra, 80a.
The Federal Circuit nevertheless applied product-byprocess case law to make the novelty of the claimed
method of treatment irrelevant. App., infra, 12a-14a.
Under that case law, parties cannot claim an existing
product made by a new process; the pre-existing product
anticipates a claim to the same product regardless. App.,
infra, 12a-13a. Here, the Federal Circuit expanded this

16
concept into method of treatment claims, holding that
anticipation by the prior method of treatment cannot be
avoided based on the “recombinant origin of the recited
composition.” App., infra, 13a-14a.
Although the product-by-process rule by its terms
prevents parties from asserting claims to an existing
composition—a product—based on the process used to
make it, the Federal Circuit held that it applies to
method-of-treatment claims like this one. App., infra,
14a. The only thing that matters, the court stated, is
whether the composition recited in the patent claim is
identical to one previously identified in the art—here,
whether recombinant interferon-Ⱦ itself is identical to
(and thus anticipated by) the native, human protein.
App., infra, 15a-16a; see App., infra, 14a (the question is
“whether the recombinant product is identical to the
prior art product”).
The Federal Circuit then ignored the undisputed evidence that recombinant interferon-Ⱦ made in a nonhuman cell and native, human interferon-Ⱦ are not the
identical product. App., infra, 17a-20a; see Amgen Inc. v.
Hoffman-La Roche Ltd., 580 F.3d 1340, 1366-67 (Fed.
Cir. 2009). Instead, it looked only at the identity and
sequence of amino acids, ignoring other structural
differences in the rest of the molecule. App., infra, 17a.
As discussed above, the amino acids in a polypeptide
make up only part of its structure. Because the amino
acid sequences are the same in the recombinant and
native proteins, the Federal Circuit held that methods of
treatment with recombinant interferon-Ⱦ made in a nonhuman cell are anticipated by prior-art treatments with
the non-identical human protein. App., infra, 18a-20a.
For similar reasons, it overturned the district court’s
conditional grant of a new trial, holding the claims here

17
anticipated as a matter of law. App., infra, 21a. In short,
the Federal Circuit held that Dr. Fiers’s use of recombinant technology to create a new way to treat disease
was unpatentable because, in the Federal Circuit’s mistaken view, Dr. Fiers’s claimed method was no different
from the prior method he had sought to improve.
REASONS FOR GRANTING THE PETITION
The Federal Circuit’s decision contravenes this
Court’s precedents. In doing so, it needlessly threatens
to preclude patent protection for—and thereby destroy
the incentive to invent—life-saving and life-altering
treatments using recombinant technologies. That outcome should not be approved, and especially should not
be countenanced now. Personalized medicine, driven by
the use of recombinant technology, holds the promise of
better, safer, less painful treatments for previously incurable diseases. The Federal Circuit’s decision threatens to render those treatments unpatentable, removing
an important incentive to develop them and undermining
the purpose of the patent system. The issue is important,
recurring, and squarely presented. Review is warranted.
I. THE FEDERAL CIRCUIT’S DECISION CONTRAVENES
THIS COURT’S SETTLED PRECEDENTS
The ’755 Patent claims methods of treatment with a
“recombinant polypeptide produced by a non-human
host ” that has the amino-acid sequence of native, human
interferon-Ⱦ. Everyone—Biogen, respondents, and the
Federal Circuit—agrees that there were no such treatments in the prior art. Before Dr. Fiers’s invention,
recombinant interferon-Ⱦ did not exist and thus had
never been used in treating disease. The purpose of the
worldwide scientific effort in which he participated—and
in which he prevailed—was to produce therapeutically

18
viable amounts of an analogue to human interferon-Ⱦ in
non-human cell lines; native, human interferon-Ⱦ could
not be harvested in sufficient amounts to treat disease.
The Federal Circuit has now held that the winner of the
global race to find this new method of treatment should
have been denied a patent because, in its view, one cannot patent methods of treatment with a recombinantly
made version of a human protein, despite their structural
differences, and despite the fact that no method of treatment using that recombinant protein existed in the prior
art. That holding imperils the development of treatments
for all manner of diseases. It also trenches on decades of
law from this Court.
A. The Federal Circuit’s Decision Conflicts With
the Patent Act and This Court’s Precedents
1. This Court’s precedents are clear: For a patent
claim to be anticipated and therefore invalid, the claimed
invention itself must be found in the prior art, with “all
the elements in combination which compose” the claimed
invention. Planing-Mach. Co. v. Keith, 101 U.S. 479, 489
(1880). Near-identicality is not enough. Even where the
invention combines various elements, some of them old,
adding “[o]ne new and operative agency in the production
of the desired result would give novelty to the entire combination.” Le Roy v. Tatham, 63 U.S. 132, 139 (1860).
Even after the doctrine of anticipation/novelty was
codified in § 102 of the 1952 Patent Act, this Court confirmed the requirements of that section “have always
existed in the statutory scheme” and are distinct from
the non-obviousness requirement under § 103. Graham
v. John Deere Co. of Kansas City, 383 U.S. 1, 12 (1966).
As Judge Learned Hand stated:

19
No doctrine of the patent law is better established
than that a prior patent or other publication to be
an anticipation must bear within its four corners
adequate directions for the practice of the patent
invalidated.
Dewey & Almy Chem. Co. v. Mimex Co., 124 F.2d 986,
989 (2d Cir. 1942).
Here, there is no dispute that the ’755 Patent provided
a new element not found in the prior art. The prior art
proposed treating disease with human interferon-Ⱦ,
which could not be harvested in sufficient amounts. App.,
infra, 73a-74a. The ’755 Patent overcame that barrier,
describing and enabling a method to treat disease using
an analogue, recombinant interferon-Ⱦ made by nonhuman cells. But the Federal Circuit wrongly denied
patent protection to that important and medically significant innovation.
2. To justify that result, the Federal Circuit invoked
product-by-process case law, under which “an old product is not patentable even if it is made by a new process.”
Amgen, 580 F.3d at 1366. But that doctrine—as the
name product-by-process implies—is about products, not
methods of using products (such as methods of
treatment). This Court has been clear that “a patentee
who does not distinguish his product from what is old
except by reference, express or constructive, to the process by which he produced it, cannot secure a monopoly
on the product by whatever means produced.” Gen. Elec.
Co. v. Wabash Appliance Corp., 304 U.S. 364, 373 (1938);
accord Cochrane v. Badische Anilin & Soda Fabrik, 111
U.S. 293, 311 (1884) (“While a new process for producing
[an old product] was patentable, the product itself could
not be patented, even though it was a product made
artificially for the first time.”).

20
Just as “a new product may be patented” in productby-process law “by reciting source or process limitations
so long as the product is new and unobvious,” Amgen, 580
F.3d at 1366 (emphasis added), source limitations can
confer patentability on a new, unobvious method of treatment. The ’755 Patent does not claim recombinant
interferon-Ⱦ itself; it claims methods of treatment with
recombinant interferon-Ⱦ made in a non-human host
cell—i.e., treatment with a product defined by source and
process limitations. That method of treatment itself is
new—it had never been performed in the prior art—and
the jury found (and respondents did not appeal the jury’s
finding) that the method is not obvious.
The entire point of the ’755 Patent, from its very first
columns describing the problem to be solved, is Dr.
Fiers’s proof that recombinant interferon-Ⱦ, even though
structurally different from native interferon-Ⱦ, has the
same biological activity and can be used as a therapeutic
in the same way that the native, human protein had been
used. C.A. App. 136a-140a (37:18-46:37). The Federal
Circuit found anticipation by expressly ignoring the ’755
Patent’s requirements that the interferon-Ⱦ be recombinant and that it be produced in a non-human host cell.
Yet these requirements made Dr. Fiers’s claimed treatment method different from all prior art methods, an
undeniable fact admitted by respondents. App., infra,
63a.
The Federal Circuit’s denial of patentability ignores
Congress’s and this Court’s clear instruction that novel
methods of treatment are different from patenting a
product. The Patent Act begins by separating claims to
processes from claims to things (compositions of matter):
“Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter

21
* * * may obtain a patent therefor, subject to the conditions and requirements of this title.” 35 U.S.C. § 101.
That distinction matters: An inventor may obtain a
patent on the medical use of a natural product, like
lithium to treat neurodegenerative disorders or human
Factor VIII to treat hemophilia, even though the products themselves are “products of nature” and thus not
eligible for patenting under 35 U.S.C. § 101. Likewise, an
inventor may obtain a patent on a new medical use for a
decades-old product, even though the product itself is
long past the era of patent protection. See, e.g., Perricone v. Medicis Pharm. Corp., 432 F.3d 1368, 1378 (Fed.
Cir. 2005).
This Court recognized the fundamental distinction
between method claims and product claims in Association for Molecular Pathology v. Myriad Genetics, Inc.,
569 U.S. 576 (2013), which concerned whether naturally
occurring human DNA that has been isolated could be
patented. The Court invalidated claims directed to human DNA sequences, but drew a critical distinction
between product claims and method claims involving
DNA: “It is important to note what is not implicated by
this decision. First, there are no method claims before
this Court. Had Myriad created an innovative method of
manipulating genes while searching for the BRCA1 and
BRCA2 genes, it could possibly have sought a method
patent.” Id. at 595. The Federal Circuit’s decision defies
Myriad’s clear directive that, even if a product is not
patentable, that does not mean methods of using the
product cannot be patented.
To be sure, a method of treatment using a recombinant protein could be rendered obvious by prior-art
uses of a native, human protein. But here the jury found
that Dr. Fiers’s claimed treatment method was not obvi-

22
ous. This is not surprising given that Dr. Fiers invented
his method in 1980, at the dawn of the biotechnology
revolution. The Federal Circuit’s holding, however, was
not that Dr. Fiers’s invention was obvious—respondents
did not even appeal the jury’s finding of non-obviousness.
Instead, the Federal Circuit ruled that what Dr. Fiers
did had been done before, a conclusion it reached by
holding that the novel features of his invention are legally
irrelevant. This was error.
The Federal Circuit’s application of product-byprocess law to method claims is wrong. That body of law
makes eminent good sense where the patent claim is
directed to a product that is a tangible thing. As this
Court has made clear, one cannot obtain a patent on an
old product merely by virtue of having invented a new
way to make it. Gen. Elec. Co., 304 U.S. at 373. That is
because the tangible thing is the same, whether made by
a new or old process. But methods are inherently different: by definition, a method patent is directed to
activities, not physical things. Here, the claimed method
can only be practiced by the use of a recombinant protein. That means that someone, at some time, must have
performed the genetic engineering necessary to create
the recombinant material, activities entirely absent from
the prior art. Tellingly, when the Federal Circuit held
that it would “defy all reason” and produce “absurd
result[s]” to treat method claims as different, it cited no
precedent in support of this newfound rule. App., infra,
14a-15a.
3. Having established that new, incorrect rule of law
that requires courts to ignore new processes even in
method-of-treatment claims, the Federal Circuit then
compounded its error. It held that recombinant interferon-Ⱦ made in a non-human cell and native, human

23
interferon-Ⱦ are identical even though every witness
agreed that they are different. This, too, ran afoul of
Myriad, in which this Court distinguished between
naturally occurring DNA and its man-made counterpart,
complementary DNA (cDNA). See Myriad, 569 U.S. at
595. Even though it was conceded that the nucleotide
sequence of cDNA is dictated by nature, “the lab
technician unquestionably creates something new when
cDNA is made” and thus cDNA “is distinct from the
DNA from which it was derived.” Ibid. (emphasis
added).
The finding of the district court, based on the undisputed evidence at trial, was that recombinant interferonȾ and native, human interferon-Ⱦ differ in ways analogous to those at issue in Myriad. Native, human interferon-Ⱦ is a 166-amino-acid protein with an attachment of
sugars dictated by its production in human cells. App.,
infra, 8a-9a; C.A. App. 77878 (29:2-13). That is the protein that was used in the prior art references on which
respondents relied for anticipation. Recombinant interferon-Ⱦ has the same amino-acid sequence, but when Dr.
Fiers created it in E. coli, he “unquestionably create[d]
something new” because the glycosylation pattern—that
is, the molecular structure of the polypeptide of the
treatment method—is different from that in native,
human interferon-Ⱦ (or entirely absent where the recombinant molecule is made in E. coli). App., infra, 8a-9a; id.
at 65a-77a; C.A. App. 24315. Indeed, Dr. Fiers’s patent
application begins by noting that there had been priorart therapeutic uses of native, human interferon-Ⱦ, but
explains that his invention was to create a slightly different version of that protein, recombinantly, that could
be used as a therapeutic. C.A. App. 118-121 (2:53-7:36).
There was no evidence before the jury, and there is no

24
evidence at all, that any prior-art use of interferon-Ⱦ
employed the recombinant analogue.
In ruling that Dr. Fiers’s invention was not novel and
hence not patentable, the Federal Circuit went in a
startling new direction. It allowed a jury to find anticipation where the claimed method of treatment undisputedly
did not exist in the prior art. It essentially holds that all
of Dr. Fiers’s time and energy was wasted, because the
express claim language requiring that the protein to be
used for treatment be “recombinant” and made in a “nonhuman” host must be disregarded. The decision threatens an inventor’s ability to patent a new method of treatment using a recombinant protein engineered to provide
therapeutically effective activity in place of the scarce or
unavailable human version.
B. The Federal Circuit’s Decision Will Undermine
Longstanding Incentives and Discourage Investment Essential to Developing New Therapeutic Treatments
The harm of that decision is difficult to overstate. Recombinant technology has enormous medical significance:
The global recombinant-therapy market is estimated to
be some $90 billion now, and growing annually. Global
Therapeutic Proteins Market Report 2020: Market was
Valued at $93.14 Billion in 2018 and is Expected to Grow
to $172.87 Billion through 2022, Business Wire (Dec. 21,
2019), https://www.businesswire.com/news/home/2019122
3005228/en/Global-Therapeutic-Proteins-Market-Report2020-Market-was-Valued-at-93.14-Billion-in-2018-and-isExpected-to-Grow-to-172.87-Billion-through-2022---Re
searchAndMarkets.com. The FDA has approved more
than 140 recombinant proteins for therapeutic use following extensive and costly clinical development by their
sponsors. Recombinant Therapeutic Antibodies and

25
Proteins Market, PharmiWeb (Dec. 17, 2020), https://
www.pharmiweb.com/press-release/2020-12-17/recombi
nant-therapeutic-antibodies-and-proteins-market-shareand-trend-analysis-by-top-leading-playe. Half of the top
ten therapeutic products by sales value are recombinant
proteins.4 These and other recombinant therapeutics
help millions of people get the treatment that they need.
Many diseases and conditions are caused by the human
body failing to make, or failing to make enough of, a
given human protein. Scientists and pharmaceutical inventors use recombinant techniques to replace or supplement proteins that the human body fails to make,
allowing treatment of some of the most dire diseases and
conditions. Hundreds of thousands of hemophilia patients inject themselves with recombinant Factor VIII, a
synthetic analogue to a human protein that they do not
make themselves. Treatment of Hemophilia, Centers for
Disease Control and Prevention (July 17, 2020), https:
//www.cdc.gov/ncbddd/hemophilia/treatment.html. Recombinant Human Growth Hormone has largely replaced
HGH harvested from cadavers. Marzieh Rezaei & Sayyed H. Zarkesh-Esfahani, Optimization of production of
recombinant human growth hormone in Escherichia
coli, 17(7) J. Rsch. Med. Sci. 681 (2012). Recombinant
human insulin replaced porcine-and bovine-sourced
insulin and made it possible for millions of diabetes
sufferers to manage the disease and lead normal lives.
Wolfgang Landgraf & Juergen Sandow, Recombinant
Human Insulins—Clinical Efficacy and Safety in
Humira® (adalimumab); Keytruda® (pembrolizumab); Stelara®
(ustekinumab); Eylea® (aflibercept); and Opdivo® (nivolumab).
Derek Burkhard, et al., The Top 10 Best-Selling Drugs of 2020, Scrip
(Apr. 23, 2021), https://scrip.pharmaintelligence.informa.com/SC
144160/The-Top-10-Best-Selling-Drugs-Of-2020.

4

26
Diabetes Therapy, 12(1) Eur. Endocinology 12 (2016).5
Recombinant granulocyte colony-stimulating factor has
transformed cancer treatment by protecting chemotherapy patients (in the United States approximately
650,000 people per year receive chemotherapy) from lifethreatening infections due to their compromised immune
systems. J. Rusthoven, et al., Use of granulocyte colonystimulating factor (G-CSF) in patients receiving
myelosuppressive chemotherapy for the treatment of
cancer. Provincial Systemic Treatment Disease Site
Group, 2(4) Cancer Prev. Control 179 (1998); Preventing
Infections in Cancer Patients, Centers for Disease
Control and Prevention (Nov. 10, 2020), https://www.
cdc.gov/cancer/preventinfections/providers.htm#:~:text
=Each%20year%2C%20about%20650%2C000%20cancer,
clinic%20in%20the%20United%20States. Recombinant
erythropoietin has counteracted some of the worst side
effects suffered by dialysis patients (of which there are
nearly 500,000 in the United States alone) due to the inability of their blood to carry sufficient oxygen. J. Cody,
et al., Recombinant human erythropoietin for chronic
renal failure anaemia in pre-dialysis patients, Cochrane
Database Syst. Rev. (2005); Kidney Disease Statistics for
the United States, National Institute of Health (2015),
https://www.niddk.nih.gov/health-information/health-sta
tistics/kidney-disease#:~:text=More%20than%20661%2
C000%20Americans%20have,with%20a%20functioning%
20kidney%20transplant. Humira® (recombinant adalimumab) is approved to treat moderate to severe rheumatoid arthritis (approximately 1.5 million Americans
As of 2015, insulin was used by approximately six million Americans. Fast Facts Data and Statistics About Diabetes, American Diabetes Association (Dec. 2015), https://professional.diabetes.org/sites
/professional.diabetes.org/files/media/fast_facts_12-2015a.pdf.
5

27
had rheumatoid arthritis as of 2007), plaque psoriasis
(125 million people worldwide suffer from psoriasis),
moderate to severe Crohn’s disease (approximately
593,000 to 780,000 people in the United States have been
diagnosed with Crohn’s disease), ulcerative colitis
(approximately one million people in the United States
have ulcerative colitis), among other indications.
Humira, https://www.humira.com/; Arthritis by the
Numbers at 31, Arthritis Foundation (2019), https://
www.arthritis.org/getmedia/e1256607-fa87-4593-aa8a-8db
4f291072a/2019-abtn-final-march-2019.pdf; Psoriasis Statistics, National Psoriasis Foundation (Oct. 8, 2020),
https://www.psoriasis.org/psoriasis-statistics/; Michael L.
Ganz, et al., The Economic and Health-related Impact of
Crohn’s Disease in the United States: Evidence from a
Nationally Representative Survey, 22(5) Inflamm. Bowel
Dis. 1032 (2016); Bruce Goldman, Stanford scientists link
ulcerative colitis to missing gut microbes, Stanford
Medicine (Feb. 25, 2020), https://med.stanford.edu/
news/all-news/2020/02/stanford-scientists-link-ulcerativecolitis-to-missing-gut-micro.html#:~:text=About%201%
20million%20people%20in,condition%20to%20a%20missi
ng%20microbe. Monoclonal antibodies derived from human Covid-19 survivors and produced recombinantly are
used (in combination with a murine-derived antibody) to
treat the most seriously affected patients. Coronavirus
(COVID-19) Update: FDA Authorizes Monoclonal Antibodies for Treatment of COVID-19, U.S. Food & Drug
Administration (Feb. 9, 2021), https://www.fda.gov/ newsevents/press-announcements/coronavirus-covid-19update
-fda-authorizes-monoclonal-antibodies-treatment-covid19-0. In each of these instances, investment in the development of an effective recombinant protein revolutionized the treatment of a disease.

28
Literally hundreds of other recombinant proteins are
believed to be in pre-clinical or clinical development for
treating diseases. But such development requires immense resources: The most recent studies show that
bringing a new biologic medicine (the category in which
recombinant proteins fall) to market costs on average
$2.6 billion. Joseph A. DiMasi, et al., Innovation in the
pharmaceutical industry: New estimates of R&D costs,
47 J. of Health Econ. 20 (2016). And this work is risky:
for every such medicine that comes to market, dozens of
others fail. See, e.g., Biotechnology Innovation Organization, Clinical Development Success Rates 2006-2015, at
3 (2016).6 Patent protection provides a vital incentive
that makes it possible to create these groundbreaking
medical innovations. By providing time-limited exclusivity, patents allow research-based companies to use the
revenue from the handful of their successes to pay for
creating the next generation of new treatments.
The Federal Circuit’s decision stands to upend this
careful balance. Holding that a method of treatment with
newly created recombinant material is anticipated by a
prior-art method of treatment with non-recombinant
material upsets the settled expectations of all those currently working on new recombinant medicines. Those
settled expectations matter because, as noted above, the
development of new medical treatments using recombinant technology is enormously expensive. For companies
to continue to invest in such high-risk research and
development, robust and predictable patent protection is
essential.

https://www.bio.org/sites/default/files/legacy/bioorg/docs/Clinical%2
0Development%20Success%20Rates%202006-2015%20-%20BIO,%20
Biomedtracker,%20Amplion%202016.pdf.

6

29
By holding that a method of treatment with a recombinant protein is anticipated by treatment with the nonidentical native, human protein of which it is an analogue,
the Federal Circuit’s decision dramatically changes the
incentives and threatens to curtail development in these
desperately needed areas.
C. This Is an Appropriate Vehicle To Address
These Important Issues
This case presents a clean, undisputed set of facts.
Recombinant interferon-Ⱦ and native, human interferonȾ contain the same sequence of 166 amino acids dictated
by nature, but due to the different sugar groups attached
to the amino acids the two molecules—and indeed, the
amino acids themselves—are not the same. There is no
dispute that no prior art reference disclosed each of the
elements of the ’755 Patent’s claims. The Federal Circuit’s decision thus presents a pure question of law, which
this Court would review de novo.
From those undisputed facts, the Court’s clarification
(and, Biogen submits, re-confirmation) of the law of anticipation would have widespread impact across a range of
cases and technologies, incentivizing medical innovation
and providing needed guidance to biopharmaceutical
companies as they evaluate which needed therapies they
can (or cannot) economically pursue.
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,
NICHOLAS GROOMBRIDGE
ERIC ALAN STONE
PETER SANDEL
JENNY C. WU
JOSEPHINE YOUNG
PAUL, WEISS, RIFKIND
WHARTON & GARRISON
LLP
1285 Ave. of the Americas
New York, NY 10019
(212) 373-3000

JEFFREY A. LAMKEN
Counsel of Record
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Petitioner
MAY 2021

ÿ
ÿ
ÿ
ÿ
ÿ
ÿ

12234567ÿ

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
[AS AMENDED]
————
NO. 2019-1133
————
BIOGEN MA INC.,
Plaintiff-Appellee,
v.
EMD SERONO, INC.,
PFIZER INC.,
Defendants-Appellants,
BAYER HEALTHCARE PHARMACEUTICALS INC.,
NOVARTIS PHARMACEUTICALS CORPORATION
Defendants.
————
Appeal from the United States District Court for the
District of New Jersey in No. 2:10-cv-02734-CCC-MF,
United States District Judge Claire C. Cecchi.
————
OPINION
————
September 28, 2020
————
NICHOLAS P. GROOMBRIDGE, Paul, Weiss, Rifkind,
Wharton & Garrison LLP, New York, NY, argued for
plaintiff-appellee. Also represented by PETER SANDEL,
ERIC ALAN STONE, JENNY CHIA CHENG WU, JOSEPHINE
(1a)

2a
YOUNG; DAVID J. BALL, JR., Washington, DC; JOHN D.
TORTORELLA, KEVIN H. MARINO, Marino Tortorella &
Boyle, PC, Chatham, NJ.
MARK ANDREW PERRY, Gibson, Dunn & Crutcher
LLP, Washington, DC, argued for defendants-appellants.
Also represented by CHRISTINE RANNEY, Denver, CO;
WAYNE M. BARSKY, TIMOTHY P. BEST, Los Angeles, CA;
JAYSEN CHUNG, San Francisco, CA.
BRUCE GENDERSON, Williams & Connolly LLP,
Washington, DC, for amicus curiae Bayer Healthcare
Pharmaceuticals Inc. Also represented by DAVID I.
BERL, SETH BOWERS, DAVID M. KRINSKY.
————
Before NEWMAN, LINN, and HUGHES, Circuit Judges.
LINN, Circuit Judge.
This appeal arises from a suit filed by Biogen MA, Inc.
(“Biogen”) against EMD Serono, Inc. and Pfizer, Inc.
(collectively “Serono”) in the District of New Jersey.1
The suit alleged contributory and induced infringement
of Biogen’s U.S. Patent Number 7,588,755 (“ ’755 patent”)
by the sale and marketing in the United States of Rebif, a
recombinant interferon-Ⱦ (“IFN-Ⱦ”) product used for the
treatment of Multiple Sclerosis (“MS”). After a fiveweek trial, a jury found that the ’755 patent claims were
anticipated by two references teaching the use of native
IFN-Ⱦ to treat viral diseases: Kingham et al., Treatment
of HBsAg-positive Chronic Active Hepatitis with HuBiogen also asserted infringement claims against Bayer Healthcare
Pharmaceuticals Inc. (“Bayer”) and Novartis Pharmaceuticals Corp.
(“Novartis”). The actions against Bayer and Novartis were severed
from those giving rise to this appeal. Order Granting Bayer’s Motion to Sever, Oct. 27, 2017, ECF No. 743. Bayer filed an amicus
brief here.

1

3a
man Fibroblast Interferon, 19(2) Gut 91 (1978) (“Kingham”) and Sundmacher et al., Human Leukocyte and
Fibroblast Interferon in a Combination Therapy of
Dendritic Keratitis, 208(4) Albrecht von Graefes Archiv
für Klinische & Experimentelle Opthalmologie 229 (1978)
(“Sundmacher”). The jury also held the asserted claims
not invalid for lack of enablement or written description,
or for obviousness. Finally, the jury held that patients
and prescribers directly infringed the asserted claims
and that Serono contributorily infringed the claims but
did not induce infringement thereof.
On cross-motions, the district court granted judgment
as a matter of law (“JMOL”) of no anticipation in favor of
Biogen and conditionally granted a new trial on anticipation. In re Biogen ’755 Patent Litig., 335 F. Supp. 3d 688
(D.N.J. 2018) (“Biogen I”). The district court also ruled
in favor of Biogen: sustaining the jury’s verdict of no invalidity based on written description or enablement;
overturning the verdict of no induced infringement; sustaining the verdict of contributory infringement; and
holding that the ’755 patent claims were not patent ineligible. Id. Serono appeals the district court’s JMOL rulings on anticipation, written description, enablement,
contributory infringement, induced infringement and patent eligibility. We have jurisdiction under 28 U.S.C.
§ 1295(a).
Because a reasonable jury could find the claims of the
’755 patent anticipated on the record presented in this
case, we reverse the district court’s JMOL of no anticipation and its conditional grant of new trial on that ground.
We remand with instructions to reinstate the jury verdict
of anticipation. We need not and do not address the other grounds asserted on appeal.

4a
I
The ’755 patent is directed to a method of treating a
viral condition, a viral disease, cancers or tumors, by administration of a pharmaceutically effective amount of a
recombinant polypeptide related to human interferon-Ⱦ
(“IFN-Ⱦ”). The human immune system naturally produces IFN-Ⱦ in small amounts, and it is undisputed that
IFN-Ⱦharvested from human cells (“native IFN-Ⱦ”) was
used in the prior art to treat viral conditions. See ’755
patent, col. 2, l. 53-col. 4, l. 22.
Representative claim 1 of the ’755 patent reads:
1. A method for immunomodulation or treating a viral
condition[ ], a viral disease, cancers or tumors comprising the step of administering to a patient in
need of such treatment a therapeutically effective
amount of a composition comprising:
a recombinant polypeptide produced by a nonhuman host transformed by a recombinant DNA
molecule comprising a DNA sequence selected
from the group consisting of:
(a) DNA sequences which are capable of hybridizing to any of the DNA inserts of GpBR322(Pst)/HFIF1, G-pBR322(Pst)/HFIF3
(DSM 1791), G-pBR322(Pst)/HFIF6 (DSM
1792), and GpBR322(Pst)/HFIF7 (DSM 1793)
under hybridizing conditions of 0.75 M NaCl
at 68° C. and washing conditions of 0.3 M
NaCl at 68° C., and which code for a polypeptide displaying antiviral activity, and
(b) DNA sequences which are degenerate as a
result of the genetic code to the DNA sequences defined in (a);

5a
said DNA sequence being operatively linked to
an expression control sequence in the recombinant DNA molecule.
’755 patent, col. 49, l. 59-col. 50, l. 12. Dependent claim 2
replaces the “capable of hybridizing” limitation with a
selection from two particular DNA sequences, one of
which is the DNA sequence of human interferon-beta.
Id. at col. 50, ll. 13-52. Claims 1 and 2 thus define the
claimed polypeptide by reference to the DNA sequence
inserted into the host during the recombinant manufacture of the polypeptide. Claim 3, dependent from claim 1,
limits the polypeptide to a particular linear polypeptide
sequence. Because the claimed IFN-Ⱦ DNA and polypeptide sequences are derived from human IFN-Ⱦ, it is
indisputable that native human IFN-Ⱦ is capable of hybridizing with the DNA sequences in claim 1, is produced
by one of the DNA sequences laid out in claim 2, and
comprises the amino acid sequence set out in claim 3.
See J.A. 47784 (Fiers Aff. To the Canadian Patent Office,
indicating that the recombinant IFN-Ⱦ was derived from
human IFN-Ⱦ cDNA); J.A. 77897 (Dr. Green Test., testifying that the sequences claimed in claim 1 are “DNA
that will hybridize to one of the four human beta interferon clones”); J.A. 77904 (Dr. Green Test., testifying
that accused-product Rebif is capable of hybridizing to
one or more of the DNA inserts because the DNA sequence it used is identical to the published sequence of
human IFN-Ⱦ). For purposes of this opinion, we refer to
“recombinant IFN-Ⱦ” as shorthand for the recombinant
protein that meets these claim limitations.
During Markman, the district court held that claim 1
covers a “one-step method of ‘administering’ to a patient
in need the specified recombinant HuIFN-Ⱦ.” Markman
Opinion at 17, Mar. 28, 2016, ECF No. 403. The district

6a
court considered the claimed “produced” and “transformed” steps “merely descriptive of the recombinant
polypeptide to be administered,” i.e. merely source limitations. Id. at 15. The district court also held that it was
“unclear that [the] method of treatment claim can be
treated as a product-by-process claim,” and that it was
“aware of no binding precedent requiring method of
treatment claims to be treated as product-by-process
claims in the claim construction context.” Id. at 14. The
district court did not construe “polypeptide,” “therapeutically effective amount,” or “antiviral activity,” and neither party asked the court to consider whether the claims
covered the linear sequence of amino acids or the threedimensional structure of the protein.
Biogen, Serono, and Bayer all moved for summary
judgment. Before Bayer was severed, Bayer argued that
it was entitled to summary judgment of anticipation because the claimed recombinant IFN-Ⱦ and the prior art
native IFN-Ⱦ shared the same linear amino acid sequence. The district court denied Bayer’s motion, holding, inter alia, that the claims require the polypeptide to
have “antiviral activity” and be administered in a “therapeutically effective amount.” Summary Judgment Opinion at 28, Jan. 9, 2018, ECF No. 892. The district court
concluded that those requirements necessitate that the
polypeptide “be folded into its appropriate threedimensional structure,” and that Bayer was therefore not
entitled to summary judgment of anticipation by merely
showing that the amino acid sequence of recombinant
IFN-Ⱦ and the amino acid sequence of native IFN-Ⱦ were
identical. Id.
After a five-week trial, Biogen and Serono both moved
for JMOL under Federal Rule of Civil Procedure 50(a).
The district court deferred ruling until the jury verdict.

7a
Among other issues, the court submitted anticipation,
obviousness, enablement, written description, and contributory and induced infringement to the jury. In its
charge on anticipation, the district court told the jury
that “[t]he term ‘polypeptide’ means ‘a linear array of
amino acids connected one to the other by peptide bonds
between the Ƚamino and carboxy groups of adjacent amino acids,’ ” and that the jury “must accept my definition
of these words in the claims as correct.” Final Jury Instructions at 17, Feb. 21, 2018, ECF No. 968. Biogen did
not object to these instructions and did not request any
instruction defining the polypeptide in terms of its threedimensional structure or requiring identity of the threedimensional structures of native IFN-Ⱦ and recombinant
IFN-Ⱦ proteins to establish anticipation.
The jury held, inter alia, that all claims in the ’755 patent were invalid as anticipated by native IFN-Ⱦ; not invalid for obviousness, lack of enablement or lack of written description; and that Serono was liable for contributory infringement but not induced infringement. Jury
Verdict Form at 1-6, Feb. 23, 2018, ECF No. 977.
Both parties renewed their JMOL motions. As relevant here, the district court granted Biogen’s motion of
no anticipation as a matter of law. Biogen I, 335 F. Supp.
3d at 713. In a comprehensive opinion, the district court
held that no reasonable jury could find anticipation under
Serono’s reading of the claims. First, applying a structural reading of the recombinant limitations, the district
court held that Serono had not identified any prior art
that disclosed “treatment with a ‘therapeutically effective
amount’ of a composition comprising a ‘recombinant’ interferon-Ⱦ polypeptide produced in a ‘non-human host’
that had been ‘transformed by a recombinant DNA molecule.’ ” Id. at 704. [JA21]. The district court reasoned

8a
that because treatment in the prior art entailed administration of native IFN-Ⱦ, which was undisputedly not
recombinantly produced, no reasonable jury could find
anticipation. Id. at 705. The district court cited but did
not distinguish Amgen Inc. v. Hoffman-La Roche Ltd.,
580 F.3d 1340 (Fed. Cir. 2009), which analyzed anticipation of a claimed recombinant erythropoietin (“EPO”) by
prior art urinary (i.e. natural) EPO. Biogen I, 335 F.
Supp. 3d at 1367. The district court declined to apply a
product-by-process analysis to a product-by-process limitation contained within a method of treatment claim, concluding that no precedent required such an analysis and
that the policy informing product-by-process claims—to
enable an inventor to claim an otherwise difficult-todefine product—was inapplicable to the instant method
of treatment claims. Id. at 712-13.
In the alternative, the district court held that no reasonable jury could have found anticipation even applying
a product-by-process analysis. Id. at 705-11. The district
court explained that because the claims required administration of a “therapeutically effective amount” of a recombinant polypeptide that “displays antiviral activity,”
the product resulting from the claimed recombinant process is defined by the folded three-dimensional structure
of the protein. Id. at 705 (discussing Summary Judgment
Opinion at 28, Jan. 9, 2018, ECF No. 892). The district
court held that the jury lacked substantial evidence that
the native IFN-Ⱦ protein as disclosed in Kingham and
Sundmacher was structurally or functionally identical to
the claimed three-dimensional recombinant IFN-Ⱦ protein. Id.
With respect to structural identity, the district court
explained that the glycosylation patterns in native IFN-Ⱦ
and recombinant IFN-Ⱦ were different, and that this

9a
change affected the three-dimensional structure of the
protein. Id. The district court—relying on expert testimony by Serono’s expert, Dr. Lodish, and statements
found in a post-priority date reference created by InterPharm Laboratories Ltd. entitled “Comparative Biochemical Analysis of Native Human Fibroblast lnterferon
and Recombinant Beta Interferon Expressed by Chinese
Hamster Ovary Cells” (“InterPharm”)—concluded that
native and recombinant IFN-Ⱦ were not identical but
merely very similar. Id. at 706-07. The district court
opined that the structural differences alone preclude anticipation. Id. at 710-11 (relying primarily on this court’s
decision in Amgen, 580 F.3d at 1367-69, in which we affirmed a holding of no anticipation based on structural
differences). Finally, the district court discounted the
conclusion in the InterPharm study that recombinant
IFN-Ⱦ and native IFN-Ⱦ were identical. It held that
there was no substantial evidence that the generic “native IFN-Ⱦ” analyzed in the InterPharm study and found
to be identical to recombinant IFN-Ⱦ was the same native
IFN-Ⱦ taught in the prior art. Id. at 708.
As for functional identity, the district court held that
the relative ease of manufacture of recombinant IFN-Ⱦ in
large quantities functionally distinguished it from native
IFN-Ⱦ. Id. at 709-10.
For these reasons, the district court granted JMOL of
no anticipation. Id. at 713. The district court also conditionally granted Biogen’s motion for a new trial on anticipation “[f]or the same reasons the Court grants Biogen’s
JMOL motion.” Id. The district court added that the
trial was complex and was “noticeably focused on issues
other than anticipation,” such that that the jury verdict
deserved close scrutiny. Id.

10a
Serono appeals. We have jurisdiction under 28 U.S.C.
§ 1295.
II
We review the grant of JMOL and the grant of new
trial under the law of the regional circuit. Uniloc USA,
Inc. v. Microsoft Corp., 632 F.3d 1292, 1301, 1309 (Fed.
Cir. 2011). The Third Circuit reviews the grant of JMOL
for a fact question de novo, affirming “only if, viewing the
evidence in the light most favorable to the nonmovant
and giving it the advantage of every fair and reasonable
inference, there is insufficient evidence from which a jury
reasonably could find liability.” Lightning Lube, Inc. v.
Witco Corp., 4 F.3d 1153, 1166-67 (3d Cir. 1993); Garzier
ex rel. White v. City of Phila., 328 F.3d 120, 123 (3d Cir.
2003) (“A district court should grant such a motion only
if, viewing all the evidence in favor of the nonmoving party, no reasonable jury could find liability on a particular
point.”). The Third Circuit reviews the conditional grant
of a new trial against the weight of the evidence for an
abuse of discretion, “unless the court’s denial is based on
the application of a legal precept, in which case the
standard of review is plenary.” Lightning Lube, 4 F.3d
at 1167.
III
A claim is anticipated only if “each and every [limitation] is found within a single prior art reference.” Summit 6, LLC v. Samsung Elecs. Co., 802 F.3d 1283, 1294
(Fed. Cir. 2015). Anticipation is a factual question and
thus within the ordinary provenance of the jury. Lighting Ballast Control LLC v. Phillips Elecs. N. Am. Corp.,
790 F.3d 1329, 1340 (Fed. Cir. 2015).
In evaluating the evidentiary record presented to the
jury on the question of anticipation, the district court:
(1) declined to apply a product-by-process analysis to the

11a
claimed recombinant IFN-Ⱦ source limitation; and (2) in
its alternative ground analysis, required identity of
three-dimensional structures not specifically recited in
the claims rather than the claimed and lexicographically
defined “polypeptide.” Both of these determinations led
to an erroneous conclusion on anticipation.
A. The Recombinant Source of the Polypeptide
The district court, focusing on the process of making
recombinant IFN-Ⱦ, concluded that it need not analyze
whether native IFN-Ⱦ and recombinantly produced IFNȾ were identical because neither Kingham nor Sundmacher prior art reference taught a method of treatment
using recombinant IFN-Ⱦ. Biogen I, 335 F. Supp. 3d at
704. It categorized the “produced” and “transformed”
limitations as meaningful “source limitations.” Id. at 71112. The district court was convinced that because the recombinant source limitations here overcame the shortcoming of the prior art—namely, the unavailability of native IFN-Ⱦ in sufficient quantity to facilitate practical
treatment—the recombinant nature of the claimed IFNȾ “lies at the heart of the benefit of this invention” [and]
should be given “force and effect in the anticipation analysis.’ ” Id. (quoting Biogen’s statements at JMOL hearing, Trial Tr. 6/6/18 at 12:7-10). The district court reasoned that no binding precedent required it to apply a
product-by-process analysis to a limitation contained in a
method of treatment claim, and held that the rationale
underlying the use of product-by-process claims—to allow claiming of an otherwise difficult-to-define invention,
see SmithKline, 439 F.3d at 1315—did not apply to the
claims here because the “product” itself was sufficiently
described. Biogen I, 335 F. Supp. 3d. at 713. The district
court thus concluded there could be no anticipation, re-

12a
gardless of whether Serono had shown the identity of native IFN-Ⱦ and recombinant INF-Ⱦ.
Serono contends that Biogen has waived any argument that the recombinant source of the IFN-Ⱦ can alone
confer novelty because Biogen’s pre-verdict JMOL motion only argued that native IFN-Ⱦ and recombinant
IFN-Ⱦ were not identical. We find no waiver. The source
limitation was one of the bases for Biogen’s argument of
non-identity and was considered by the district court at
Summary Judgment and in its opinion on JMOL.
On the merits, Serono asserts that a source limitation
alone cannot confer novelty unless the product itself is
novel. Serono argues that the district court erred by
holding that the lack of a recombinantly produced IFN-Ⱦ
product in the prior art compelled a finding of no anticipation. Biogen argues that the source of the IFN-Ⱦ matters is an independent limitation.
We agree with Serono. The district court’s refusal to
consider the identity of recombinant and native IFN-Ⱦ
runs afoul of the longstanding rule that “an old product is
not patentable even if it is made by a new process.”
Amgen, 580 F.3d at 1366. See also Gen. Elec. Co. v. Wabash Appliance Corp., 304 U.S. 364, 373 (1938) (“[A] patentee who does not distinguish his product from what is
old except by reference, express or constructive, to the
process by which he produced it, cannot secure a monopoly on the product by whatever means produced.”);
Cochrane v. Badische Anilin & Soda Fabrik, 111 U.S.
293, 311 (1884) (“While a new process for producing [an
old product] was patentable, the product itself could not
be patented, even though it was a product made artificially for the first time.”); SmithKline Beecham Corp. v.
Apotex Corp., 439 F.3d 1312, 1317 (Fed. Cir. 2006) (“It
has long been established that one cannot avoid anticipa-

13a
tion by an earlier product disclosure by claiming the
same product . . . as produced by a particular process.”).
In Amgen, we explained that a claim to a recombinant
EPO composition must be analyzed for novelty by comparing the recombinant EPO to the prior art urinary
EPO. We further explained that simply because prior art
urinary EPO was not made recombinantly was not
enough to avoid anticipation as a matter of law.2 580 F.3d
at 1370 (“To prove invalidity, Roche had to show that recombinant EPO was the same as urinary EPO, even
though urinary EPO was not made recombinantly.”)
(emphasis added). The key question was “whether the
production of EPO by recombinant technology resulted
in a new product,” id. at 1367, or, “[i]n other words, does
the source limitation ‘purified from mammalian cells
grown in culture’ distinguish recombinant EPO from
[prior art] urinary EPO?” Id.
The nature of the origin or source of the composition
recited in the claims at issue in this case is, in all relevant
respects, identical to that considered in Amgen. As in
Amgen, the recombinant origin of the recited composition cannot alone confer novelty on that composition if
the product itself is identical to the prior art nonThe key claim in Amgen read: “A pharmaceutical composition comprising a therapeutically effective amount of human erythropoietin
and a pharmaceutically acceptable diluent, adjuvant or carrier,
wherein said erythropoietin is purified from mammalian cells grown
in culture.” 580 F.3d at 1364. An additional independent claim in a
related patent read: “A non-naturally occurring glycoprotein product
of the expression in a mammalian host cell of an exogenous DNA
sequence comprising a DNA sequence encoding human erythropoietin said product possessing the in vivo biological property of causing
bone marrow cells to increase production of reticulocytes and red
blood cells.” Id. In relevant part, we applied the same analysis to
both claims.
2

14a
recombinant product. The requirements that the claimed
polypeptide is “recombinant” and “produced by a nonhuman host transformed by a recombinant DNA molecule” (in the case of Claim 1 of the ’755 patent) describe
the process by which the product, i.e. the “polypeptide,”
is formed. These are not additional structural limitations. See Purdue Pharma L.P. v. Epic Pharma, LLC,
811 F.3d 1345, 1353 (Fed. Cir. 2016) (holding that because a source limitation of a composition “has no effect
on its structure . . . [that] limitation . . . cannot be a structural limitation”). The key question for anticipation here,
as in Amgen, is thus whether the recombinant product is
identical to the prior art product—not whether the prior
art product was made recombinantly.
Biogen argues that Amgen is limited to composition
claims and is not applicable to the method of treatment
claims at issue here. To support this proposition, Biogen
relies on general statements in product-by-process cases
such as In re Thorpe, 777 F.2d 695, 697 (Fed. Cir. 1985)
(applying product-by-process analysis for “an otherwise
patentable product”) (emphasis added), and the wellrecognized distinction patent law draws between the
scope of composition and method of treatment claims.
See, e.g., Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 595 (2013) (recognizing the distinct scope for composition and method of treatment
claims in the context of 35 U.S.C. § 101).
Biogen’s only basis for novelty of the method of treatment claims at issue here is the novelty of the recombinant IFN-Ⱦ composition that is administered. That composition is claimed in terms of the process by which it is
manufactured. If the novelty of the recombinant IFN-Ⱦ
composition requires comparing its structure to the
structure of native IFN-Ⱦ, as Amgen requires, it would

15a
defy all reason to excuse that analysis for a method of
administration claim using that composition. Such a rule
could have the absurd result that a recombinant composition could be non-novel, the method of administration
could be non-novel, but the method of administration of
the composition defined by the process of its manufacture
would be novel as a matter of law.
There is no logical reason why the nesting of a product-by-process limitation within a method of treatment
claim should change how novelty of that limitation is
evaluated. Indeed, we have previously applied productby-process analysis to a nested limitation. In Purdue
Pharma, we interpreted a claim to “an oral dosage form
comprising . . . oxycodone hydrochloride active pharmaceutical ingredient having less than 25 ppm 14-hydroxy[ ],
wherein at least a portion of the 14-hydroxy [ ] is derived
from 8Ƚ[ ] during conversion of oxycodone free base to
oxycodone hydrochloride” as including a product-byprocess limitation; namely, the 14-hydroxy as derived.
Purdue Pharma, 811 F.3d at 1353 (emphasis omitted).
Similar to our analysis here, the court in Purdue Pharma
held that it was appropriate to focus on the identity of the
products of the claimed and prior art processes, and not
on the source limitation, in analyzing obviousness. See
id. at 1353-54. The nesting of the product-by-process
limitation within a method of treatment claim does not
change the proper construction of the product-by-process
limitation itself.
We are also unpersuaded by the district court’s and
Biogen’s reasoning that a product-by-process-type analysis is inappropriate here because the composition was
otherwise capable of definition other than by the process.
That argument is precluded by Amgen, where the product was also well-defined in the claims: “human erythro-

16a
poietin . . . wherein said erythropoietin is purified from
mammalian cells grown in culture.” 580 F.3d at 1364.
Furthermore, as noted supra, the rule in Amgen is a
necessary outgrowth of the black-letter legal principle
that an old product made by a new process is not novel
and cannot be patented. Logic compels extending that
rule to the present case; an old method of administration
of an old product made by a new process is not novel and
cannot be patented.
Biogen is certainly correct that the scope of composition and method of treatment claims is generally subject
to distinctly different analyses. But where, as here, the
novelty of the method of administration rests wholly on
the novelty of the composition administered, which in
turn rests on the novelty of the source limitation, the
Amgen analysis will necessarily result in the same conclusion on anticipation for both forms of claims.
Finally, the district court erred in considering the advantages of the recombinant process—the new capability
of manufacturing sufficient quantities of IFN-Ⱦ through
recombinant technology—as a reason not to apply a
product-by-process analysis. See Biogen I, 335 F. Supp.
3d at 713. That consideration may well be relevant in
considering the novelty of the recombinant process, but, a
new process, regardless of its novelty, does not make an
old product created by that process novel. This does not
fail to give “force and effect” to the heart of the claimed
invention; it protects the public from attempts to excise
old products from the public domain.
Because a proper anticipation analysis of the claims in
the ’755 patent turns not on the source of the claimed
polypeptide but on a comparison of the claimed recombinant polypeptide and the prior art native polypeptide, the
district court erred in concluding that the mere absence

17a
of recombinantly produced IFN-Ⱦ in the prior art was
sufficient to grant JMOL of no anticipation.
B. The Three-Dimensional Structure of the Polypeptide
The district court also held that even applying a product-by-process type analysis, no reasonable jury could
have found anticipation because the jury lacked sufficient
evidence of identity between the claimed recombinant
“polypeptide” and the native IFN-Ⱦ. In particular, the
district court concluded that just because recombinant
and native IFN-Ⱦ “share the same linear amino acid sequence is not enough for purposes of anticipation.” Id. at
705. The district court took the position that native polypeptide anticipates the “recombinant polypeptide” only if
their respective folded three-dimensional proteins share
identical structure and function. Id. The district court
reasoned that without a disclosure in the prior art of such
three-dimensional protein, a showing of the native polypeptide alone would not necessarily produce “antiviral
activity” when administered in a “therapeutically effective amount” as recited in the claims. Id. (citing Summary Judgment Opinion at 28, ECF No. 892). This was
error.
The “product” administered in the claimed method is
the “polypeptide.” See ’755 patent, col. 49, ll. 59-64 (“A
method . . . comprising the step of administering . . . a
therapeutically effective amount of a composition comprising: a recombinant polypeptide produced by a nonhuman host . . . .”). As noted supra, the key question for
anticipation is whether the native “polypeptide” is identical to the “polypeptide” “produced by” the recited recombinant process.
Biogen explicitly defined “polypeptide” in the ’755 patent:

18a
Polypeptide—A linear array of amino acids connected one to the other by peptide bonds between
the Ƚ-amino and carboxy groups of adjacent amino
acids.
’755 patent, col. 8, ll. 62-64. The “polypeptide” structure
is thus defined by reference to its “linear” array, without
regard to its folded protein structure. The district court
charged the jury with this definition, adding that the jury
“must accept my definition of these words in the claims
as correct.” Final Jury Instructions at 17, ECF No. 968.
Biogen did not object to this charge and did not ask the
court for a jury instruction requiring identity of the folded protein structures.
As the district court recognized on summary judgment, “Biogen does not dispute that ‘[t]he sequential order of the amino acid residues for native IFN-Ⱦ is the
same as the sequential order of the amino acid residues
for recombinant IFN-Ⱦ.’ ” Summary Judgment Opinion
at 27, ECF No. 892. See also Biogen Brief at 19. Thus,
the native IFN-Ⱦ polypeptide and the claimed recombinant IFN-Ⱦ polypeptide are identical for purposes of the
instant claim.
Biogen argues that the district court was correct in
requiring identity not just of the polypeptide, but also of
the folded proteins, because the claims require the administration of “a therapeutically effective amount of a
composition” and that the DNA sequences in the claims
must “code for a polypeptide displaying antiviral activity.” Biogen asserts that only three-dimensional proteins
can be therapeutically effective and have antiviral activity, and therefore that the “product” to be analyzed for
novelty is the folded three-dimensional protein, not just
the amino acid sequence.

19a
Biogen is incorrect. First, Biogen’s argument fails to
give effect to Biogen’s explicit definition of “polypeptide”
in the specification. We must respect this lexicographic
choice. See Edward Lifesciences LLC v. Cook Inc., 582
F.3d 1322, 1329 (Fed. Cir. 2009) (“[W]e will adopt a definition that is different from the ordinary meaning when
‘the patentee acted as his own lexicographer and clearly
set forth a definition of the disputed claim term in . . . the
specification’ ” (quoting CCS Fitness, Inc. v. Brunswick
Corp., 288 F.3d 1359, 1366-67 (Fed. Cir. 2002))). Biogen
does not attempt to square its theory with the definition
in the specification.
Second, Biogen draws the wrong conclusion from the
claimed antiviral activity limitation. The claims, in calling
for antiviral activity, do not recite any specific folded
three-dimensional structure that gives rise to that activity. While it is indisputable that an amino acid sequence
alone cannot give rise to antiviral activity, it is also indisputable that every linear sequence of amino acids will
fold into some three-dimensional configuration. The
claimed antiviral activity can arise from the administration of any three-dimensional protein with a linear amino
acid sequence identical to the claimed recombinant “polypeptide.”
Finally, and importantly, Biogen did not ask for a jury
instruction on anticipation that required comparing the
three-dimensional protein structures of prior art IFN-Ⱦ
and the claimed recombinant IFN-Ⱦ. Neither Biogen nor
the district court can reframe the anticipation inquiry on
JMOL to focus on the unclaimed three-dimensional protein structure, where the jury was instructed, without
objection, to decide anticipation based on the linear amino acid sequence. See Finjan, Inc. v. Blue Coat Sys.,
Inc., 879 F.3d 1299, 1306 (Fed. Cir. 2018) (“[I]t is too late

20a
at the JMOL stage to . . . adopt a new and more detailed
interpretation of the claim language and test the jury
verdict by that new and more detailed interpretation.”
(quoting Hewlett-Packard Co. v. Mustek Sys., Inc., 340
F.3d 1314, 1321 (Fed. Cir. 2003))).
The jury was correctly instructed that “to be entitled
to a patent, the invention must actually be ‘new.’ ” J.A.
81262. It is undisputed that the prior art here teaches
the administration of native IFN-Ⱦ that has a linear amino acid sequence identical to the linear amino acid sequence of the recited recombinant IFN-Ⱦ and that shows
antiviral activity. See ’755 patent, col. 3, ll. 4-14. The jury thus had sufficient evidence to find that native IFN-Ⱦ
polypeptide is identical to recombinant IFN-Ⱦ polypeptide, was administered in therapeutically effective
amounts, and showed antiviral activity in the prior art.
The district court thus erred in granting JMOL of no anticipation. 3
IV. CONDITIONAL GRANT OF NEW TRIAL
The district court also conditionally granted a new trial on anticipation. The district court’s grant of a new trial
was based on the same legal errors supporting its grant
of JMOL. Biogen I, 335 F. Supp. 3d at 713 (“For the
same reasons the Court grants Biogen’s JMOL motion,
the Court conditionally orders a new trial on anticipation.”). None of the additional considerations noted by
the district court in support of its conditional grant of a
new trial are independently sufficient to support its deci-

Because the proper construction of the claims does not require
comparison of the three-dimensional structure of prior art native
IFN-Ⱦ and recombinant IFN-Ⱦ, we need not consider the parties’
contested readings of the InterPharm study or the evidence or lack
thereof of structural identity.
3

21a
sion. We therefore reverse the district court’s grant of a
conditional new trial on anticipation.
CONCLUSION
For the reasons discussed above, we reverse the district court’s grant of judgment as a matter of law of no
anticipation and the conditional grant of a new trial on
anticipation. We remand with instructions to reinstate
the jury verdict on anticipation. We need not and do not
address the several other issues raised by the parties on
appeal.
REVERSED AND REMANDED

22a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
NO. 2019-1133
————
BIOGEN MA INC.,
Plaintiff-Appellee,
v.
EMD SERONO, INC.,
PFIZER INC.,
Defendants-Appellants,
BAYER HEALTHCARE PHARMACEUTICALS INC.,
NOVARTIS PHARMACEUTICALS CORPORATION
Defendants.
————
ERRATA
————
November 20, 2020
Decided: September 28, 2020
Precedential Opinion
————
Please make the following changes:
On page 8, lines 17-20, change “emphasized that
whereas the attached carbohydrate groups in native
IFN-Ⱦ protein were glycosolated, the attached carbohydrate groups in recombinant IFN-Ⱦ were not
glycosolated,” to —explained that the glycosylation

23a
patterns in native IFN-Ⱦ and recombinant IFN-Ⱦ
were different,—.

24a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
NO. 2019-1133
————
BIOGEN MA INC.,
Plaintiff-Appellee,
v.
EMD SERONO, INC.,
PFIZER INC.,
Defendants-Appellants,
BAYER HEALTHCARE PHARMACEUTICALS INC.,
NOVARTIS PHARMACEUTICALS CORPORATION
Defendants.
————
ERRATA
————
October 9, 2020
Decided: September 28, 2020
Precedential Opinion
————
Please make the following change:
On page 18, line 13, change “linear sequence of proteins” to —linear sequence of amino acids—.

25a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
[ORIGINAL OPINION]
————
NO. 2019-1133
————
BIOGEN MA INC.,
Plaintiff-Appellee,
v.
EMD SERONO, INC.,
PFIZER INC.,
Defendants-Appellants,
BAYER HEALTHCARE PHARMACEUTICALS INC.,
NOVARTIS PHARMACEUTICALS CORPORATION
Defendants.
————
Appeal from the United States District Court for the
District of New Jersey in No. 2:10-cv-02734-CCC-MF,
United States District Judge Claire C. Cecchi.
————
OPINION
————
September 28, 2020
————
NICHOLAS P. GROOMBRIDGE, Paul, Weiss, Rifkind,
Wharton & Garrison LLP, New York, NY, argued for
plaintiff-appellee. Also represented by PETER SANDEL,
ERIC ALAN STONE, JENNY CHIA CHENG WU, JOSEPHINE

26a
YOUNG; DAVID J. BALL, JR., Washington, DC; JOHN D.
TORTORELLA, KEVIN H. MARINO, Marino Tortorella &
Boyle, PC, Chatham, NJ.
MARK ANDREW PERRY, Gibson, Dunn & Crutcher
LLP, Washington, DC, argued for defendants-appellants.
Also represented by CHRISTINE RANNEY, Denver, CO;
WAYNE M. BARSKY, TIMOTHY P. BEST, Los Angeles, CA;
JAYSEN CHUNG, San Francisco, CA.
BRUCE GENDERSON, Williams & Connolly LLP,
Washington, DC, for amicus curiae Bayer Healthcare
Pharmaceuticals Inc. Also represented by DAVID I.
BERL, SETH BOWERS, DAVID M. KRINSKY.
————
Before NEWMAN, LINN, and HUGHES, Circuit Judges.
LINN, Circuit Judge.
This appeal arises from a suit filed by Biogen MA, Inc.
(“Biogen”) against EMD Serono, Inc. and Pfizer, Inc.
(collectively “Serono”) in the District of New Jersey. 1
The suit alleged contributory and induced infringement
of Biogen’s U.S. Patent Number 7,588,755 (“ ’755 patent”)
by the sale and marketing in the United States of Rebif, a
recombinant interferon-Ⱦ (“IFN-Ⱦ”) product used for the
treatment of Multiple Sclerosis (“MS”). After a fiveweek trial, a jury found that the ’755 patent claims were
anticipated by two references teaching the use of native
IFN-Ⱦ to treat viral diseases: Kingham et al., Treatment
of HBsAg-positive Chronic Active Hepatitis with HuBiogen also asserted infringement claims against Bayer Healthcare
Pharmaceuticals Inc. (“Bayer”) and Novartis Pharmaceuticals Corp.
(“Novartis”). The actions against Bayer and Novartis were severed
from those giving rise to this appeal. Order Granting Bayer’s Motion to Sever, Oct. 27, 2017, ECF No. 743. Bayer filed an amicus
brief here.

1

27a
man Fibroblast Interferon, 19(2) Gut 91 (1978) (“Kingham”) and Sundmacher et al., Human Leukocyte and
Fibroblast Interferon in a Combination Therapy of
Dendritic Keratitis, 208(4) Albrecht von Graefes Archiv
für Klinische & Experimentelle Opthalmologie 229 (1978)
(“Sundmacher”). The jury also held the asserted claims
not invalid for lack of enablement or written description,
or for obviousness. Finally, the jury held that patients
and prescribers directly infringed the asserted claims
and that Serono contributorily infringed the claims but
did not induce infringement thereof.
On cross-motions, the district court granted judgment
as a matter of law (“JMOL”) of no anticipation in favor of
Biogen and conditionally granted a new trial on anticipation. In re Biogen ’755 Patent Litig., 335 F. Supp. 3d 688
(D.N.J. 2018) (“Biogen I”). The district court also ruled
in favor of Biogen: sustaining the jury’s verdict of no invalidity based on written description or enablement;
overturning the verdict of no induced infringement; sustaining the verdict of contributory infringement; and
holding that the ’755 patent claims were not patent ineligible. Id. Serono appeals the district court’s JMOL rulings on anticipation, written description, enablement,
contributory infringement, induced infringement and patent eligibility. We have jurisdiction under 28 U.S.C.
§ 1295(a).
Because a reasonable jury could find the claims of the
’755 patent anticipated on the record presented in this
case, we reverse the district court’s JMOL of no anticipation and its conditional grant of new trial on that ground.
We remand with instructions to reinstate the jury verdict
of anticipation. We need not and do not address the other grounds asserted on appeal.

28a
I
The ’755 patent is directed to a method of treating a
viral condition, a viral disease, cancers or tumors, by administration of a pharmaceutically effective amount of a
recombinant polypeptide related to human interferon-Ⱦ
(“IFN-Ⱦ”). The human immune system naturally produces IFN-Ⱦ in small amounts, and it is undisputed that
IFN-Ⱦharvested from human cells (“native IFN-Ⱦ”) was
used in the prior art to treat viral conditions. See ’755
patent, col. 2, l. 53-col. 4, l. 22.
Representative claim 1 of the ’755 patent reads:
1. A method for immunomodulation or treating a viral
condition[ ], a viral disease, cancers or tumors comprising the step of administering to a patient in
need of such treatment a therapeutically effective
amount of a composition comprising:
a recombinant polypeptide produced by a nonhuman host transformed by a recombinant DNA
molecule comprising a DNA sequence selected
from the group consisting of:
(a) DNA sequences which are capable of hybridizing to any of the DNA inserts of GpBR322(Pst)/HFIF1, G-pBR322(Pst)/HFIF3
(DSM 1791), G-pBR322(Pst)/HFIF6 (DSM
1792), and GpBR322(Pst)/HFIF7 (DSM 1793)
under hybridizing conditions of 0.75 M NaCl
at 68° C. and washing conditions of 0.3 M
NaCl at 68° C., and which code for a polypeptide displaying antiviral activity, and
(b) DNA sequences which are degenerate as a
result of the genetic code to the DNA sequences defined in (a);

29a
said DNA sequence being operatively linked to
an expression control sequence in the recombinant DNA molecule.
’755 patent, col. 49, l. 59-col. 50, l. 12. Dependent claim 2
replaces the “capable of hybridizing” limitation with a
selection from two particular DNA sequences, one of
which is the DNA sequence of human interferon-beta.
Id. at col. 50, ll. 13-52. Claims 1 and 2 thus define the
claimed polypeptide by reference to the DNA sequence
inserted into the host during the recombinant manufacture of the polypeptide. Claim 3, dependent from claim 1,
limits the polypeptide to a particular linear polypeptide
sequence. Because the claimed IFN-Ⱦ DNA and polypeptide sequences are derived from human IFN-Ⱦ, it is
indisputable that native human IFN-Ⱦ is capable of hybridizing with the DNA sequences in claim 1, is produced
by one of the DNA sequences laid out in claim 2, and
comprises the amino acid sequence set out in claim 3.
See J.A. 47784 (Fiers Aff. To the Canadian Patent Office,
indicating that the recombinant IFN-Ⱦ was derived from
human IFN-Ⱦ cDNA); J.A. 77897 (Dr. Green Test., testifying that the sequences claimed in claim 1 are “DNA
that will hybridize to one of the four human beta interferon clones”); J.A. 77904 (Dr. Green Test., testifying
that accused-product Rebif is capable of hybridizing to
one or more of the DNA inserts because the DNA sequence it used is identical to the published sequence of
human IFN-Ⱦ). For purposes of this opinion, we refer to
“recombinant IFN-Ⱦ” as shorthand for the recombinant
protein that meets these claim limitations.
During Markman, the district court held that claim 1
covers a “one-step method of ‘administering’ to a patient
in need the specified recombinant HuIFN-Ⱦ.” Markman
Opinion at 17, Mar. 28, 2016, ECF No. 403. The district

30a
court considered the claimed “produced” and “transformed” steps “merely descriptive of the recombinant
polypeptide to be administered,” i.e. merely source limitations. Id. at 15. The district court also held that it was
“unclear that [the] method of treatment claim can be
treated as a product-by-process claim,” and that it was
“aware of no binding precedent requiring method of
treatment claims to be treated as product-by-process
claims in the claim construction context.” Id. at 14. The
district court did not construe “polypeptide,” “therapeutically effective amount,” or “antiviral activity,” and neither party asked the court to consider whether the claims
covered the linear sequence of amino acids or the threedimensional structure of the protein.
Biogen, Serono, and Bayer all moved for summary
judgment. Before Bayer was severed, Bayer argued that
it was entitled to summary judgment of anticipation because the claimed recombinant IFN-Ⱦ and the prior art
native IFN-Ⱦ shared the same linear amino acid sequence. The district court denied Bayer’s motion, holding, inter alia, that the claims require the polypeptide to
have “antiviral activity” and be administered in a “therapeutically effective amount.” Summary Judgment Opinion at 28, Jan. 9, 2018, ECF No. 892. The district court
concluded that those requirements necessitate that the
polypeptide “be folded into its appropriate threedimensional structure,” and that Bayer was therefore not
entitled to summary judgment of anticipation by merely
showing that the amino acid sequence of recombinant
IFN-Ⱦ and the amino acid sequence of native IFN-Ⱦ were
identical. Id.
After a five-week trial, Biogen and Serono both moved
for JMOL under Federal Rule of Civil Procedure 50(a).
The district court deferred ruling until the jury verdict.

31a
Among other issues, the court submitted anticipation,
obviousness, enablement, written description, and contributory and induced infringement to the jury. In its
charge on anticipation, the district court told the jury
that “[t]he term ‘polypeptide’ means ‘a linear array of
amino acids connected one to the other by peptide bonds
between the Ƚamino and carboxy groups of adjacent amino acids,’ ” and that the jury “must accept my definition
of these words in the claims as correct.” Final Jury Instructions at 17, Feb. 21, 2018, ECF No. 968. Biogen did
not object to these instructions and did not request any
instruction defining the polypeptide in terms of its threedimensional structure or requiring identity of the threedimensional structures of native IFN-Ⱦ and recombinant
IFN-Ⱦ proteins to establish anticipation.
The jury held, inter alia, that all claims in the ’755 patent were invalid as anticipated by native IFN-Ⱦ; not invalid for obviousness, lack of enablement or lack of written description; and that Serono was liable for contributory infringement but not induced infringement. Jury
Verdict Form at 1-6, Feb. 23, 2018, ECF No. 977.
Both parties renewed their JMOL motions. As relevant here, the district court granted Biogen’s motion of
no anticipation as a matter of law. Biogen I, 335 F. Supp.
3d at 713. In a comprehensive opinion, the district court
held that no reasonable jury could find anticipation under
Serono’s reading of the claims. First, applying a structural reading of the recombinant limitations, the district
court held that Serono had not identified any prior art
that disclosed “treatment with a ‘therapeutically effective
amount’ of a composition comprising a ‘recombinant’ interferon-Ⱦ polypeptide produced in a ‘non-human host’
that had been ‘transformed by a recombinant DNA molecule.’ ” Id. at 704. [JA21]. The district court reasoned

32a
that because treatment in the prior art entailed administration of native IFN-Ⱦ, which was undisputedly not
recombinantly produced, no reasonable jury could find
anticipation. Id. at 705. The district court cited but did
not distinguish Amgen Inc. v. Hoffman-La Roche Ltd.,
580 F.3d 1340 (Fed. Cir. 2009), which analyzed anticipation of a claimed recombinant erythropoietin (“EPO”) by
prior art urinary (i.e. natural) EPO. Biogen I, 335 F.
Supp. 3d at 1367. The district court declined to apply a
product-by-process analysis to a product-by-process limitation contained within a method of treatment claim, concluding that no precedent required such an analysis and
that the policy informing product-by-process claims—to
enable an inventor to claim an otherwise difficult-todefine product—was inapplicable to the instant method
of treatment claims. Id. at 712-13.
In the alternative, the district court held that no reasonable jury could have found anticipation even applying
a product-by-process analysis. Id. at 705-11. The district
court explained that because the claims required administration of a “therapeutically effective amount” of a recombinant polypeptide that “displays antiviral activity,”
the product resulting from the claimed recombinant process is defined by the folded three-dimensional structure
of the protein. Id. at 705 (discussing Summary Judgment
Opinion at 28, Jan. 9, 2018, ECF No. 892). The district
court held that the jury lacked substantial evidence that
the native IFN-Ⱦ protein as disclosed in Kingham and
Sundmacher was structurally or functionally identical to
the claimed three-dimensional recombinant IFN-Ⱦ protein. Id.
With respect to structural identity, the district court
emphasized that whereas the attached carbohydrate
groups in native IFN-Ⱦ protein were glycosolated, the

33a
attached carbohydrate groups in recombinant IFN-Ⱦ
were not glycosolated, and that this change affected the
three-dimensional structure of the protein. Id. The district court—relying on expert testimony by Serono’s expert, Dr. Lodish, and statements found in a post-priority
date reference created by InterPharm Laboratories Ltd.
entitled “Comparative Biochemical Analysis of Native
Human Fibroblast lnterferon and Recombinant Beta Interferon Expressed by Chinese Hamster Ovary Cells”
(“InterPharm”)—concluded that native and recombinant
IFN-Ⱦ were not identical but merely very similar. Id. at
706-07. The district court opined that the structural differences alone preclude anticipation. Id. at 710-11 (relying primarily on this court’s decision in Amgen, 580 F.3d
at 1367-69, in which we affirmed a holding of no anticipation based on structural differences). Finally, the district
court discounted the conclusion in the InterPharm study
that recombinant IFN-Ⱦ and native IFN-Ⱦ were identical. It held that there was no substantial evidence that
the generic “native IFN-Ⱦ” analyzed in the InterPharm
study and found to be identical to recombinant IFN-Ⱦ
was the same native IFN-Ⱦ taught in the prior art. Id. at
708.
As for functional identity, the district court held that
the relative ease of manufacture of recombinant IFN-Ⱦ in
large quantities functionally distinguished it from native
IFN-Ⱦ. Id. at 709-10.
For these reasons, the district court granted JMOL of
no anticipation. Id. at 713. The district court also conditionally granted Biogen’s motion for a new trial on anticipation “[f]or the same reasons the Court grants Biogen’s
JMOL motion.” Id. The district court added that the
trial was complex and was “noticeably focused on issues

34a
other than anticipation,” such that that the jury verdict
deserved close scrutiny. Id.
Serono appeals. We have jurisdiction under 28 U.S.C.
§ 1295.
II
We review the grant of JMOL and the grant of new
trial under the law of the regional circuit. Uniloc USA,
Inc. v. Microsoft Corp., 632 F.3d 1292, 1301, 1309 (Fed.
Cir. 2011). The Third Circuit reviews the grant of JMOL
for a fact question de novo, affirming “only if, viewing the
evidence in the light most favorable to the nonmovant
and giving it the advantage of every fair and reasonable
inference, there is insufficient evidence from which a jury
reasonably could find liability.” Lightning Lube, Inc. v.
Witco Corp., 4 F.3d 1153, 1166-67 (3d Cir. 1993); Garzier
ex rel. White v. City of Phila., 328 F.3d 120, 123 (3d Cir.
2003) (“A district court should grant such a motion only
if, viewing all the evidence in favor of the nonmoving party, no reasonable jury could find liability on a particular
point.”). The Third Circuit reviews the conditional grant
of a new trial against the weight of the evidence for an
abuse of discretion, “unless the court’s denial is based on
the application of a legal precept, in which case the
standard of review is plenary.” Lightning Lube, 4 F.3d
at 1167.
III
A claim is anticipated only if “each and every [limitation] is found within a single prior art reference.” Summit 6, LLC v. Samsung Elecs. Co., 802 F.3d 1283, 1294
(Fed. Cir. 2015). Anticipation is a factual question and
thus within the ordinary provenance of the jury. Lighting Ballast Control LLC v. Phillips Elecs. N. Am. Corp.,
790 F.3d 1329, 1340 (Fed. Cir. 2015).

35a
In evaluating the evidentiary record presented to the
jury on the question of anticipation, the district court:
(1) declined to apply a product-by-process analysis to the
claimed recombinant IFN-Ⱦ source limitation; and (2) in
its alternative ground analysis, required identity of
three-dimensional structures not specifically recited in
the claims rather than the claimed and lexicographically
defined “polypeptide.” Both of these determinations led
to an erroneous conclusion on anticipation.
A. The Recombinant Source of the Polypeptide
The district court, focusing on the process of making
recombinant IFN-Ⱦ, concluded that it need not analyze
whether native IFN-Ⱦ and recombinantly produced IFNȾ were identical because neither Kingham nor Sundmacher prior art reference taught a method of treatment
using recombinant IFN-Ⱦ. Biogen I, 335 F. Supp. 3d at
704. It categorized the “produced” and “transformed”
limitations as meaningful “source limitations.” Id. at 71112. The district court was convinced that because the recombinant source limitations here overcame the shortcoming of the prior art—namely, the unavailability of native IFN-Ⱦ in sufficient quantity to facilitate practical
treatment—the recombinant nature of the claimed IFNȾ “lies at the heart of the benefit of this invention” [and]
should be given “force and effect in the anticipation analysis.’ ” Id. (quoting Biogen’s statements at JMOL hearing, Trial Tr. 6/6/18 at 12:7-10). The district court reasoned that no binding precedent required it to apply a
product-by-process analysis to a limitation contained in a
method of treatment claim, and held that the rationale
underlying the use of product-by-process claims—to allow claiming of an otherwise difficult-to-define invention,
see SmithKline, 439 F.3d at 1315—did not apply to the
claims here because the “product” itself was sufficiently

36a
described. Biogen I, 335 F. Supp. 3d. at 713. The district
court thus concluded there could be no anticipation, regardless of whether Serono had shown the identity of native IFN-Ⱦ and recombinant INF-Ⱦ.
Serono contends that Biogen has waived any argument that the recombinant source of the IFN-Ⱦ can alone
confer novelty because Biogen’s pre-verdict JMOL motion only argued that native IFN-Ⱦ and recombinant
IFN-Ⱦ were not identical. We find no waiver. The source
limitation was one of the bases for Biogen’s argument of
non-identity and was considered by the district court at
Summary Judgment and in its opinion on JMOL.
On the merits, Serono asserts that a source limitation
alone cannot confer novelty unless the product itself is
novel. Serono argues that the district court erred by
holding that the lack of a recombinantly produced IFN-Ⱦ
product in the prior art compelled a finding of no anticipation. Biogen argues that the source of the IFN-Ⱦ matters is an independent limitation.
We agree with Serono. The district court’s refusal to
consider the identity of recombinant and native IFN-Ⱦ
runs afoul of the longstanding rule that “an old product is
not patentable even if it is made by a new process.”
Amgen, 580 F.3d at 1366. See also Gen. Elec. Co. v. Wabash Appliance Corp., 304 U.S. 364, 373 (1938) (“[A] patentee who does not distinguish his product from what is
old except by reference, express or constructive, to the
process by which he produced it, cannot secure a monopoly on the product by whatever means produced.”);
Cochrane v. Badische Anilin & Soda Fabrik, 111 U.S.
293, 311 (1884) (“While a new process for producing [an
old product] was patentable, the product itself could not
be patented, even though it was a product made artificially for the first time.”); SmithKline Beecham Corp. v.

37a
Apotex Corp., 439 F.3d 1312, 1317 (Fed. Cir. 2006) (“It
has long been established that one cannot avoid anticipation by an earlier product disclosure by claiming the
same product . . . as produced by a particular process.”).
In Amgen, we explained that a claim to a recombinant
EPO composition must be analyzed for novelty by comparing the recombinant EPO to the prior art urinary
EPO. We further explained that simply because prior art
urinary EPO was not made recombinantly was not
enough to avoid anticipation as a matter of law.2 580 F.3d
at 1370 (“To prove invalidity, Roche had to show that recombinant EPO was the same as urinary EPO, even
though urinary EPO was not made recombinantly.”)
(emphasis added). The key question was “whether the
production of EPO by recombinant technology resulted
in a new product,” id. at 1367, or, “[i]n other words, does
the source limitation ‘purified from mammalian cells
grown in culture’ distinguish recombinant EPO from
[prior art] urinary EPO?” Id.
The nature of the origin or source of the composition
recited in the claims at issue in this case is, in all relevant
respects, identical to that considered in Amgen. As in
Amgen, the recombinant origin of the recited composiThe key claim in Amgen read: “A pharmaceutical composition comprising a therapeutically effective amount of human erythropoietin
and a pharmaceutically acceptable diluent, adjuvant or carrier,
wherein said erythropoietin is purified from mammalian cells grown
in culture.” 580 F.3d at 1364. An additional independent claim in a
related patent read: “A non-naturally occurring glycoprotein product
of the expression in a mammalian host cell of an exogenous DNA
sequence comprising a DNA sequence encoding human erythropoietin said product possessing the in vivo biological property of causing
bone marrow cells to increase production of reticulocytes and red
blood cells.” Id. In relevant part, we applied the same analysis to
both claims.

2

38a
tion cannot alone confer novelty on that composition if
the product itself is identical to the prior art nonrecombinant product. The requirements that the claimed
polypeptide is “recombinant” and “produced by a nonhuman host transformed by a recombinant DNA molecule” (in the case of Claim 1 of the ’755 patent) describe
the process by which the product, i.e. the “polypeptide,”
is formed. These are not additional structural limitations. See Purdue Pharma L.P. v. Epic Pharma, LLC,
811 F.3d 1345, 1353 (Fed. Cir. 2016) (holding that because a source limitation of a composition “has no effect
on its structure . . . [that] limitation . . . cannot be a structural limitation”). The key question for anticipation here,
as in Amgen, is thus whether the recombinant product is
identical to the prior art product—not whether the prior
art product was made recombinantly.
Biogen argues that Amgen is limited to composition
claims and is not applicable to the method of treatment
claims at issue here. To support this proposition, Biogen
relies on general statements in product-by-process cases
such as In re Thorpe, 777 F.2d 695, 697 (Fed. Cir. 1985)
(applying product-by-process analysis for “an otherwise
patentable product”) (emphasis added), and the wellrecognized distinction patent law draws between the
scope of composition and method of treatment claims.
See, e.g., Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 595 (2013) (recognizing the distinct scope for composition and method of treatment
claims in the context of 35 U.S.C. § 101).
Biogen’s only basis for novelty of the method of treatment claims at issue here is the novelty of the recombinant IFN-Ⱦ composition that is administered. That composition is claimed in terms of the process by which it is
manufactured. If the novelty of the recombinant IFN-Ⱦ

39a
composition requires comparing its structure to the
structure of native IFN-Ⱦ, as Amgen requires, it would
defy all reason to excuse that analysis for a method of
administration claim using that composition. Such a rule
could have the absurd result that a recombinant composition could be non-novel, the method of administration
could be non-novel, but the method of administration of
the composition defined by the process of its manufacture
would be novel as a matter of law.
There is no logical reason why the nesting of a product-by-process limitation within a method of treatment
claim should change how novelty of that limitation is
evaluated. Indeed, we have previously applied productby-process analysis to a nested limitation. In Purdue
Pharma, we interpreted a claim to “an oral dosage form
comprising . . . oxycodone hydrochloride active pharmaceutical ingredient having less than 25 ppm 14-hydroxy[ ],
wherein at least a portion of the 14-hydroxy [ ] is derived
from 8Ƚ[ ] during conversion of oxycodone free base to
oxycodone hydrochloride” as including a product-byprocess limitation; namely, the 14-hydroxy as derived.
Purdue Pharma, 811 F.3d at 1353 (emphasis omitted).
Similar to our analysis here, the court in Purdue Pharma
held that it was appropriate to focus on the identity of the
products of the claimed and prior art processes, and not
on the source limitation, in analyzing obviousness. See
id. at 1353-54. The nesting of the product-by-process
limitation within a method of treatment claim does not
change the proper construction of the product-by-process
limitation itself.
We are also unpersuaded by the district court’s and
Biogen’s reasoning that a product-by-process-type analysis is inappropriate here because the composition was
otherwise capable of definition other than by the process.

40a
That argument is precluded by Amgen, where the product was also well-defined in the claims: “human erythropoietin . . . wherein said erythropoietin is purified from
mammalian cells grown in culture.” 580 F.3d at 1364.
Furthermore, as noted supra, the rule in Amgen is a
necessary outgrowth of the black-letter legal principle
that an old product made by a new process is not novel
and cannot be patented. Logic compels extending that
rule to the present case; an old method of administration
of an old product made by a new process is not novel and
cannot be patented.
Biogen is certainly correct that the scope of composition and method of treatment claims is generally subject
to distinctly different analyses. But where, as here, the
novelty of the method of administration rests wholly on
the novelty of the composition administered, which in
turn rests on the novelty of the source limitation, the
Amgen analysis will necessarily result in the same conclusion on anticipation for both forms of claims.
Finally, the district court erred in considering the advantages of the recombinant process—the new capability
of manufacturing sufficient quantities of IFN-Ⱦ through
recombinant technology—as a reason not to apply a
product-by-process analysis. See Biogen I, 335 F. Supp.
3d at 713. That consideration may well be relevant in
considering the novelty of the recombinant process, but, a
new process, regardless of its novelty, does not make an
old product created by that process novel. This does not
fail to give “force and effect” to the heart of the claimed
invention; it protects the public from attempts to excise
old products from the public domain.
Because a proper anticipation analysis of the claims in
the ’755 patent turns not on the source of the claimed
polypeptide but on a comparison of the claimed recombi-

41a
nant polypeptide and the prior art native polypeptide, the
district court erred in concluding that the mere absence
of recombinantly produced IFN-Ⱦ in the prior art was
sufficient to grant JMOL of no anticipation.
B. The Three-Dimensional Structure of the Polypeptide
The district court also held that even applying a product-by-process type analysis, no reasonable jury could
have found anticipation because the jury lacked sufficient
evidence of identity between the claimed recombinant
“polypeptide” and the native IFN-Ⱦ. In particular, the
district court concluded that just because recombinant
and native IFN-Ⱦ “share the same linear amino acid sequence is not enough for purposes of anticipation.” Id. at
705. The district court took the position that native polypeptide anticipates the “recombinant polypeptide” only if
their respective folded three-dimensional proteins share
identical structure and function. Id. The district court
reasoned that without a disclosure in the prior art of such
three-dimensional protein, a showing of the native polypeptide alone would not necessarily produce “antiviral
activity” when administered in a “therapeutically effective amount” as recited in the claims. Id. (citing Summary Judgment Opinion at 28, ECF No. 892). This was
error.
The “product” administered in the claimed method is
the “polypeptide.” See ’755 patent, col. 49, ll. 59-64 (“A
method . . . comprising the step of administering . . . a
therapeutically effective amount of a composition comprising: a recombinant polypeptide produced by a nonhuman host . . . .”). As noted supra, the key question for
anticipation is whether the native “polypeptide” is identical to the “polypeptide” “produced by” the recited recombinant process.

42a
Biogen explicitly defined “polypeptide” in the ’755 patent:
Polypeptide—A linear array of amino acids connected one to the other by peptide bonds between
the Ƚ-amino and carboxy groups of adjacent amino
acids.
’755 patent, col. 8, ll. 62-64. The “polypeptide” structure
is thus defined by reference to its “linear” array, without
regard to its folded protein structure. The district court
charged the jury with this definition, adding that the jury
“must accept my definition of these words in the claims
as correct.” Final Jury Instructions at 17, ECF No. 968.
Biogen did not object to this charge and did not ask the
court for a jury instruction requiring identity of the folded protein structures.
As the district court recognized on summary judgment, “Biogen does not dispute that ‘[t]he sequential order of the amino acid residues for native IFN-Ⱦ is the
same as the sequential order of the amino acid residues
for recombinant IFN-Ⱦ.’ ” Summary Judgment Opinion
at 27, ECF No. 892. See also Biogen Brief at 19. Thus,
the native IFN-Ⱦ polypeptide and the claimed recombinant IFN-Ⱦ polypeptide are identical for purposes of the
instant claim.
Biogen argues that the district court was correct in
requiring identity not just of the polypeptide, but also of
the folded proteins, because the claims require the administration of “a therapeutically effective amount of a
composition” and that the DNA sequences in the claims
must “code for a polypeptide displaying antiviral activity.” Biogen asserts that only three-dimensional proteins
can be therapeutically effective and have antiviral activity, and therefore that the “product” to be analyzed for

43a
novelty is the folded three-dimensional protein, not just
the amino acid sequence.
Biogen is incorrect. First, Biogen’s argument fails to
give effect to Biogen’s explicit definition of “polypeptide”
in the specification. We must respect this lexicographic
choice. See Edward Lifesciences LLC v. Cook Inc., 582
F.3d 1322, 1329 (Fed. Cir. 2009) (“[W]e will adopt a definition that is different from the ordinary meaning when
‘the patentee acted as his own lexicographer and clearly
set forth a definition of the disputed claim term in . . . the
specification’ ” (quoting CCS Fitness, Inc. v. Brunswick
Corp., 288 F.3d 1359, 1366-67 (Fed. Cir. 2002))). Biogen
does not attempt to square its theory with the definition
in the specification.
Second, Biogen draws the wrong conclusion from the
claimed antiviral activity limitation. The claims, in calling
for antiviral activity, do not recite any specific folded
three-dimensional structure that gives rise to that activity. While it is indisputable that an amino acid sequence
alone cannot give rise to antiviral activity, it is also indisputable that every linear sequence of proteins will fold
into some three-dimensional configuration. The claimed
antiviral activity can arise from the administration of any
three-dimensional protein with a linear amino acid sequence identical to the claimed recombinant “polypeptide.”
Finally, and importantly, Biogen did not ask for a jury
instruction on anticipation that required comparing the
three-dimensional protein structures of prior art IFN-Ⱦ
and the claimed recombinant IFN-Ⱦ. Neither Biogen nor
the district court can reframe the anticipation inquiry on
JMOL to focus on the unclaimed three-dimensional protein structure, where the jury was instructed, without
objection, to decide anticipation based on the linear ami-

44a
no acid sequence. See Finjan, Inc. v. Blue Coat Sys.,
Inc., 879 F.3d 1299, 1306 (Fed. Cir. 2018) (“[I]t is too late
at the JMOL stage to . . . adopt a new and more detailed
interpretation of the claim language and test the jury
verdict by that new and more detailed interpretation.”
(quoting Hewlett-Packard Co. v. Mustek Sys., Inc., 340
F.3d 1314, 1321 (Fed. Cir. 2003))).
The jury was correctly instructed that “to be entitled
to a patent, the invention must actually be ‘new.’ ” J.A.
81262. It is undisputed that the prior art here teaches
the administration of native IFN-Ⱦ that has a linear amino acid sequence identical to the linear amino acid sequence of the recited recombinant IFN-Ⱦ and that shows
antiviral activity. See ’755 patent, col. 3, ll. 4-14. The jury thus had sufficient evidence to find that native IFN-Ⱦ
polypeptide is identical to recombinant IFN-Ⱦ polypeptide, was administered in therapeutically effective
amounts, and showed antiviral activity in the prior art.
The district court thus erred in granting JMOL of no anticipation. 3
IV. CONDITIONAL GRANT OF NEW TRIAL
The district court also conditionally granted a new trial on anticipation. The district court’s grant of a new trial
was based on the same legal errors supporting its grant
of JMOL. Biogen I, 335 F. Supp. 3d at 713 (“For the
same reasons the Court grants Biogen’s JMOL motion,
the Court conditionally orders a new trial on anticipation.”). None of the additional considerations noted by
the district court in support of its conditional grant of a
Because the proper construction of the claims does not require
comparison of the three-dimensional structure of prior art native
IFN-Ⱦ and recombinant IFN-Ⱦ, we need not consider the parties’
contested readings of the InterPharm study or the evidence or lack
thereof of structural identity.
3

45a
new trial are independently sufficient to support its decision. We therefore reverse the district court’s grant of a
conditional new trial on anticipation.
CONCLUSION
For the reasons discussed above, we reverse the district court’s grant of judgment as a matter of law of no
anticipation and the conditional grant of a new trial on
anticipation. We remand with instructions to reinstate
the jury verdict on anticipation. We need not and do not
address the several other issues raised by the parties on
appeal.
REVERSED AND REMANDED

46a
APPENDIX E
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
————
CIVIL ACTION NO.: 10-2734 (CCC)(MF)
(CONSOLIDATED)
————
IN RE BIOGEN ’755 PATENT LITIGATION
————
OPINION
————
September 7, 2018
————
CECCHI, District Judge.
The Court held a five-week jury trial in this patent infringement action beginning on January 18, 2018. On
February 23, 2018, the jury returned a verdict finding
that healthcare professionals and/or patients directly infringe claims 1 and 2 of United States Patent No.
7,588,755 (the “ ’755 patent’’) when they administer or
self-administer the product Rebif® for the treatment of
multiple sclerosis (“MS”), that Defendants EMD Serono,
Inc. (‘‘Serono’’) and Pfizer Inc. (‘‘Pfizer’’) (collectively,
‘‘Defendants’’) have contributed to the infringement of
claims 1 and 2 by selling or offering to sell Rebif®, that
neither Serono nor Pfizer has actively induced the infringement of claims 1 or 2, that claims 1, 2, and 3 of the
’755 patent are not invalid for obviousness, lack of adequate written description, or lack of enablement, and that
claims 1, 2, and 3 are invalid for anticipation. ECF No.
977 (‘‘Verdict Form’’).

47a
Now pending before the Court are renewed motions
for judgment as a matter of law (‘‘JMOL’’) pursuant to
Federal Rule of Civil Procedure 50(b) by Plaintiff Biogen
MA Inc. (‘‘Biogen’’) and Defendants. ECF Nos. 980, 982.
Specifically, Biogen moves for JMOL on the issues of anticipation, induced infringement by Serono and Pfizer,
certain defenses that were not litigated at trial, and certain subsidiary damages-related issues. Biogen also
moves conditionally and in the alternative for a new trial
as to certain issues pursuant to Federal Rules of Civil
Procedure 50(c) and 59, respectively. Defendants move
for JMOL on the issues of patent eligibility, obviousness,
enablement, written description, contributory infringement by Pfizer, and lost profits damages.
The Court heard oral argument on June 6, 2018. The
parties also submitted letters following oral argument.
ECF Nos. 1010, 1011, 1012, 1014, 1015, 1017, 1018. Having considered the parties’ written submissions and oral
presentations, and for the reasons discussed below, Biogen’s JMOL motions with respect to anticipation, induced infringement against Serono and Pfizer, and certain non-litigated defenses are hereby GRANTED. The
Court also conditionally orders a new trial on anticipation
and induced infringement against Serono and Pfizer pursuant to Rule 50(c), and orders a new trial on all damages
issues pursuant to Rule 59. Biogen’s remaining JMOL
motions and each of Defendants’ JMOL motions are
hereby DENIED.
I. BACKGROUND
On May 28, 2010, Biogen filed this patent infringement
suit asserting claims of the ’755 patent against Defendants, Bayer HealthCare Pharmaceuticals Inc. (‘‘Bayer’’),
and Novartis Pharmaceuticals Corp. (‘‘Novartis’’). C.A.
No. 10-2760, ECF No. 1 (‘‘Compl.’’). Prior to trial, Bio-

48a
gen’s infringement claims against Serono and Pfizer were
severed from Biogen’s infringement claims against Bayer
and Novartis. 1 ECF No. 743. Thus, only Biogen’s claims
against Serono and Pfizer (and Serono and Pfizer’s defenses thereto) were tried before the jury and are the
subject of the instant motions.
The ’755 patent claims a method for immunomodulation, or treating viral diseases, cancers, or tumors, by
administering to a patient a recombinant polypeptide—
human interferon beta 2—that is produced by a nonhuman host transformed by a recombinant DNA molecule. The ’755 patent includes three claims, of which only
claim 1 is independent. 3
Claim 1 of the ’755 patent recites:
1. A method for immunomodulation or treating a
viral conditions [sic], a viral disease, cancers or
tumors comprising the step of administering to a
patient in need of such treatment a therapeutiBiogen’s infringement claims against Bayer and Novartis are based
on the sale of products Betaseron® and Extavia® in the United
States for the treatment of MS. Compl. ¶¶ 50-73; C.A. No. 10-2760,
ECF No. 61 (‘‘Am. Compl.’’) ¶¶ 60-83. The day before Biogen filed its
lawsuit, on May 27, 2010, Bayer sued Biogen seeking a declaration
that Bayer does not infringe the ’755 patent claims and that the ’755
patent claims are invalid. ECF No. 1. On October 1, 2010, Bayer’s
declaratory judgment action and Biogen’s patent infringement suit
were consolidated under Civil Action No. 10-2734. ECF No. 37. On
October 27, 2017, this Court granted Bayer’s and Defendants’ motions to sever Biogen’s claims against Serono and Pfizer from Biogen’s claims against Bayer and Novartis. ECF No. 743.
2
This Opinion refers to human interferon beta as ‘‘interferon-Ⱦ,’’
‘‘IFN-Ⱦ,’’ ‘‘beta interferon,’’ ‘‘fibroblast interferon,’’ ‘‘HuIFN-Ⱦ,’’
and/or ‘‘HFIF.’’
3
Claims 2 and 3 depend from claim 1 and are also method claims.
The parties’ motions and this Opinion focus on claim 1.
1

49a
cally effective amount of a composition comprising:
a recombinant polypeptide produced by a nonhuman host transformed by a recombinant DNA
molecule comprising a DNA sequence selected
from the group consisting of:
(a) DNA sequences which are capable of hybridizing to any of the DNA inserts of GpBR322(Pst)/HFIFI, GpBR322(Pst)/HFIF3 (DSM
1791), G-pBR322(Pst)/HFIF6 (DSM 1792),
and GpBR322(Pst)/HFIF7 (DSM 1793) under
K\EULGL]LQJFRQGLWLRQVRI01D&ODW
C. and washing conditions of 0.3 M NaCl at
&DQGZKLFKFRGHIRUDSRO\SHSWLGHGLV
playing antiviral activity, and
(b) DNA sequences which are degenerate as a result of the genetic code to the DNA sequences
defined in (a);
said DNA sequence being operatively linked to an
expression control sequence in the recombinant
DNA molecule.
The Court previously construed claim 1 of the ’755 patent as reciting a ‘‘one-step method of ‘administering’ to a
patient in need the specified recombinant HuIFN-Ⱦ.’’
ECF No. 403 (‘‘Markman Op.’’) at 17. The Court also
determined that the ‘‘produced’’ and ‘‘transformed’’ limitations of claim 1 are ‘‘merely descriptive of the recombinant polypeptide to be administered’’ as opposed to separate steps that must be shown to prove infringement. Id.
at 14-15.
Biogen’s infringement claims against Serono and Pfizer are based on the sale of recombinant interferon-Ⱦ
product Rebif® in the United States for the treatment of
MS. Compl. ¶¶ 32-49; Am. Compl. ¶¶ 42-59. In their An-

50a
swers, Defendants assert that the ’755 patent claims are
invalid, not infringed, and/or unenforceable. C.A. No. 102760, ECF Nos. 56, 57, 75; ECF Nos. 44, 71. The issues
of infringement, validity, and damages were tried to a
jury for a number of weeks in January and February of
2018. 4 With respect to infringement, the jury was asked
to decide whether Serono and Pfizer were each liable for
induced and contributory infringement of claims 1 and 2
of the ’755 patent (the ‘‘asserted claims’’). With respect
to validity, the jury was asked to decide whether claims 1,
2, and 3 were invalid for obviousness, lack of adequate
written description, lack of enablement, or anticipation.
Before the case was submitted to the jury, Biogen and
Defendants each moved for JMOL on a number of issues
pursuant to Federal Rule of Civil Procedure 50(a).5
2/9/18 Tr. at 168:21-169:15, 170:18-171:8, 172:4-18, 179:723; 2/21/18 Tr. at 20:23-22:3, 52:9-53:24, 62:23-64:5, 67:1969:16. The Court reserved decision on all of the parties’
Rule 50(a) motions. 2/9/18 Tr. at 183:11-12; 2/21/18 Tr. at
75:26-77:4.
On February 23, 2018, the jury returned a verdict
finding that healthcare professionals and/or patients directly infringe the asserted claims of the ’755 patent
when they administer or self-administer Rebif® for the
treatment of MS. Verdict Form at 1, Q. 1. The jury also
found that neither Serono nor Pfizer has actively induced
the direct infringement of the asserted claims. Id. at 2-3,
Defendants withdrew their inequitable conduct defense at the beginning of the trial. ECF No. 941.
5
A Rule 50(a) JMOL motion ‘‘may be made at any time before the
case is submitted to the jury.’’ Fed. R. Civ. P. 50(a)(2). So long as
the motion was made during trial, a party may submit a renewed
motion for JMOL after the trial. See Fed. R. Civ. P. 50(b); Rinehimer v. Cemcolift, Inc., 292 F.3d 375, 383 (3d Cir. 2002).
4

51a
Qs. 2, 6. The jury further found that both Serono and
Pfizer have contributed to the direct infringement of the
asserted claims by selling or offering to sell Rebif® in
the United States. Id. at 3, Qs. 7, 8. With respect to validity, although the jury found that the ’755 patent claims
were not invalid for obviousness, lack of adequate written
description, or lack of enablement, (id. at 3-4, Qs. 9-11), it
found that the claims were anticipated by prior-art uses
of naturally-occurring (or native), human interferon-Ⱦ
(id. at 4, Q. 12). Accordingly, the jury did not reach the
issue of damages, leaving the damages questions on the
Verdict Form blank. Id. at 5-6, Qs. 13-18.
Following the verdict, on March 16, 2018 the Court
held a telephone conference with the parties to discuss a
schedule for filing post-trial motions pursuant to Rule
50(b). In its Rule 50(b) JMOL motions, Biogen asks the
Court to enter judgment that the ’755 patent claims are
not anticipated by prior-art uses of native, human interferon-Ⱦ and that Serono and Pfizer have each induced infringement of the asserted claims. ECF No. 980-1 (‘‘Biogen Br.’’). Biogen also seeks a judgment in its favor on
certain damages-related issues and as to certain nonlitigated defenses. Biogen further asks the Court to conditionally grant a new trial under Rule 50(c) for each of
those issues except for the non-litigated defenses, and
alternatively moves for a new trial under Rule 59 for any
of those issues on which the Court does not grant JMOL.
Defendants oppose each of Biogen’s motions. ECF No.
991 (‘‘Defs. Opp.’’). In their Rule 50(b) JMOL motions,
Defendants ask the Court to enter judgment that Pfizer
has not contributed to the infringement of the asserted
claims, that the ’755 patent claims are patent ineligible,
that the ’755 patent claims are invalid on the grounds of
obviousness, lack of enablement, and lack of adequate

52a
written description, and that Biogen is not entitled to lost
profits damages. ECF No. 983 (‘‘Defs. Br.’’). Biogen opposes each of Defendants’ motions. ECF No. 989 (‘‘Biogen Opp.’’). The Court heard oral argument on June 6,
2018 (‘‘6/6/18 Tr.’’).
II. LEGAL STANDARDS
A. Motion for Judgment as a Matter of Law
Judgment as a matter of law is appropriate if ‘‘the
court finds that a reasonable jury would not have a legally sufficient evidentiary basis to find for [a] party’’ on an
issue. Fed. R. Civ. P. 50(a)(1). ‘‘If the court does not
grant a motion for judgment as a matter of law made under Rule 50(a), the court is considered to have submitted
the action to the jury subject to the court’s later deciding
the legal questions raised by the motion.’’ Fed. R. Civ. P.
50(b). In ruling on a Rule 50(b) motion, ‘‘the court may:
(1) allow judgment on the verdict, if the jury returned a
verdict; (2) order a new trial; or (3) direct the entry of
judgment as a matter of law.’’ Id.
To prevail on a renewed motion for JMOL under Rule
50(b) following a jury trial and verdict, the moving party
‘‘must show that the jury’s findings, presumed or express, are not supported by substantial evidence or, if
they were, that the legal conclusion(s) implied by the jury’s verdict cannot in law be supported by those findings.’’ Power Integrations, Inc. v. Fairchild Semiconductor Int’l, Inc., 843 F.3d 1315, 1326 (Fed. Cir. 2016)
(quoting Pannu v. Iolab Corp., 155 F.3d 1344, 1348 (Fed.
Cir. 1998)). ‘‘Substantial evidence’’ is defined as ‘‘such
relevant evidence from the record taken as a whole as
might be accepted by a reasonable mind as adequate to
support the finding under review.’’ Perkin-Elmer Corp.
v. Computervision Corp., 732 F.2d 888, 893 (Fed. Cir.
1984) (citations omitted).

53a
In the Third Circuit, JMOL ‘‘should be granted only if,
viewing the evidence in the light most favorable to the
nonmovant and giving it the advantage of very fair and
reasonable inference, there is insufficient evidence from
which a jury reasonably could find’’ for the nonmovant.
Lightning Lube, Inc. v. Witco Corp., 4 F.3d 1153, 1166
(3d Cir. 1993) (citing Wittekamp v. Gulf & Western Inc.,
991 F.2d 1137, 1141 (3d Cir. 1993)). ‘‘The question is not
whether there is literally no evidence supporting the party against whom the motion is directed but whether there
is evidence upon which the jury could properly find a
verdict for that party.’’ Id. (quoting Patzig v. O’Neil, 577
F.2d 841, 46 (3d Cir. 1978)). The district court ‘‘may not
weigh the evidence, determine the credibility of witnesses, or substitute its version of the facts for the jury’s version.’’ Id. (citation omitted). While JMOL motions
should be granted sparingly, ‘‘a scintilla of evidence is not
enough to sustain a verdict of liability.’’ Id. (citing Walter
v. Holiday Inns, Inc., 985 F.2d 1232, 1238 (3d Cir. 1993)).
Moreover, ‘‘although the court should review the record
as a whole, it must disregard all evidence favorable to the
moving party that the jury is not required to believe.’’
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 151, 120 S.Ct. 2097, 147 L.Ed.2d 105 (2000) (citing
9A C. Wright & A. Miller, Federal Practice and Procedure § 2529, p. 299 (2d ed. 1995)); Integra Lifesciences I,
Ltd. v. Merck KGaA, 496 F.3d 1334, 1345 (Fed. Cir.
2007). ‘‘That is, the court should give credence to the evidence favoring the nonmovant as well as that evidence
supporting the moving party that is uncontradicted and
unimpeached, at least to the extent that that evidence
comes from disinterested witnesses.’’ Reeves, 530 U.S. at
151, 120 S.Ct. 2097 (internal quotation marks and citation
omitted).

54a
B. Motion for a New Trial
Rule 59(a) provides, in pertinent part, ‘‘[t]he court
may, on motion, grant a new trial on all or some of the
issues—and to any party—as follows: . . . after a jury trial, for any reason for which a new trial has heretofore
been granted in an action at law in federal court.’’ Fed.
R. Civ. P. 59(a)(1)(A). The most common reasons for
granting a new trial include: (1) the verdict is against the
clear weight of the evidence, and a new trial must be
granted to prevent a miscarriage of justice; (2) newly discovered evidence exists that would likely alter the outcome of the trial; (3) improper conduct by an attorney or
the court unfairly influenced the verdict; or (4) the verdict was facially inconsistent. See Zarow-Smith v. N.J.
Transit Rail Operations, Inc., 953 F.Supp. 581, 584-85
(D.N.J. 1997) (internal citations omitted). The decision to
grant or deny a new trial is committed to the sound discretion of the district court. See Allied Chem. Corp. v.
Daiflon, Inc., 449 U.S. 33, 36, 101 S.Ct. 188, 66 L.Ed.2d
193 (1980). In the Third Circuit, ‘‘new trials because the
verdict is against the weight of the evidence are proper
only when the record shows that the jury’s verdict resulted in a miscarriage of justice or where the verdict, on
the record, cries out to be overturned or shocks [the]
conscience.’’ Williamson v. Consol. Rail Corp., 926 F.2d
1344, 1353 (3d Cir. 1991).
Moreover, ‘‘[w]here the subject matter of the litigation
is simple and within a layman’s understanding, the district court is given less freedom to scrutinize the jury’s
verdict than in a case that deals with complex factual determinations.’’ Id. at 1352 (citing Lind v. Schenley Indus., Inc., 278 F.2d 79, 90-91 (3d Cir. 1960)); see also
Comcast Cable Commc’ns, LLC v. Sprint Commc’ns Co.,
262 F.Supp.3d 118, 139 (E.D. Pa. 2017) (‘‘Where a trial is

55a
long and complicated and deals with a subject matter not
lying within the ordinary knowledge of jurors a verdict
should be scrutinized more closely by the trial judge, [in
ruling on a motion for new trial], than is necessary where
the litigation deals with material which is familiar and
simple.’’ (quoting Lind, 278 F.2d at 90-91)).
Pursuant to Rule 50(c), ‘‘[i]f the court grants a renewed motion for judgment as a matter of law, it must
also conditionally rule on any motion for a new trial by
determining whether a new trial should be granted if the
judgment is later vacated or reversed.’’ Fed. R. Civ. P.
50(c)(1). In addition, the court ‘‘must state the grounds
for conditionally granting or denying the motion for a
new trial.’’ Id.
III. DISCUSSION
A. Biogen’s Post-Trial Motions
Biogen moves for JMOL under Rule 50(b) as to (1) anticipation; (2) induced infringement by Pfizer; (3) induced
infringement by Serono; (4) certain non-litigated defenses; and (5) certain subsidiary damages-related issues.
Biogen also moves conditionally for a new trial under
Rule 50(c), and alternatively for a new trial under Rule
59, on anticipation, induced infringement by Pfizer and
Serono, and the subsidiary damages issues. The Court
addresses each of Biogen’s motions in turn with the exception of Biogen’s JMOL motion as to Defendants’ patent-ineligibility defense, which the Court addresses with
Defendants’ JMOL motion on that defense in Section
III.B.1 below.

56a
1. Anticipation
a. Applicable Legal Principles for Anticipation
A patent claim is invalid by reason of anticipation if
‘‘the invention was known or used by others in this country, or patented or described in a printed publication in
this or a foreign country, before the invention thereof by
the applicant for patent.’’ 35 U.S.C. § 102(a). ‘‘A prior art
reference anticipates a patent’s claim when the four corners of the document ‘describe every element of the
claimed invention, either expressly or inherently, such
that a person of ordinary skill in the art could practice
the invention without undue experimentation.’ ’’ In re
Hodges, 882 F.3d 1107, 1111 (Fed. Cir. 2018) (quoting
Spansion, Inc. v. Int’l Trade Comm’n, 629 F.3d 1331,
1356 (Fed. Cir. 2010)); see also Summit 6, LLC v. Samsung Elecs. Co., 802 F.3d 1283, 1294 (Fed. Cir. 2015) (‘‘A
claim is anticipated only if each and every element is
found within a single prior art reference, arranged as
claimed.’’). The party asserting the defense bears the
burden of demonstrating anticipation by clear and convincing evidence. See Summit 6, 802 F.3d at 1294 (citing
Microsoft Corp. v. i4i Ltd. P’ship, 564 U.S. 91, 95, 131
S.Ct. 2238, 180 L.Ed.2d 131 (2011)). Anticipation is a
question of fact. In re Hodges, 882 F.3d at 1111 (citing
Blue Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1341
(Fed. Cir. 2016)).
Moreover, anticipation ‘‘requires the presence in a
single prior art disclosure of all elements of a claimed invention arranged as in the claim. A prior art disclosure
that ‘almost’ meets that standard may render the claim
invalid under [35 U.S.C.] § 103; it does not ‘anticipate.’ ’’
Connell v. Sears, Roebuck & Co., 722 F.2d 1542, 1548
(Fed. Cir. 1983) (internal citation omitted); see also TF3

57a
Ltd. v. Tre Milano, LLC, 894 F.3d 1366, 1374 (Fed. Cir.
2018) (‘‘Claims cannot be ‘anticipated’ by devices that are
not the same. Invalidity for anticipation requires that
‘[t]he identical invention must be shown in as complete
detail as contained in the patent claim.’ ’’ (citation omitted)); Net MoneyIN, Inc. v. VeriSign, Inc., 545 F.3d
1359, 1371 (Fed. Cir. 2008) (‘‘[D]ifferences between the
prior art reference and a claimed invention, however
slight, invoke the question of obviousness, not anticipation.’’); Trintec Indus., Inc. v. Top-U.S.A. Corp., 295 F.3d
1292, 1296 (Fed. Cir. 2002) (noting that the ‘‘test for novelty’’ requires ‘‘strict identity’’); Jamesbury Corp. v. Litton Indus. Prods., Inc., 756 F.2d 1556, 1560 (Fed. Cir.
1985) (‘‘[A]nticipation is not, shown by a prior art disclosure which is only ‘substantially the same’ as the claimed
invention.’’), overruled on other grounds, A.C. Aukerman
Co. v. R.L. Chaides Constr. Co., 960 F.2d 1020 (Fed. Cir.
1992) (en banc); 1 Donald S. Chisum, Chisum on Patents
§ 3.02[1] (2018) (noting that the anticipation standard ‘‘is
one of strict identity’’ and that ‘‘Federal Circuit decisions,
explicitly or implicitly, reject any standard of ‘substantial
identity’ ’’ (citations omitted)).
The jury was instructed that ‘‘[f]or a claim to be invalid because it is not new’’ Defendants ‘‘must show by
clear and convincing evidence that all of the requirements of that claim were present in a single previous device or method that was known of, used, or described in a
single previous printed publication or patent.’’ ECF No.
968 (‘‘Final Jury Instructions’’) at 29. The jury instructions also provide that ‘‘[t]o anticipate the invention, the
prior art does not need [to] use the same words as the
claim, but all the requirements of the claim must have
been disclosed, either stated expressly or implied to a
person of ordinary skill in the art in the technology of the

58a
invention, so that looking at that one reference, that person could make and use the claimed invention.’’ Id.
b. Parties’ Contentions
The jury found that the ’755 patent claims were anticipated by prior-art uses of native, human interferon-Ⱦ.
Verdict Form at 4, Q. 12 (‘‘Do you find, by clear and convincing evidence, that the claims of the ’755 patent are
invalid as anticipated by prior art uses of native human
interferon-beta?’’). Biogen contends that the verdict
cannot stand because no reasonable jury could have
found by clear and convincing evidence that the ’755 patent claims were anticipated by the prior art. According
to Biogen, JMOL of no anticipation under Rule 50(b) is
appropriate because Defendants failed to identify a single prior-art reference that discloses all of the elements
of the ’755 patent claims. Biogen Br. at 13. Specifically,
Biogen asserts that no reference discloses treatment with
a ‘‘therapeutically effective amount’’ (or any amount) of a
composition comprising ‘‘recombinant’’ interferon-Ⱦ
made in a ‘‘nonhuman host’’ that had been ‘‘transformed
by a recombinant DNA molecule.’’ Id. at 13-14. Instead,
all therapeutic uses of interferon-Ⱦ before the priority
date of June 6, 1980 employed the native protein.6 Biogen further observes that, in stark contrast to Defendants’ trial presentation of their obviousness defense, Defendants did not bring a Rule 50(a) motion on anticipation
at trial, ‘‘barely alluded to anticipation at trial,’’ and did
not raise anticipation in their summation. Id. at 5; see
also 6/6/18 Tr. at 168:17-169:8. In Biogen’s view, because
the jury ‘‘did not focus on, and did not understand, the
anticipation question,’’ as evidenced by a jury question
Defendants dispute that Biogen is entitled to a priority date of June
6, 1980, but assume that date applies for purposes of Biogen’s anticipation JMOL motion. Defs. Opp. at 8 n.2.

6

59a
asked only one hour before the jury returned its verdict,
the verdict represents a ‘‘miscarriage of justice’’ warranting a new trial under Rule 59. 7 Biogen Br. at 6.
By contrast, Defendants contend that the evidence
presented at trial supports the jury’s verdict of anticipation. Defendants rely on the legal principle that a new
source or process (i.e., recombinant DNA technology) for
making an old product (i.e., interferon-Ⱦ) in and of itself
is insufficient to confer novelty on the product, unless the
new source or process confers both structural and functional differences distinguishing the product from the
prior art. Defs. Opp. at 1. Product claims that define a
product by a particular process are referred to as ‘‘product-by-process’’ claims. 8 Defendants contend that this
principle applies to all types of claims having source limitations, including the method of treatment claims of the
7
The jury submitted a written note asking ‘‘Please explain Verdict
Question #12 and its reference to ‘native’ human interferon beta as
the basis for anticipation.’’ ECF No. 976 at 5. In response to the
jury’s note, the parties agreed to provide the jury with a large-font
printout of the same response that was provided to the jury during
trial and which contained the parties’ agreed-to definition of ‘‘native/natural interferon beta (or IFN-Ⱦ).’’ 2/23/18 Tr. at 13:7-14:6.
That definition was as follows: ‘‘Interferon beta protein that is produced naturally by human cells. Interferon beta was historically
called ‘fibroblast interferon’ because ‘fibroblasts’ are one type of cell
in the human body that produces interferon beta.’’ JQX-2; JQX-2A.
8
In support of this principle, Defendants primarily rely on a body of
product-by-process case law, including Cochrane v. Badische Anilin
& Soda Fabrik, 111 U.S. 293, 4 S.Ct. 455, 28 L.Ed. 433 (1884), Purdue Pharma L.P. v. Epic Pharma, LLC, 811 F.3d 1345 (Fed. Cir.
2016), Greenliant Systems, Inc. v. Xicor LLC, 692 F.3d 1261 (Fed.
Cir. 2012), Amgen Inc. v. F. Hoffman-La Roche Ltd., 580 F.3d 1340
(Fed. Cir. 2009), SmithKline Beecham Corp. v. Apotex Corp., 439
F.3d 1312 (Fed. Cir. 2006), and Cubist Pharmaceuticals, Inc. v.
Hospira, Inc., 75 F.Supp.3d 641 (D. Del. 2014).

60a
’755 patent. 6/6/18 Tr. at 63:7-64:2. Defendants further
assert that evidence of either structural or functional
identity between native and recombinant interferon-Ⱦ
can support the jury’s anticipation verdict, and that there
is more than sufficient evidence of both in the record.
See id. at 65:18-66:11.
Defendants principally rely on two allegedlyanticipatory publications, Kingham et al., Treatment of
HBsAg-positive chronic active hepatitis with human fibroblast interferon, Gut. 19(2):91-4 (1978) (‘‘Kingham’’)
(STX-1596) and Sundmacher et al., Human Leukocyte
and Fibroblast Interferon in a Combination Therapy of
Dendritic Keratitis, Albrecht Von Graefes Arch Klin Exp
Ophthalmol. 208(4):229-33 (1978) (‘‘Sundmacher’’) (STX1810). Defendants contend that these publications disclose all of the elements of claim 1, specifically, the administration of therapeutically effective amounts of native, human interferon-Ⱦ proteins—which, in Defendants’
view, are identical to the recombinant interferon-Ⱦ proteins of claim 1—to treat viral diseases. Defs. Opp. at 78; 6/6/18 Tr. at 61:6-18.
In addition, Defendants rely on two comparative studies that, while not prior art, allegedly demonstrate that
the native interferon-Ⱦ administered in Kingham and
Sundmacher is structurally identical to interferon-Ⱦ
made recombinantly in Chinese Hamster Ovary (‘‘CHO’’)
cells: a study by InterPharm Laboratories Ltd. entitled
‘‘Comparative Biochemical Analysis of Native Human
Fibroblast Interferon and Recombinant Beta Interferon
Expressed by Chinese Hamster Ovary Cells’’ (the ‘‘InterPharm Study’’) (STX-1259), 9 and Kagawa et al., ComThe InterPharm Study was prepared no earlier than 1987. See
STX-1259 (InterPharm Study) at 1, 14; 2/9/18 Tr. at 89:6-18 (Lodish).

9

61a
parative Study of the Asparagine-linked Sugar Chains of
Natural Human Interferon-Ⱦ1 and Recombinant Human
Interferon-Ⱦ1 Produced by Three Different Mammalian
Cells, J Biol Chem. 263(33): 17508-15 (1988) (‘‘Kagawa’’)
(STX1587). In support of their position that native and
recombinant interferon-Ⱦ are functionally identical, Defendants rely on the InterPharm Study, along with a
publication co-authored by Michel Revel, M.D., Ph.D.,
Professor Emeritus retired from the Weizmann Institute
of Science, entitled Chernajovsky et al., Efficient Constitutive Production of Human Fibroblast Interferon by
Hamster Cells Transformed with the IFN-Ⱦ1 Gene
Fused to An SV40 Early Promoter, DNA 3(4):297-308
(1984) (‘‘Chernajovsky’’) (STX-1439), and Dr. Revel’s
United States Patent No. 4,808,523 (the ‘‘Revel ’523 patent’’) (STX-1314). Defs. Opp. at 13. As with the InterPharm Study and Kagawa, neither Chernajovsky nor the
Revel ’523 patent is prior art.
Finally, Defendants rely on the expert testimony of
Harvey Lodish, Ph.D., a Professor of Biology and Biological Engineering at the Massachusetts Institute of Technology and member of the Whitehead Institute for Biomedical Research. 2/8/18 PM Tr. at 48:21-49:1. Defendants offered Dr. Lodish as an expert in the field of recombinant DNA technology and the production of recombinant therapeutic proteins. Id. at 57:9-16. In Defendants’ view, JMOL is inappropriate because there was
sufficient evidence in the record for the jury to conclude
that native interferon-Ⱦ administered before June 6, 1980
and recombinant interferon-Ⱦ made in CHO cells are
structurally identical, functionally identical, or both.

62a
c. Biogen Is Entitled to JMOL of No Anticipation
In assessing the sufficiency of the evidence, the Court
gives Defendants, as the verdict winners, ‘‘the benefit of
all logical inferences that could be drawn from the evidence presented, resolve[s] all conflicts in the evidence in
[Defendants’] favor and, in general, view[s] the record in
the light most favorable to [Defendants].’’ Williamson,
926 F.2d at 1348. After reviewing the evidence presented
at trial, the Court concludes that there is insufficient evidence to support the jury’s verdict that the prior-art uses
of native, human interferon-Ⱦ anticipate the ’755 patent
claims.
i) Defendants Failed to Present as Evidence a Prior-Art Reference Disclosing
Each and Every Element of the ’755
Patent Claims
The Court concludes that because Defendants failed to
present as evidence a single prior-art reference that describes the therapeutic use of a recombinant interferon-Ⱦ
polypeptide made in a non-human host, the jury could not
have reasonably reached its verdict of anticipation. As
discussed above, the ’755 patent claims are method
claims that require therapeutic use of a recombinant interferon-Ⱦ polypeptide made in a non-human host. The
Court instructed the jury that a ‘‘recombinant polypeptide’’ is ‘‘a polypeptide produced by recombinant DNA
engineering,’’ that a ‘‘recombinant DNA molecule’’ must
include ‘‘DNA from different genomes,’’ and that ‘‘produced in a nonhuman host transformed by a recombinant
DNA molecule’’ requires production within ‘‘a transformed cell line that is not a human cell line.’’ Final Jury
Instructions at 17. Defendants failed to identify a single
prior-art reference that discloses all of the elements of

63a
the ’755 patent claims. Specifically, no reference in the
record discloses treatment with a ‘‘therapeutically effective amount’’ of a composition comprising a ‘‘recombinant’’ interferon-Ⱦ polypeptide produced in a ‘‘nonhuman host’’ that had been ‘‘transformed by a recombinant DNA molecule.’’
Instead, the expert testimony presented to the jury,
including testimony by Defendants’ experts Dr. Lodish
and Jordan Gutterman, M.D., the latter a Professor of
Medicine at the University of Texas MD Anderson Cancer Center, showed that all therapeutic uses of interferon-Ⱦ before the priority date of June 6, 1980 employed
native, human interferon-Ⱦ. 10 See 2/13/18 AM Tr. at 35:437:5 (Lodish) (explaining that before June 6, 1980, no one
had made enough recombinant interferon-Ⱦ to treat a patient); 2/7/18 PM Tr. at 85:7-86:7 (Gutterman) (explaining
that studies of interferon-Ⱦ in MS in the 1970s did not use
‘‘recombinant interferon’’ but instead used ‘‘the native
interferon produced from fibroblasts’’); 2/15/18 PM Tr. at
66:12-16 (Garcia) (agreeing that no prior-art publications
‘‘talked about the activity of recombinant beta interferon’’). The ’755 patent itself discloses that therapeutic use
of native, human interferon-Ⱦ was known in the prior art,
and describes how compositions of the native protein had
been prepared. PTX0001 (’755 patent) at 2:53-4:22, 4:495:3. Although Defendants cite prior-art publications disclosing therapeutic uses of interferon-Ⱦ, those uses were
Additional testimony in the record showed that before June 6,
1980, native, human interferon-Ⱦ was used and studied for the
treatment of viruses, cancers, and other diseases, including MS. See,
e.g., 1/29/18 PM Tr. at 83:9-15 (Rudick); 2/7/18 AM Tr. at 43:9-44:13,
45:9-11, 91:21-92:11 (Gutterman); 2/7/18 PM Tr. at 46:20-47:2 (Gutterman); 2/9/18 Tr. at 77:16-79:7 (Lodish); 2/14/18 AM Tr. at 12:1713:7 (Revel).
10

64a
limited to the native protein. See STX-1596 (Kingham) at
1 (disclosing use of native, human interferon-Ⱦ for the
treatment of hepatitis B virus); STX-1810 (Sundmacher)
at 1 (disclosing use of native, human interferon-Ⱦ for the
treatment of dendritic keratitis virus). Defendants did
not present any evidence or testimony as to the presence
in the prior art of therapeutic uses of recombinant interferon-Ⱦ.
Accordingly, since Defendants failed to present as evidence a single prior-art reference that discloses each and
every element of the ’755 patent claims, no reasonable
jury could have found by clear and convincing evidence
that the claims were anticipated by the prior art. See
Summit 6, 802 F.3d at 1294 (‘‘A claim is anticipated only
if each and every element is found within a single prior
art reference, arranged as claimed.’’).
ii) JMOL of No Anticipation Is Appropriate Even Applying Product-By-Process
Law
Even if the Court were to agree with Defendants that
method of treatment claims having source limitations
should be analyzed in the same way as product-byprocess claims for purposes of anticipation, or that the
Court should at least be guided by product-by-process
law, the jury’s verdict of anticipation still cannot stand.
Giving Defendants the benefit of every fair and reasonable inference that can be drawn from the record, as discussed below, there is insufficient evidence to support a
finding that the product of the ’755 patent claims (i.e., recombinant interferon-Ⱦ made, for example, in CHO cells)
is the same as the product known and used in the prior
art (i.e., native interferon-Ⱦ).

65a
1) Native and Recombinant Interferon-Ⱦ Are Not Structurally Identical
The evidence presented at trial demonstrates that native interferon-Ⱦ and recombinant interferon-Ⱦ are not
structurally identical. As discussed above, ‘‘strict identity’’ is a requirement for anticipation; that the prior art is
‘‘substantially identical,’’ ‘‘extremely similar,’’ or ‘‘very
similar’’ to the claimed invention is not enough. See
Trintec, 295 F.3d at 1296 (noting that the ‘‘test for novelty’’ requires ‘‘strict identity’’); Jamesbury, 756 F.2d at
1560 (‘‘[A]nticipation is not shown by a prior art disclosure which is only ‘substantially the same’ as the claimed
invention.’’); Connell, 722 F.2d at 1548 (rejecting argument that ‘‘it is sufficient for an anticipation if the general
aspects are the same and the differences in minor matters is only such as would suggest itself to one of ordinary skill in the art’’ as ‘‘[t]hose statements relate to obviousness, not anticipation’’ (internal quotation marks
omitted)).
Although Defendants contend that the ‘‘most basic and
obvious identicality between [native and recombinant interferon-Ⱦ] proteins is in the DNA,’’ (6/6/18 Tr. at 74:2324), and that the ‘‘amino acid sequence of both proteins is
identical,’’ (id. at 75:20-21), the record evidence shows
that the proteins differ structurally in terms of their attached carbohydrate (or sugar) groups, also referred to
as glycosylation patterns. In denying Bayer’s Motion for
Summary Judgment of Invalidity No. 2 (Anticipation by
the Treatment References), which Defendants joined, the
Court declined to find as a matter of law that ‘‘their
shared amino acid sequence renders native interferon-Ⱦ
and recombinant interferon-Ⱦ the same for purposes of
anticipation.’’ ECF No. 892 (‘‘Summ. J. Op.’’) at 28. In

66a
reading the term ‘‘polypeptide’’ in the context of claim 1,
the Court determined that claim 1 requires the recombinant polypeptide to display ‘‘antiviral activity’’ and be
administered in a ‘‘therapeutically effective amount.’’ Id.
The Court concluded that ‘‘for a polypeptide to display
biological activity, it must be folded into its appropriate
three-dimensional structure.’’ Id. That the native and
recombinant interferon-Ⱦ proteins share the same linear
amino acid sequence is not enough for purposes of anticipation. Rather, the appropriate analysis is to compare
the three-dimensional structure of the prior-art native
interferon-Ⱦ with the recombinant interferon-Ⱦ of claim 1,
which include the structures of any attached carbohydrate groups.
Moreover, Defendants’ expert, Dr. Lodish, testified
during his direct examination that the native and recombinant proteins’ structures are not identical with respect
to their carbohydrate groups. Among the several opinions Dr. Lodish discussed during the three days on which
he testified as the brief statement that, in his view, native
interferon-Ⱦ and recombinant interferon-Ⱦ are, at best,
‘‘substantially identical.’’ 2/8/18 PM Tr. at 50:11-12. Specifically, during a short portion of one afternoon session
at trial, he testified that, based on his reading of the InterPharm Study, ‘‘[t]here were minor differences in the
structures of the sugars’’ of native and recombinant interferon-Ⱦ, ‘‘but I wouldn’t call them identical, I would
call the sugars extremely similar.’’11 2/9/18 Tr. at 87:24Defendants point to the ultimate conclusion of the InterPharm
Study: ‘‘Based on the above sections, it can be concluded that recombinant beta interferon derived from CHO cells (RBIF) is identical to human fibroblast interferon (HFIF).’’ STX-1259 (InterPharm
Study) at 122. Although the Court draws reasonable inferences in
Defendants’ favor, contrary to Defendants’ assertion, the statement
under the ‘‘Conclusion’’ heading at the very end of the InterPharm

11

67a
88:7; see also id. at 87:3-9 (explaining that although he
did not perform a comparison of native interferon-Ⱦ in
the prior art with recombinant interferon-Ⱦ made in CHO
cells, he would characterize the amino acid sequences as
‘‘exactly’’ the same but the carbohydrates as ‘‘virtually
identical’’); STX-1259 (InterPharm Study) at 94 (concluding that the sugar structures of native and recombinant
interferon-Ⱦ are merely ‘‘very similar’’). Additional expert testimony in the record offered a consistent interpretation of the InterPharm Study. See 2/15/18 PM Tr.
at 101:9-102:15 (Garcia) (stating that with respect to the
glycosylation patterns of the native and recombinant proteins, ‘‘[i]n some cases they’re close, but they’re never
identical,’’ and that it is ‘‘pretty clear that the[ ] glycans
have some significant differences’’). Dr. Lodish also testified that Kagawa showed that the sugar groups of the
native and recombinant proteins in the study had ‘‘small
differences’’ that made them ‘‘extremely similar.’’ 2/9/18
Tr. at 88:9-25. These ‘‘minor’’ and ‘‘small’’ differences
Study falls short of constituting clear and convincing evidence, particularly upon review of the document as a whole and its more detailed statements and analyses underlying this conclusory statement.
In particular, the InterPharm Study reveals that the molecules in
the recombinant interferon-Ⱦ material are structurally different
from the molecules of the native material. See id. at 94 (concluding
that the glycosylation patterns are merely ‘‘very similar’’); 6/6/18 Tr.
at 27:18-29:21. Indeed, Defendants elicited testimony by Dr. Lodish
where he disagreed with the InterPharm Study’s ultimate conclusion
on page 122 of the document that the native and recombinant proteins are ‘‘identical,’’ stating that he ‘‘wouldn’t call them identical.’’
2/9/18 Tr. at 87:24-88:7. On JMOL, the Court should not rely on conclusory statements that purport to controvert specific statements in
the record. See Koito Mfg. Co. v. Turn-Key-Tech, LLC, 381 F.3d
1142, 1152 (Fed. Cir. 2004). A reasonable jury would not rely solely
on that single statement under the ‘‘Conclusion’’ heading in the InterPharm Study and ignore contrary expert testimony and the detailed analyses throughout the document.

68a
matter for purposes of anticipation. See Net MoneyIN,
545 F.3d at 1371 (‘‘[D]ifferences between the prior art
reference and a claimed invention, however slight, invoke
the question of obviousness, not anticipation.’’ (emphasis
added)).
In their opposition brief, Defendants explain that Dr.
Lodish’s testimony was ‘‘not that the individual polypeptides differed, but instead that the proportions of polypeptides containing identical sugar structures in IFN-Ⱦ
made naturally and recombinantly were ‘extremely similar.’ ’’ Defs. Opp. at 14 (quoting 2/9/18 Tr. at 87:14-88:25,
103:6-10 (Lodish)) (emphasis in original). Defendants assert that the ‘‘prior art mixtures’’ of native interferon-Ⱦ
proteins encompass species of proteins that are identical
to species of recombinant interferon-Ⱦ proteins covered
by the ’755 patent claims. See id. Defendants rely on
Kagawa’s purported teaching that ‘‘IFN-Ⱦ made naturally is actually a mixture of proteins having distinct structures, and the same is true of IFN-Ⱦ made in CHO cells
with recombinant DNA technology,’’ and that two such
distinct structures (Structures I and V) disclosed in Kagawa are ‘‘common to both native and CHO IFN-Ⱦ.’’ Id.
at 12-13 (citing STX-1587 (Kagawa) at 4 (Table III)). In
Defendants’ view, Kagawa shows that the ‘‘overwhelming
majority of IFN-Ⱦ made in CHO cells (95%) is structurally identical to specific protein molecules found in IFN-Ⱦ
made naturally,’’ and the prior-art treatments disclosed
in Kingham and Sundmacher ‘‘therefore necessarily included the administration of specific IFN-Ⱦ polypeptides
(Structures I and V) that are structurally identical to
IFN-Ⱦ polypeptides made in CHO cells and within the
scope of the ’755 patent claims.’’ Id. at 13 (emphasis in
original). Defendants contend that Biogen improperly
focuses on Dr. Lodish’s testimony regarding structural

69a
differences between the ‘‘mixtures’’ or ‘‘populations’’ of
native and recombinant proteins as groups, and that the
‘‘pertinent question is whether the prior art disclosed the
administration of a composition including any polypeptide with the same structure as any polypeptide whose
use that ’755 patent claims cover.’’ Id. at 14. In other
words, in Defendants’ view, it is sufficient for anticipation
purposes if within a population of native interferon-Ⱦ proteins there are some molecules that are the same as (i.e.,
atomically identical to) some molecules within a population of recombinant interferon-Ⱦ proteins even if the
populations themselves are not identical. 12 See 6/6/18 Tr.
at 116:10-117:11, 138:2-22.
In their brief, Defendants cite the principle that a prior-art species
can anticipate a claimed genus that encompasses that species. See
Defs. Opp. at 14. The Court is not persuaded that the law Defendants cite applies in this case. In addition, the district court in Amgen
rejected a similar argument. As discussed below, Amgen involved
patents related to the production of recombinant protein erythropoietin (‘‘EPO’’). The defendant, Roche, argued that the source limitation of the claim at issue (the claimed recombinant EPO is ‘‘purified
from mammalian cells grown in culture’’) did not distinguish recombinant EPO over the prior-art urinary EPO. Amgen, Inc. v. F.
Hoffman-La Roche Ltd., 581 F.Supp.2d 160, 197 (D. Mass. 2008),
aff ’d in part, vacated in part, remanded sub nom. Amgen Inc., 580
F.3d 1340. Specifically, Roche argued that the source limitation was
‘‘so vague that it embraces a myriad of hypothetical EPO structures
that might be ‘structurally indistinguishable . . . from human urinary
EPO’ ’’ and therefore ‘‘any distinctions between human and urinary
EPO that are caused by differences in purification techniques cannot
establish novelty.’’ Id. (citation omitted). The court reiterated that
Roche had the burden of proving that urinary EPO ‘‘was in fact identical to the EPO described in’’ the claim, and concluded that the
‘‘mere fact that some mammalian cell purified in some manner in
some culture might produce some glycoprotein structurally similar
to [urinary] EPO hardly roves anticipation by clear and convincing
evidence.’’ Id. (emphasis in original); see also Amgen, 580 F.3d at
1364 (noting that the district court ‘‘rejected Roche’s contention that
12

70a
Even if the Court were to accept Defendants’ anticipation theory, the anticipation evidence remains critically
deficient. Defendants have not cited any testimony, from
Dr. Lodish or otherwise, stating that as between two
populations—native interferon-Ⱦ proteins in the prior art
and recombinant interferon-Ⱦ proteins—there is a molecule or subset of molecules that is identical between
them. See id. at 120:7-23, 123:7-22, 130:9-132:23, 133:7136:13, 139:4-140:24, 143:25-145:16. The few lines of trial
testimony from Dr. Lodish upon which Defendants rely
neither expressly nor implicitly elucidate this theory for
the jury. Based on a review of the record, it does not appear that the particular arguments that Defendants have
raised post-trial to uphold the anticipation verdict were,
in fact, presented to the jury either through expert testimony, during summation, or otherwise. Although Defendants assert that ‘‘the InterPharm report and the
Kingham or Sundmacher papers TTT would be sufficient
in and of itself to support this jury verdict,’’ (id. at 77:38), neither Dr. Lodish nor any other witness at trial testified as to the presence in the prior art of the particular
protein structures identified in the InterPharm Study or
any of the other post-June 6, 1980 references. In other
words, there was no evidence presented to the jury ‘‘linking’’ the prior-art use of native, human interferon-Ⱦ as
disclosed in Kingham, Sundmacher, or any other priorart reference with the InterPharm Study, Kagawa,
Chernajovsky, or the Revel ’523 patent. See id. at 22:1223:3. Without any evidence or testimony in the record
. . . urinary EPO anticipated [the claim at issue] because at least
some of the recombinant EPO would be structurally indistinguishable from urinary EPO’’). In other words, even if there may be some
molecules that are identical between non-identical populations, that
fact alone does not suffice to anticipate.

71a
mentioning, let alone explaining, that there is a molecule
that exists in both the prior-art native interferon-Ⱦ population and the recombinant interferon-Ⱦ population, it
cannot fairly be concluded that the jury drew such an inference in reaching its verdict.
The evidence Defendants cite in support of their anticipation theory is deficient in other respects as well. For
instance, there appears to be no evidence or testimony
that the native interferon-Ⱦ proteins used in the prior art
are the same as the native proteins studied in the postJune 6, 1980 publications. Absent from the record is any
evidence of the carbohydrate structure of a single native
interferon-Ⱦ protein used for treatment in the prior art.
Sundmacher does not disclose the structure of the native
interferon-Ⱦ material, including its glycosylation pattern,
nor is it clear what cell lines were used in the study.
Kingham similarly does not disclose the glycosylation
pattern of the native interferon-Ⱦ produced from the human fetal lung fibroblast cells used in the study. Moreover, there was no testimony from any witness regarding
the structures of the native proteins discussed in either
of those prior-art publications. Also absent from the record is any testimony that all native, human interferon-Ⱦ
proteins are structurally identical. Indeed, the InterPharm Study and Kagawa disclose different compositions for native, human interferon-Ⱦ proteins. See 6/6/18
Tr. at 104:14-106:9; STX-1587 (Kagawa) at 4; STX-159
(InterPharm Study) at 67 (stating that ‘‘[a]n analysis of
oligosaccharide [or carbohydrate] structures on the same
protein from different species and even different tissues
reveals that major variations frequently exist’’ and that
‘‘a homogeneous cell population’’ produces ‘‘an astonishing array of different oligosaccharide structures’’). Furthermore, the InterPharm Study offers almost no infor-

72a
mation about the precise native, human interferon-Ⱦ proteins used in the study, whether those proteins pre-dated
the priority date, or whether the study used the same cell
line or cell type as that used in either Kingham or
Sundmacher.
In sum, Defendants bore the burden of proving by
clear and convincing evidence that the native, human interferon-Ⱦ in the prior art was in fact identical to the recombinant interferon-Ⱦ of the ’755 patent claims. Given
the above-mentioned deficiencies in the evidence, no reasonable jury could find that Defendants met their burden.
2) Native and Recombinant Interferon-Ⱦ Are Not Functionally Identical
The evidence presented at trial also demonstrates that
native, human interferon-Ⱦ and recombinant interferon-Ⱦ
are not functionally identical. Although Dr. Lodish testified that the functional characteristics of native interferon-Ⱦ and recombinant interferon-Ⱦ made in CHO cells
are ‘‘very similar, if not identical,’’ (2/9/18 Tr. at 87:10-13),
as discussed above, ‘‘strict identity’’ is required for anticipation. Defendants rely on the InterPharm Study,
Chernajovsky, and the Revel ’523 patent as evidence of
functional identity. See Defs. Opp. at 13; STX-1439
(Chernajovsky) at 2 (stating that recombinant interferonȾ ‘‘appears identical in size, activity, and immunospecificity to the native human IFN-Ⱦ1 glycoprotein’’); STX-1314
(Revel ’523 patent) at 10 (stating that ‘‘expression of the
DNA coding for pre-IFN-Ⱦ1 in hamster cells leads to the
secretion of a protein which is electrophoretically identical to the natural glycoprotein and which gives, upon purification by immunoaffinity on monoclonal antibodies,
the same specific activity as the IFN-Ⱦ1 purified from
human fibroblasts’’). As discussed above, however, there

73a
was no evidence presented to the jury ‘‘linking’’ the priorart use of native, human interferon-Ⱦ disclosed in Kingham and Sundmacher with the InterPharm Study, Chernajovsky, or the Revel ’523 patent.
Moreover, the jury heard fact and expert testimony
regarding the different biological effects that native interferon-Ⱦ and recombinant interferon-Ⱦ have on the human body. Biogen’s expert, Revere Kinkel, M.D., a neurologist at the University of California San Diego, testified regarding the role of neutralizing antibodies in interferon-Ⱦ treatment. 1/29/18 PM Tr. at 12:16-15:18. Dr.
Kinkel explained that neutralizing antibodies are proteins that bind to interferon and prevent it from binding
to its receptor and having its intended effect. Id. at 14:38. Dr. Kinkel opined that the closer a recombinant protein resembles the native protein, the lower the development of neutralizing antibodies. Id. at 13:1-10. Dr. Kinkel also testified about the differences among the various
recombinant interferon-Ⱦ drug products Betaseron®,
Extavia®, Rebif®, Avonex®, and Plegridy® in terms of
the incidence of neutralizing antibodies. Id. at 14:9-15:18.
The evidence presented at trial also showed that recombinant interferon-Ⱦ can be made in much larger
quantities and much more easily than native, human interferon-Ⱦ can be obtained. See, e.g., PTX0001 (’755 patent) at 4:10-13, 4:49-61, 6:64-67. In particular, the ’755
patent explains that interferon-Ⱦ ‘‘produced by human
cell lines grown in tissue culture’’ resulted in a ‘‘low yield,
expensive process.’’ Id. at 4:49-50; see also id. at 4:11-13
(noting that ‘‘the antitumor and anticancer applications of
IFN-Ⱦ have been severely hampered by lack of an adequate supply of purified IFN-Ⱦ’’). This problem was
eventually solved by

74a
locating and separating DNA sequences that code
for the expression of HuIFN-Ⱦ in an appropriate
host thereby providing DNA sequences, recombinant DNA molecule and methods by means of
which a host is transferred to produce a polypeptide
displaying an immunological or biological activity of
human fibroblast interferon.
Id. at 6:48-53. By virtue of this discovery, it was ‘‘possible to obtain polypeptides displaying an immunological or
biological activity of HuIFN-Ⱦ for use in antiviral, antitumor or anticancer agents and methods,’’ and the invention ‘‘allow[ed] the production of these polypeptides in
amounts and by methods’’ that were not previously available ‘‘for use in antiviral and antitumor or anticancer
agents and methods and immunomodulation.’’ Id. at
6:54-7:7; see also Amgen Inc. v. F. Hoffman-La Roche
Ltd., 580 F.3d 1340, 1364 (Fed. Cir. 2009) (referring to
functional differences between the prior-art native protein and claimed recombinant protein that formed the
basis of the district court’s finding of no anticipation, including the recombinant protein’s ‘‘ability to be mass
produced’’). Defendants did not offer contrary evidence
with respect to these particular functional differences.
See Reeves, 530 U.S. at 151, 120 S.Ct. 2097 (explaining
that while the district court ‘‘must disregard all evidence
favorable to the moving party that the jury is not required to believe’’ it should ‘‘give credence’’ to the ‘‘evidence supporting the moving party that is uncontradicted
and unimpeached’’).
Furthermore, although the evidence establishes functional differences, it appears that structural differences
alone may suffice to impart novelty. This case is similar
to Amgen, Inc. v. F. Hoffman-La Roche Ltd., 581
F.Supp.2d 160 (D. Mass. 2008), which involved patents

75a
related to the production of a protein called erythropoietin, also known as EPO, using recombinant DNA technology. The claims at issue covered EPO and pharmaceutical compositions thereof and included source limitations—i.e., the EPO was ‘‘purified from mammalian cells
grown in culture’’ or was the ‘‘product of . . . expression in
a mammalian host cell.’’ Id. at 193, 206. The district
court concluded, and the Federal Circuit affirmed, that
the claims to recombinant EPO were not anticipated by
the prior-art native EPO that had been isolated from
human urine based on differences in carbohydrate structures between the recombinant protein and the native
protein. 13 Id. at 195; Amgen, 580 F.3d at 1367-69. Those
‘‘structural distinctions,’’ which were ‘‘attributable to recombinant EPO’s source,’’ meant that ‘‘no reasonable jury could find that the recombinant EPO described in the
asserted claims . . . was an old product.’’ Amgen, 580
F.3d at 1368-69.
Notably, the Federal Circuit made no mention of functional differences in affirming the anticipation rulings.
After analyzing and finding sufficient bases to uphold
those rulings, the Federal Circuit then addressed the defendant Roche’s challenge to the district court’s decision
to construe the source limitations differently in the validity and infringement contexts. Id. at 1369-70. In so doing, the Federal Circuit noted that the district court had
found, based on the record in the case, that ‘‘urinary EPO
The defendant Roche brought an anticipation challenge against
two patents. With respect to the first patent, the district court
granted the plaintiff ’s Rule 50(a) JMOL motion of no anticipation
rather than submit the issue to the jury. Amgen, 580 F.3d at 1364.
The issue of anticipation as to the second patent was sent to the jury,
and the district court sustained the jury’s verdict of no anticipation.
Id. The Federal Circuit upheld both anticipation rulings. Id. at
1367-69.

13

76a
and recombinant EPO were structurally and functionally
different.’’ Id. at 1370. Although Defendants focus on
this language from the decision, the holding of novelty in
Amgen was based on structural differences, and at no
point in its decision did the Federal Circuit state that
functional differences were required.14 See United Therapeutics Corp. v. Sandoz, Inc., Nos. 12-1617, 13-316, 2014
WL 4259153, at *52 (D.N.J. Aug. 29, 2014) (‘‘Structural
differences alone may distinguish the prior art.’’ (citing
Greenliant Sys., Inc. v. Xicor LLC, 692 F.3d 1261, 1269Defendants also cite Purdue, Greenliant, and Cubist to support
their position that both structural and functional differences are required to defeat anticipation. These cases merely reiterate the principle announced in Amgen that structural and functional differences
are ‘‘relevant as evidence of no anticipation’’ and decide validity
based on the particular facts of each case; they do not impose a requirement to show both structural and functional differences.
Greenliant quotes the language from Amgen, but also cites the
Manual of Patent Examining Procedure in stating that, consistent
with Federal Circuit precedent, the United States Patent and
Trademark Office (‘‘PTO’’) ‘‘in determining patentability considers
the process in which a product is formed if that process imparts distinctive structural characteristics.’’ 692 F.3d at 1268 (emphasis added). In that case, the applicant told the PTO that its claimed invention had distinct structural characteristics as compared to the prior
art, which the Federal Circuit relied on in determining whether the
claims at issue were invalid under the rule against recapture. See id.
at 1269-72. The Federal Circuit in Purdue concluded that since the
source limitation at issue ‘‘impart[ed] no structural or functional differences,’’ the district court ‘‘did not err in disregarding the process
limitation in its obviousness determination.’’ 811 F.3d at 1354 (emphasis added). Finally, in Cubist, the patentee argued that the
claimed ‘‘composition free from [two impurities] [was] structurally
and functionally different from the prior art composition.’’ 75
F.Supp.3d at 668-69. In other words, in Cubist it was argued that
the low level of impurity of the claimed invention was both a structural and a functional difference, and the district court found there
was no difference, either structurally or functionally. Id. at 669.
14

77a
71 (Fed. Cir. 2012))); Manual of Patent Examining Procedure § 2113 (9th ed. Rev. Aug. 2017) (‘‘The structure
implied by the process steps should be considered when
assessing the patentability of product-by-process claims
over the prior art, especially where the product can only
be defined by the process steps by which the product is
made, or where the manufacturing process steps would
be expected to impart distinctive structural characteristics to the final product.’’ (emphasis added)); 3 Donald S.
Chisum, Chisum on Patents § 8.05[3] (2018) (‘‘Even
though a product may be claimed in terms of the process
of making it, the product still must be new in structural
terms in order to meet the novelty requirement.’’ (emphasis added) (citing Cochrane v. Badische Anilin & Soda Fabrik, 111 U.S. 293, 4 S.Ct. 455, 28 L.Ed. 433 (1884);
SmithKline Beecham Corp. v. Apotex Corp., 439 F.3d
1312 (Fed. Cir. 2006))). 15
iii) Product-By-Process Law
Should Not Apply in Analyzing the Validity of the
’755 Patent Method of
Treatment Claims
Defendants argue that in Amgen, unlike in this case, the structural
differences in terms of carbohydrate compositions between native
and recombinant EPO led to functional differences in terms of specific activity and stability in the human body. 6/6/18 Tr. at 69:2-70:11,
156:8-16. Biogen disagrees with Defendants’ assertion that the evidence in this case shows that glycosylation of interferon-Ⱦ is unimportant. Id. at 158:1-17. According to Biogen, the evidence shows
that structural differences in terms of glycosylation patterns lead to
functional differences in terms of efficacy. See id. As discussed
above, the record evidence reveals structural and functional differences between native and recombinant interferon-Ⱦ. Moreover,
Amgen does not appear to require that structural differences result
in functional differences.
15

78a
The Court has addressed the issues raised in Biogen’s
JMOL motion under the framework proposed by Biogen.
The Court has also addressed those issues under the
framework proposed by Defendants. Under either approach, the Court has concluded that there is legally insufficient evidence to support the jury’s verdict of anticipation. Nevertheless, for the following reasons, the
Court concludes that Biogen’s proposed framework is
more appropriate in this case.
As an initial matter, there appears to be no binding
precedent supporting Defendants’ position that the anticipation inquiry of product-by-process claims governs the
analysis of method of treatment claims that include
source limitations, such as claim 1 of the ’755 patent. The
parties agree that claim 1 includes a source limitation,
i.e., the interferon-Ⱦ protein is made by recombinant
DNA technology. In its claim construction Opinion, this
Court stated that it was ‘‘unclear that [the] method of
treatment claim can be treated as a product-by-process
claim,’’ and that it was ‘‘aware of no binding precedent
requiring method of treatment claims to be treated as
product-by-process claims in the claim construction context.’’ Markman Op. at 14. Since the Court’s claim construction ruling, Defendants have not identified cases
that would warrant this Court to apply the framework for
assessing novelty of product-by-process claims to method
of treatment claims. 16
Defendants cite Leggett v. Standard Oil Co., 149 U.S. 287, 13 S.Ct.
902, 37 L.Ed. 737 (1893) as an example where product-by-process
law was purportedly applied to method claims. The Court is not persuaded that Leggett compels the application of product-by-process
law in the determination of validity of method claims. Indeed, the
Court agrees with Biogen’s reading of Leggett as a straightforward
anticipation case, which Defendants ask this Court to apply in a way
16

79a
Even beyond the absence of binding precedent, the
Court is persuaded by Biogen’s argument that given the
particular principles underlying product-by-process law,
the framework Defendants propose should not apply to
assessing the validity of the ’755 patent method of treatment claims. 17 The product-by-process doctrine allows
patentees to draft claims to a product by reference to the
process by which the product is made where the product’s characteristics are unknown or otherwise cannot be
described. See In re Thorpe, 777 F.2d 695, 697 (Fed. Cir.
1985). As the Federal Circuit explained:
Product-by-process claims are not specifically discussed in the patent statute. The practice and governing law have developed in response to the need
to enable an applicant to claim an otherwise patentable product that resists definition by other than
the process by which it is made. For this reason,
even though product-by-process claims are limited
by and defined by the process, determination of patentability is based on the product itself.

that no court appears to have previously done. Specifically, the
claims in Leggett were directed to a process of coating or lining the
inside of barrels with unsolidified glue to make the barrels waterproof. Id. at 288-89, 13 S.Ct. 902. The Supreme Court concluded
that the claims were anticipated, noting that the process of lining
barrels with glue that had not previously been solidified had been
practiced in the prior art. Id. at 295-97, 13 S.Ct. 902 (noting that
others in the industry were using liquid glue that had never been
dried in the same manner as claimed). In other words, the identical
process had been practiced in the prior art.
17
Moreover, as discussed below with respect to the issue of patent
eligibility under 35 U.S.C. § 101, fundamental policy differences inform how the law treats method of treatment claims as opposed to
product claims, at least in the context of patent eligibility.

80a
Id. (citations omitted). The purpose of the doctrine is to
prevent foreclosing inventors ‘‘from the benefits of the
patent system simply because a product is difficult to describe in words, or its structure is insufficiently understood.’’ SmithKline, 439 F.3d at 1315. For purposes of
infringement, the product-by-process claim will only cover products that are made by the claimed process,
whereas for purposes of validity, the ‘‘focus is on the
product and not on the process of making it.’’ Amgen,
580 F.3d at 1369-70 (citations omitted); see also id. at
1370 (‘‘[A] product in the prior art made by a different
process can anticipate a product-by-process claim, but an
accused product made by a different process cannot infringe a product-by-process claim.’’).
Claim 1 of the ’755 patent, by contrast, is not directed
to a product that the inventor, Dr. Walter Charles Fiers,
was unable to describe in words or where the product’s
structure was not sufficiently understood. Rather, the
purpose of the invention, consistent with the stated goal
of the ’755 patent, was to solve the problem in the prior
art that the viability of certain medical treatments was
hindered by insufficient supply. See PTX0001 (’755 patent) at 4:10-13; 6:54-7:7. The principles that inform
product-by-process law as set forth in Thorpe,
SmithKline, and Amgen do not apply in this context. See
6/6/18 Tr. at 12:10-11 (explaining that the ’755 patent ‘‘is
not taking advantage of a legal procedure to overcome a
lack of information’’). The Court agrees with Biogen that
since the source limitation of claim 1 ‘‘lies at the heart of
the benefit of this invention,’’ it should be given ‘‘force
and effect in the anticipation analysis.’’ Id. at 12:7-10.
The procedural posture dictates that the Court may
only consider whether Defendants presented sufficient
evidence to support the jury’s conclusion. Even viewing

81a
the evidence in the light most favorable to Defendants,
the Court concludes that there is insufficient evidence
from which the jury reasonably could have found that the
’755 patent claims were anticipated by the prior-art uses
of native, human interferon-Ⱦ. Accordingly, the Court
grants Biogen’s Rule 50(b) JMOL motion of no anticipation and vacates the jury’s verdict in favor of Defendants.
d. Biogen Is Entitled to a Conditional New
Trial on Anticipation
For the same reasons the Court grants Biogen’s
JMOL motion, the Court conditionally orders a new trial
on anticipation pursuant to Rule 50(c)(1). Additional considerations warrant granting Biogen’s request for a new
trial on the issue of anticipation. The Court recognizes
that the five-week trial in this case was ‘‘long and complicated,’’ required complex factual determinations on multiple infringement, validity, and damages issues, was noticeably focused on issues other than anticipation, and
involved scientific concepts that are not the ‘‘subject matter . . . lying within the ordinary knowledge of jurors.’’
Lind, 278 F.2d at 90-91. Thus, the jury verdict deserves
close scrutiny. See Comcast, 262 F.Supp.3d at 139 (applying ‘‘close scrutiny’’ to the verdict and conditionally
granting a new trial under Rule 50(c)(1) following a 14day patent trial involving ‘‘the complexities of cellular
networks’’). The jury spent the vast majority of the trial
hearing fact and expert testimony on issues other than
anticipation; indeed, in contrast with their other invalidity theories, Defendants did not mention anticipation or
Question 12 of the Verdict Form once in their summation.
Moreover, although a jury is free to draw reasonable inferences from the evidence presented, here the verdict of
anticipation appears to rest on a number of inferences

82a
that Defendants did not argue to the jury. See Roebuck
v. Drexel Univ., 852 F.2d 715, 735-36 (3d Cir. 1988).
Upon consideration of the overall setting of the trial,
the character of the evidence, and the complexity of the
legal principles that the jury was asked to apply to the
facts, the Court concludes that the jury’s determination
that the ’755 patent claims are invalid for anticipation is
against the weight of the evidence and therefore warrants the conditional grant of a new trial on the issue of
anticipation pursuant to Rule 50(c)(1). Biogen’s alternative request for a new trial under Rule 59 is denied as
moot.
2. Induced Infringement By Pfizer and Serono
Biogen seeks JMOL of induced infringement against
Pfizer and Serono. As to the questions of direct infringement by healthcare professionals and/or patients
and contributory infringement by Pfizer and Serono, the
jury found in favor of Biogen. Defendants have not challenged the jury’s finding of direct infringement or its
finding of contributory infringement by Serono. Nevertheless, because the legal principles for, and specific elements of, each type of infringement are instructive to the
following analysis regarding the issue of induced infringement, the Court discusses those principles and elements below.
a. Applicable Legal Principles for Direct, Induced, and Contributory Infringement
Section 271(a) of the Patent Act governs direct infringement and provides that ‘‘whoever without authority
makes, uses, offers to sell, or sells any patented invention, within the United States . . . during the term of the
patent therefor, infringes the patent.’’ 35 U.S.C. § 271(a).
Section 271(b) of the Patent Act governs induced infringement and provides that ‘‘[w]hoever actively induces

83a
infringement of a patent shall be liable as an infringer.’’
35 U.S.C. § 271(b). In order to prevail on an inducement
claim, the patentee must establish ‘‘first that there has
been direct infringement, and second that the alleged infringer knowingly induced infringement and possessed
specific intent to encourage another’s infringement.’’
ACCO Brands, Inc. v. ABA Locks Mfrs. Co., 501 F.3d
1307, 1312 (Fed. Cir. 2007) (quoting Minn. Mining &
Mfg. Co. v. Chemque, Inc., 303 F.3d 1294, 1304-05 (Fed.
Cir. 2002)). “ ‘To prove inducement of infringement, the
patentee must [ ]show that the accused inducer took an
affirmative act to encourage infringement with the
knowledge that the induced acts constitute patent infringement.’’ Power Integrations, 843 F.3d at 1332
(quoting Astornet Techs. Inc. v. BAE Sys., Inc., 802 F.3d
1271, 1279 (Fed. Cir. 2015)).
In addition, a reasonable, good-faith belief in noninfringement can negate the specific intent required for
induced infringement. See Commil USA, LLC v. Cisco
Sys., Inc., 720 F.3d 1361, 1367-68 (Fed. Cir. 2013) (‘‘[I]t is
clear that a good-faith belief of non-infringement is relevant evidence that tends to show that an accused inducer
lacked the intent required to be held liable for induced
infringement.’’ (citations omitted)), vacated and remanded on other grounds, ––– U.S. ––––, 135 S.Ct. 1920, 191
L.Ed.2d 883 (2015). This defense applies where such a
belief is based on a reasonable reading of the patent
claims, even if that reading is later found to be incorrect. 18 See Commil, 135 S.Ct. at 1928.
During trial, the Court ruled that although a good-faith belief in a
rejected claim construction can be asserted as a defense to negate
the specific intent required to induce infringement, such a belief is
not a defense to negate the lesser knowledge requirement of contributory infringement. 2/20/18 PM Tr. At 10:1-8.
18

84a
Section 271(c) of the Patent Act governs contributory
infringement and provides that:
[w]hoever offers to sell or sells within the United
States or imports into the United States a component of a patented machine, manufacture, combination or composition, or a material or apparatus for
use in practicing a patented process, constituting a
material part of the invention, knowing the same to
be especially made or especially adapted for use in
an infringement of such patent, and not a staple article or commodity of commerce suitable for substantial noninfringing use, shall be liable as a contributory infringer.
35 U.S.C. § 271(c). Unlike induced infringement, contributory infringement under § 271(c) requires ‘‘only proof of
a defendant’s knowledge, not intent, that his activity
cause infringement.’’ Lifetime Indus., Inc. v. Trim-Lok,
Inc., 869 F.3d 1372, 1381 (Fed. Cir. 2017) (emphasis in
original) (citation omitted); see also Commil, 135 S.Ct. at
1926 (‘‘[C]ontributory infringement requires knowledge
of the patent in suit and knowledge of patent infringement.’’ (citation omitted)). The patentee bears the burden of proving infringement by a preponderance of the
evidence. See Octane Fitness, LLC v. ICON Health &
Fitness, Inc., 572 U.S. 545, 134 S.Ct. 1749, 1758, 188
L.Ed.2d 816 (2014); Seal–Flex, Inc. v. Athletic Track &
Ct. Constr., 172 F.3d 836, 842 (Fed. Cir. 1999).
b. Induced Infringement By Pfizer
i) Parties’ Contentions
The jury found that Pfizer has not ‘‘actively induced
healthcare professionals and/or patients to directly infringe the asserted claims of the ’755 patent.’’ Verdict
Form at 3, Q. 6. Biogen seeks to overturn the verdict of
no induced infringement by emphasizing the jury’s direct

85a
infringement and contributory infringement verdicts.
Specifically, Biogen argues that in finding direct infringement, the jury inherently found that Rebif® (interferon-Ⱦ) treats MS through immunomodulation, an element of claim 1, because MS is indisputably an autoimmune disease and is not a viral condition, a viral disease,
a cancer, or a tumor. See Biogen Br. at 23 (citing 1/29/18
AM Tr. at 102:22-103:21 (Kinkel)); 6/6/18 Tr. at 238:8-10;
see also PTX0001 (’755 patent) at 49:59-60 (‘‘A method for
immunomodulation or treating a viral condition[ ], a viral
disease, cancers or tumors . . . .’’ (emphasis added)). Biogen also contends that in finding contributory infringement, the jury necessarily found that Pfizer ‘‘knew that
Rebif was being used by healthcare professionals and/or
patients in a manner that infringes a claim of the ’755
patent’’ and that ‘‘Rebif has no substantial, noninfringing use.’’ Final Jury Instructions at 24 (emphasis
added); see also 6/6/18 Tr. at 238:15-21. Biogen argues
that, when considered together, these two findings indicate that the jury agreed with Biogen that Pfizer knows
how Rebif® works and that Pfizer knows it works
through immunomodulation. According to Biogen, with
respect to inducement, the only question remaining for
the jury to decide was whether Pfizer intended for Rebif® to work through immunomodulation. See Final Jury Instructions at 22 (instructing jury that to be liable for
induced infringement, Pfizer must have ‘‘specifically intend[ed] to cause the infringing acts by healthcare professionals and/or patients’’).
In Biogen’s view, the verdict in Pfizer’s favor cannot
stand because no reasonable jury could have concluded
that Pfizer lacked the specific intent to induce infringement. Biogen contends that the jury heard ample evidence that Pfizer had the specific intent to induce the di-

86a
rect infringement of the ’755 patent claims—i.e., Pfizer
specifically intended that Rebif® be used to treat MS
through immunomodulation, as opposed to through some
other way. Biogen Br. at 21-27. In particular, Biogen
cites the testimony of its expert Dr. Kinkel, who opined
that there is a consensus in the scientific community that
Rebif® works through immunomodulation to treat MS.
Id. at 23 (citing 1/29/18 AM Tr. at 121:11-17, 127:6-9;
1/29/18 PM Tr. at 33:25-34:7). Biogen also cites as proof
that Pfizer intends that Rebif® works through immunomodulation an internal Pfizer presentation entitled ‘‘Rebif Business Review,’’ which characterizes Rebif® and
other interferon-Ⱦ products as ‘‘immunomodulatory
agents’’ (PTX0659 at 87), and diagrams the ‘‘MOA’’
(mechanism of action) of interferon-Ⱦ in treating MS as
modulating the immune response (id. at 14). Biogen Br.
at 24-25; see also 1/29/18 PM Tr. at 32:18-33:24 (Kinkel).
Biogen further cites the Rebif® Biologics License Application (‘‘BLA’’), submitted to the United States Food and
Drug Administration (‘‘FDA’’), which identifies three
proposed mechanisms of action for interferon-Ⱦ ‘‘in influencing MS disease,’’ all of which ‘‘result in modulation of
the immune process, which leads to reduction in disease
activity,’’ (PTX0059 at 163), and states that interferon-Ⱦ
‘‘exerts a number of immunoregulatory effects on cells of
MS patients’’ and ‘‘seems to act by regulating excessive
immune responses in the local inflammation sites in MS,’’
(PTX0061 at 19-20). Biogen Br. at 25-26; see also 1/29/18
PM Tr. at 23:17-24:18 (Kinkel). Biogen also cites the testimony of Defendants’ expert Dr. Gutterman, who agreed
that it was known that interferon-Ⱦ is immunomodulatory, may play a role in the regulation of the immune response, and can be both immunopotentiating and immunosuppressant depending on the time and dose of application. See 2/7/18 PM Tr. at 36:25-37:4, 45:6-13, 46:16-19.

87a
Biogen contends that Defendants failed to present any
rebuttal fact or expert testimony regarding—or any alternative, non-immunomodulatory hypothesis for—how
Rebif® works to treat MS to support a verdict that Pfizer lacked the requisite intent. See 6/6/18 Tr. at 239:1-6.
Thus, in Biogen’s view, no reasonable jury could conclude
that Pfizer did not intend that Rebif® be used for immunomodulation in the treatment of MS.
Defendants nevertheless contend that the Court
should not disturb the verdict of no inducement by Pfizer.
Defendants reiterate that it is Biogen, not Defendants,
who bore the burden of proving inducement. Defs. Opp.
at 22. While Defendants do not dispute that interferon-Ⱦ
has immunomodulatory properties, in their view, ‘‘Biogen
had to prove that [Defendants] specifically intended immunomodulation to be that mechanism of action’’ by
which interferon-Ⱦ treats MS. 6/6/18 Tr. at 258:7-15. To
support the jury’s finding that Pfizer lacked the specific
intent to induce infringement, Defendants cite the Rebif® package insert label, which states that the ‘‘mechanism(s) by which REBIF (interferon beta-1a) exerts its
therapeutic effects in patients with multiple sclerosis is
unknown,’’ (PTX0582 at 11), and Dr. Kinkel’s testimony
that ‘‘all of the labels for the FDA-approved interferon
beta drugs, [Biogen’s interferon-Ⱦ product] Avonex included, state that the mechanism of action is unknown’’
(1/29/18 PM Tr. at 49:16-50:5, 55:18-56:2). Defs. Opp. at
23. Defendants characterize this evidence as proof that it
is unknown whether the various immunomodulatory
properties of interferon-Ⱦ work to treat MS, and that Biogen’s cited evidence ‘‘actually emphasizes the uncertainty in the field as to what causes MS and how IFN-Ⱦ
treats it.’’ Id. at 22. Defendants also rely on the testimony of Giampiero De Luca, Serono’s former Chief Intellec-

88a
tual Property Counsel, in which he questions whether
patients know that interferon-Ⱦ immunomodulates when
it treats MS. Id. at 23 (citing 8/15/12 De Luca Dep. Tr. at
168:25-169:6, 169:13-23). Defendants argue that the jury
was entitled to credit this testimony and evidence and
conclude that Biogen failed to meet its burden of establishing Pfizer’s specific intent.
ii) Biogen Is Entitled to JMOL of Induced
Infringement By Pfizer
Having reviewed the record under the appropriate
standard, including drawing all reasonable inferences in
favor of Defendants as the non-movants, the Court concludes that no reasonable jury could have found that
Pfizer lacked the specific intent to induce infringement.
In reviewing the entirety of the record evidence, the
Court has ‘‘give[n] credence to the evidence favoring’’
Defendants as well as evidence supporting Biogen that is
‘‘uncontradicted and unimpeached.’’ Reeves, 530 U.S. at
151, 120 S.Ct. 2097; Integra Lifesciences, 496 F.3d at
1345.
Whether Pfizer ‘‘took action after the time the ’755 patent issued specifically intending to cause the infringing
acts by healthcare professionals and/or patients’’ is the
only element in the inducement inquiry that does not
overlap with direct or contributory infringement. Final
Jury Instructions at 22. Defendants’ argument in support of the inducement verdict, which relies primarily on
the language in the Rebif® label and other interferon-Ⱦ
product labels, goes to a different question that the jury
resolved against Pfizer. Specifically, in finding contributory infringement, the jury rejected Defendants’ argument that Pfizer does not know that Rebif® works

89a
through immunomodulation to treat MS. 19 Moreover, the
language in the interferon-Ⱦ product labels cited by Defendants regarding interferon-Ⱦ’s mechanism of action is
far outweighed by and, in fact, is consistent with the record evidence of intent; what is ‘‘unknown’’ is only the precise mechanism(s) involved. See 1/29/18 AM Tr. at
122:21-23 (Kinkel) (‘‘A mechanism of action is the precise
way that a particular drug has its effect.’’). When asked:
‘‘[I]s there any serious debate in the scientific community
about whether interferon-Ⱦeta is immunomodulatory in
treating multiple sclerosis?’’ Dr. Kinkel answered: ‘‘No,
there is not.’’ Id. at 127:6-9. While it is true that the jury
may disregard evidence on disputed propositions, see
Reeves, 530 U.S. at 151, 120 S.Ct. 2097, here there was no
contrary testimony or evidence that the jury could have
credited over this testimony. Although Defendants do
not bear the burden of proving noninfringement, no fact
or expert witnesses testified that Pfizer lacked specific
intent or to ‘‘any degree of agnosticism or ignorance or
skepticism on the part of Pfizer.’’ 6/6/18 Tr. at 285:25286:1. No contrary hypothesis was advanced or was supported by the record. In the absence of contrary evidence, the jury was not free to disregard the evidence of
Pfizer’s intent proffered by Biogen. Therefore, no reasonable jury could have concluded that Pfizer did not intend that Rebif® be used to treat MS through immunomodulation.

The only other purportedly supportive evidence Defendants cite is
Mr. De Luca’s testimony. Defendants have not pointed to any evidence in the record showing that Pfizer was aware of or was influenced by Serono principal Mr. De Luca’s statements, nor have they
provided a sufficient explanation as to how his testimony bears on
Pfizer’s state of mind.
19

90a
Accordingly, the Court grants Biogen’s Rule 50(b)
JMOL motion as to induced infringement by Pfizer and
vacates the jury’s verdict in favor of Pfizer. For the same
reasons that the Court grants Biogen’s JMOL motion,
the Court concludes that the jury’s verdict is against the
clear weight of the evidence and conditionally orders a
new trial on induced infringement by Pfizer pursuant to
Rule 50(c)(1). Biogen’s alternative request for a new trial
under Rule 59 is denied as moot.
c. Induced Infringement By Serono
i) Parties’ Contentions
The jury found that Serono has not ‘‘actively induced
healthcare professionals and/or patients to directly infringe the asserted claims of the ’755 patent.’’ Verdict
Form at 2, Q. 2. As with Pfizer, Biogen seeks to overturn
the verdict of no induced infringement by emphasizing
the jury’s direct infringement and contributory infringement verdicts. The Verdict Form, as prepared and supplied by the parties, included the following four questions
with regard to Serono’s alleged inducement, which have
been conformed to show the jury’s response:
2. Do you find, by a preponderance of the evidence,
that Serono has actively induced healthcare professionals and/or patients to directly infringe the asserted claims of the ’755 patent?
Yes _ _

(for Biogen)

No ‫ض‬

(for Serono)

If your answer to Question 2 is ‘‘Yes’’, continue to
Question 3. If your answer is ‘‘No’’, do not continue to Question 3, but instead proceed to Question 6.
3. Do you find, by a preponderance of the evidence,
that it is. unreasonable to read the ’755 patent
claims to require three steps (transformation of the

91a
nonhuman host cell, production of the recombinant
polypeptide, and administration) as opposed to only
a single step (of administration)?
Yes __

(for Biogen)

No __

(for Serono)

4. Do you find, by a preponderance of the evidence,
that for at least some time period Serono lacked a
good faith belief that its acts did not induce direct
infringement of the asserted claims of the ’755 patent?
Yes __

(for Biogen)

No __

(for Serono)

5. If you find that Serono lacked a (1) reasonable
and (2) good faith belief that its acts did not induce
direct infringement, over what span of time do you
find that Serono lacked such a belief ?
Please specify: __________
Verdict Form at 2. The Verdict Form instructed the jury
to skip Questions 3, 4, and 5 if it answered ‘‘No’’ to Question 2. Id. The jury answered ‘‘No’’ to Question 2 and
left blank Questions 3, 4, and 5, which address whether
Serono reasonably believed in good faith that the ’755 patent claims require three steps (transformation of the
non-human host cell, production of the recombinant polypeptide, and administration to a patient), a proposed construction that the Court rejected during claim construction. 20 See Markman Op. at 17 (construing claim 1 as reciting a ‘‘one-step method of ‘administering’ to a patient
in need the specified recombinant HuIFN-Ⱦ’’).

Defendants did not advance a reasonable, good-faith belief defense
in response to Biogen’s inducement claim against Pfizer.
20

92a
As with the jury’s inducement verdict in favor of Pfizer, Biogen contends that the jury’s verdict of no inducement by Serono cannot stand because no reasonable jury
could have concluded that Serono lacked the specific intent to induce infringement. In Biogen’s view, the jury’s
answer of ‘‘No’’ to Question 2 indicates that it ruled on
Defendants’ immunomodulation theory as it did for Pfizer, and did not reach Serono’s reasonable, good-faith belief defense. Biogen contends that the latter theory cannot support a verdict of no inducement in any case, given
that Serono conceded during trial that it relinquished its
belief of noninfringement following the Court’s March 28,
2016 claim construction ruling. ECF No. 1003 (‘‘Biogen
Reply’’) at 12-13; 6/6/18 Tr. at 247:8-9, 248:4-18, 250:8-12,
287:21-288:21. With respect to Defendants’ immunomodulation theory, Biogen argues that in finding contributory
infringement by Serono, as it did with Pfizer, the jury
rejected Defendants’ argument that Serono does not
know that Rebif® works through immunomodulation to
treat MS. As affirmative evidence supporting an inducement finding, Biogen cites (i) the Rebif® BLA’s sections that Biogen cited in challenging the inducement
verdict for Pfizer; (ii) Serono’s internal presentation entitled ‘‘Interferon-Ⱦ Pharmacokinetics, Pharmacodynamics
and Mechanism of Action,’’ which recounts seven facets
of ‘‘Immunomodulatory Activity of IFN’’ and diagrams
how interferon-Ⱦ affects the immune response in MS
(PTX0227 at 26-29); (iii) an article by Dr. Revel, who was
involved in the development of Rebif® on behalf of Serono, entitled Interferon-Ⱦ in the treatment of relapsingremitting multiple sclerosis, Pharmacol Ther. 100(l):4962 (2003), which states that the ‘‘anti-inflammatory and
immunomodulatory effects of interferon-Ⱦ are the predominant mechanisms responsible for its effectiveness as
a MS [disease-modifying drug]’’ (PTX1055 at 4); and (iv)

93a
Serono’s failure to call an expert witness to present any
alternative, non-immunomodulatory hypothesis for interferon-Ⱦ’s mechanism of action in treating MS. Biogen Br.
at 31-32.
In response, Defendants assert that sufficient evidence supports the verdict of no inducement by Serono.
Specifically, Defendants contend that the jury heard evidence that Serono (i) did not believe that interferon-Ⱦ
treats MS through immunomodulation, based on the
same evidence discussed above with respect to Pfizer’s
intent, including the testimony of Mr. De Luca; and (ii)
reasonably believed that the ’755 patent claims require
multiple steps that Serono never carried out, based on
the independent assessments of the claims by Mr. De
Luca and Henry Einav, the latter an Israeli patent attorney employed by, and responsible for patent prosecution
and patent licensing for, Serono (2/8/18 AM Tr. at 7:1214, 8:16-25 (Einav)), and the advice of United States patent attorneys Roger Browdy and John White. Defs.
Opp. at 23-27. In Defendants’ view, Question 2 of the
Verdict Form is not limited to any particular noninfringement theory. Defendants also contend that, contrary to Biogen’s assertion, Serono did not relinquish its
belief in noninfringement after the Court’s claim construction decision, and the jury could have concluded that
Serono’s belief was reasonable. 6/6/18 Tr. at 265:9-18,
267:6-10. According to Defendants, a reasonable jury
considering this evidence could have concluded that Biogen failed to meet its burden of establishing that Serono
specifically intended to cause direct infringement.
ii) Biogen Is Entitled to JMOL of Induced
Infringement By Serono
Having reviewed the record under the appropriate
standard, including drawing all reasonable inferences in

94a
favor of Defendants as the non-movants, the Court concludes that no reasonable jury could have found that Serono lacked the specific intent to induce infringement. As
discussed above with respect to Pfizer, by finding direct
infringement of the ’755 patent claims, the jury found
that Rebif® treats MS through immunomodulation. By
finding that Serono contributed to the infringement of
the ’755 patent claims, the jury necessarily found that
Serono ‘‘knew that Rebif was being used by healthcare
professionals and/or patients in a manner that infringes
a claim of the ’755 patent’’ and that ‘‘Rebif has no substantial, noninfringing use.’’ Final Jury Instructions at
24 (emphasis added). As discussed above with respect to
Pfizer, because no other mechanism of action was suggested in the record, the jury could not therefore have
reasonably inferred any other mechanism of action by
which Rebif® treats MS. Accordingly, JMOL of inducement against Serono is appropriate because no reasonable jury could have concluded that Serono did not intend
that Rebif® be used for immunomodulation in the treatment of MS.
The Court therefore turns to Defendants’ other basis
to uphold the verdict. As discussed above, the parties
offer competing interpretations of Verdict Form Questions 2 through 5. On the one hand, Biogen reads the jury having not answered Questions 3, 4, and 5 as showing
that the jury did not reach the issue of Serono’s reasonable, good-faith belief of noninfringement in making its
determination of induced infringement. The jury was directed by the Verdict Form to answer Question 3, 4, and
5 only if it answered ‘‘Yes’’ to Question 2. See Verdict
Form at 2. In other words, only if the jury found that
Serono induced infringement did it then need to decide
whether, and for what period of time, Serono had a valid

95a
defense to rebut such a finding of liability. See id. On
the other hand, under Defendants’ reading of the Verdict
Form, despite having not answered Questions 3, 4, and 5,
the jury could have still considered Serono’s reasonable,
good-faith belief defense in answering Question 2 because that question includes no limitation as to the bases
for finding (or not finding) liability for inducement.
The Court is disinclined to give credence to nonanswers by the jury. In addition, the directive on the
Verdict Form to bypass Questions 3, 4, and 5 essentially
instructed the jury to only consider Serono’s reasonable,
good-faith belief defense in the event it found that Serono
had actively induced infringement. However, even if the
Court were to agree with Defendants’ interpretation of
the Verdict Form—that the jury did, in fact, conclude
that Serono did not induce infringement because the jury
found that Serono held a reasonable, good-faith belief in
noninfringement—the jury’s verdict still cannot stand
because it is not supported by substantial evidence. The
jury heard evidence that as of March of 2016, when the
Court issued its claim construction decision construing
claim 1 as a one-step method, Serono no longer believed
in its three-step claim construction. See 2/8/18 AM Tr. at
73:11-74:21 (Einav); 2/8/18 PM Tr. at 15:4-21 (Einav) (testifying that prior to the Court’s claim construction ruling,
Serono ‘‘believed for all that time that we are talking
about a three-step process,’’ and that subsequent to the
Court’s claim construction it acknowledged that this ruling ‘‘is the law and this is what we accept and this is what
we understand’’). Thus, substantial evidence does not
support a finding that Serono held its belief of noninfringement at all times following the issuance of the ’755
patent on September 15, 2009.

96a
Accordingly, the Court grants Biogen’s Rule 50(b)
JMOL motion as to induced infringement by Serono and
vacates the jury’s verdict in favor of Serono. For the
same reasons that the Court grants Biogen’s JMOL motion, the Court concludes that the jury’s verdict is against
the clear weight of the evidence and conditionally orders
a new trial on induced infringement by Serono pursuant
to Rule 50(c)(1). Biogen’s alternative request for a new
trial under Rule 59 is denied as moot.
3. Invalidity Defenses Not Litigated
a. Applicable Legal Principles
‘‘Under Rule 50, a court should render judgment as a
matter of law when ‘a party has been fully heard on an
issue and there is no legally sufficient evidentiary basis
for a reasonable jury to find for that party on that issue.’ ’’ Reeves, 530 U.S. at 149, 120 S.Ct. 2097 (quoting
Fed. R. Civ. P. 50(a)). ‘‘A court should not render judgment with respect to claims ‘reference[d] in the complaint’ but not raised in the pretrial statement or litigated
at trial; ‘a reference in the complaint is not sufficient to
support a judgment.’ ’’ Alcon Research Ltd. v. Barr
Labs., Inc., 745 F.3d 1180, 1193 (Fed. Cir. 2014) (quoting
800 Adept, Inc. v. Murex Sec., Ltd., 539 F.3d 1354, 136768 (Fed. Cir. 2008)).
‘‘While waiver, as a general principle, is not unique to
patent law,’’ courts in the Third Circuit have applied
Federal Circuit precedent to the question of whether a
patent-law-specific defense is waived. See, e.g., Cubist
Pharms., Inc. v. Hospira, Inc., 75 F.Supp.3d 641, 673-74
(D. Del. 2014); Allergan Inc. v. Barr Labs., Inc., 808
F.Supp.2d 715, 735 (D. Del. 2011), aff ’d, 501 F. App’x 965
(Fed. Cir. 2013). Courts in other circuits also apply Federal Circuit precedent to evaluate the waiver of validity
defenses in patent cases. See, e.g., Asetek Danmark A/S

97a
v. CMI USA, Inc., 100 F.Supp.3d 871, 892 (N.D. Cal.
2015); Fractus, S.A. v. Samsung Elecs. Co., 876
F.Supp.2d 802, 838 (E.D. Tex. 2012).
b. Parties’ Contentions
Biogen seeks a judgment as to certain affirmative defenses that Defendants included in their Answers but
purportedly ‘‘discarded’’ at trial: (1) obviousness-type
double patenting; (2) anticipation based on United States
Patent No. 5,460,811 (the ‘‘Goeddel patent’’); and (3) improper inventorship under 35 U.S.C. §§ 116, 256. 21 Biogen contends that while Defendants maintained these invalidity defenses after the December 13, 2017 deadline by
which to withdraw claims and defenses, Defendants did
not present evidence or otherwise pursue these defenses
at trial. Biogen Br. at 33; ECF No. 1011 at 1. According
to Biogen, JMOL is warranted because having pled and
maintained these defenses, Defendants were obligated to
(and ultimately failed to) prove them by clear and convincing evidence at trial. Biogen Br. at 34; 6/6/18 Tr. at
298:21-23 (‘‘[Defendants] lose on the merits for their failure to prove an issue as to which they bear the burden.
They chose not to do it.’’). Biogen contends that in any
future trial on liability, Defendants ‘‘cannot then decide
to raise these defenses which they deemed not good
enough to make the cut the first time.’’ ECF No. 1011 at
1.
Biogen also seeks JMOL on Defendants’ defense of patent ineligibility under 35 U.S.C. § 101. The Court addresses Biogen’s JMOL
motion with respect to Defendants’ defense of patent ineligibility in
Section III.B.1 below. Although Defendants raised their defense of
patent ineligibility on a Rule 50(a) JMOL motion before the verdict,
Defendants did not seek JMOL as to improper inventorship, obviousness-type double patenting, or anticipation based on the Goeddel
patent.
21

98a
In response, Defendants concede that they did not
present any evidence in support of these defenses at trial.
However, Defendants contend that Biogen’s request is
inappropriate because a Rule 50 JMOL motion is limited
to issues on which ‘‘a party has been fully heard . . . during a jury trial.’’ Defs. Opp. at 28 (quoting Fed. R. Civ. P.
50(a)(1)). According to Defendants, Biogen improperly
seeks an advisory opinion on issues that were not litigated. Id. Defendants contend that while they ‘‘will live
with whatever the consequences are of [the] fact’’ that
they chose not to actively litigate their defenses at trial
‘‘should there be another liability trial in this matter,’’
there is ‘‘no reason for the Court to decide now that [Defendants] waived these invalidity defenses.’’ ECF No.
1017 at 2 (emphasis in original). Defendants contend that
their defenses are not yet ripe for adjudication and ‘‘may
never become ripe,’’ and that the ‘‘legal effect of not pursuing these defenses will be determined if and when it
becomes relevant.’’ Id.
c. Defendants Waived Their Non-Litigated
Defenses
Given that Defendants had the opportunity to either
present evidence on their invalidity defenses or else
withdraw these defenses, and yet chose inaction, a finding of waiver is appropriate. See Acorda Therapeutics,
Inc. v. Roxane Labs., Inc., No. 14-882, 2017 WL 1199767,
at *28 (D. Del. Mar. 31, 2017) (concluding that the defendants’ enablement and written description defenses
‘‘could likely be found to have been waived’’ where ‘‘none
of the experts testified at trial’’ about those defenses);
Asetek, 100 F.Supp.3d at 891-94 (finding waiver of written description and indefiniteness defenses where the defendant ‘‘adduced no evidence on’’ those defenses at trial); Fractus, 876 F.Supp.2d at 838-39 (finding that the

99a
defendant waived its indefiniteness argument by failing
to present testimony or other evidence in support of the
defense at trial).
The Federal Circuit has explained that ‘‘[i]t is a claimant’s burden to keep the district court clearly apprised of
what parts of its claim it wishes to pursue and which
parts, if any, it wishes to reserve for another day.’’ Silicon Graphics, Inc. v. ATI Techs., Inc., 607 F.3d 784, 801
(Fed. Cir. 2010). Here, ‘‘it was incumbent on [Defendants] to expressly request’’ that the Court ‘‘dismiss [their
defenses] without prejudice.’’ Id. Defendants did not notify the Court to withdraw or request dismissal of these
defenses, with or without prejudice. Defendants did not
notify Biogen of the withdrawal of any of these defenses,
despite the deadline set forth in the pretrial schedule.
ECF No. 866 at 5. Although Defendants joined Bayer’s
Motion for Summary Judgment of Invalidity No. 4 (Anticipation by the Goeddel Patent), (see ECF Nos. 513,
531), which the Court denied, (Summ. J. Op. at 35), waiver has been found in similar circumstances where a party
has declined to pursue defenses at trial after denial of
summary judgment on those defenses. See Lisle Corp. v.
A.J. Mfg. Co., 398 F.3d 1306, 1317 (Fed. Cir. 2005).
Moreover, Defendants do not appear to cite cases permitting a defendant to seek to assert defenses they elected not to prove in a first trial. Because Defendants had a
full chance to pursue these defenses at trial, they will be
held to have waived them. See Silicon Graphics, 607
F.3d at 801 (affirming decision to deem invalidity counterclaims not pursued at trial as ‘‘withdrawn or abandoned’’ where the defendants did not explain how it
would serve judicial economy to permit them to ‘‘keep
their untried claims alive’’).

100a
The Court also finds in the alternative that, even if Defendants had not waived their defenses of obviousnesstype double patenting and anticipation by the Goeddel
patent, Defendants failed to present clear and convincing
evidence that the ’755 patent claims are invalid on either
of those two grounds. The Court has ‘‘assessed both
what the parties expected to try given their statements
and conduct and what they actually litigated at trial.’’
Alcon Research, 745 F.3d at 1193. The parties’ pretrial
submissions demonstrate that Defendants placed certain
defenses at issue for the trial. For instance, the Joint
Pretrial Statement lists anticipation and obviousnesstype double patenting as ‘‘joint issues of fact to be litigated.’’22 ECF No. 916 at 10-11. Defendants’ Trial Brief
similarly contends that the ’755 patent claims are anticipated by the Goeddel patent. ECF No. 901 at 2. In addition, Dr. Lodish listed ‘‘Anticipation by the Goeddel patent’’ among the eight topics of his testimony, and said
‘‘we’ll come to [it] later,’’ (2/8/18 PM Tr. at 50:15-51:3),
but did not offer testimony about the defense. Although
Defendants appeared to put obviousness-type double patenting and anticipation by the Goeddel patent at issue,
Defendants did not include these defenses in the Final
Jury Instructions or Verdict Form. Defendants failed to
present any evidence in support of these defenses at trial
for the jury to consider.
Contrary to Defendants’ assertion, Alcon Research
does not preclude the Court deciding the merits of their
non-litigated defenses. In Alcon Research, the defendant
sought JMOL of noninfringement for two patents where
Anticipation is a question of fact, In re Hodges, 882 F.3d 1107, 1111
(Fed. Cir. 2018), and obviousness-type double patenting is a question
of law based on underlying factual inquiries, Eli Lilly & Co. v. Teva
Parenteral Meds., Inc., 689 F.3d 1368, 1376 (Fed. Cir. 2012).

22

101a
the plaintiff ‘‘neither put forward evidence of infringement nor formally obtained a dismissal of the claims involving those patents from its complaint prior to trial.’’
745 F.3d at 1192. The district court denied the defendant’s JMOL motion, finding that ‘‘the claims regarding
the [two] patents were no longer in the case as of the
time of the trial and . . . essentially deeming [the plaintiff ’s] complaint as amended to remove them.’’ Id. at
1193. Notably, the plaintiff had informed the defendant
before trial ‘‘of its decision to drop its claims’’ for those
patents, the defendant ‘‘subsequently omitted them from
the pretrial order,’’ and those patents were not litigated
‘‘or fairly placed in issue’’ at trial. Id.
Unlike the plaintiff in Alcon Research, Defendants (i)
did not provide pre-trial notice to their adversary that
they were withdrawing any of the challenged defenses;
and (ii) included their obviousness-type double patenting
and anticipation by the Goeddel patent defenses in their
pretrial submissions to the Court. Alcon Research does
not appear to preclude the entry of JMOL where a defendant chooses not to adduce evidence in such circumstances. Indeed, courts have stated that entry of judgment would be appropriate in these circumstances. See,
e.g., Innogenetics, N.V. v. Abbott Labs., 512 F.3d 1363,
1371 (Fed. Cir. 2008) (affirming entry of JMOL of literal
infringement where the defendant was deemed ‘‘fully
heard on the issue of literal infringement’’ as the defendant had forfeited its noninfringement argument by not
raising the issue sufficiently in advance of the start of trial and there was ‘‘no legally sufficient evidentiary basis
for a reasonable jury to find for [the defendant] on that
issue’’); Acorda, 2017 WL 1199767, at *29 (concluding
that ‘‘assuming the defenses have not been waived, Defendants have failed to meet their burden to prove, by

102a
clear and convincing evidence, that the [patent-in-suit] is
invalid due to lack of enablement or written description’’); Asetek, 100 F.Supp.3d at 893-94 (noting that
where the defendant listed indefiniteness in its pre-trial
papers but did not litigate its indefiniteness defense at
trial, even absent waiver, the court ‘‘would be compelled
to find that [the defendant] did not carry its burden to
prove, by clear and convincing evidence, that [the] patents are invalid for indefiniteness’’); Fractus, 876
F.Supp.2d at 838-39 (concluding that where the defendant listed its indefiniteness defense in the pretrial order
but ‘‘failed to present any explicit indefiniteness evidence
at trial’’ and ‘‘failed to make a single reference to indefiniteness during trial,’’ even absent waiver, the defendant
failed to present clear and convincing evidence on the defense). The issues of whether the ’755 patent claims are
invalid for obviousness-type double patenting and anticipation by the Goeddel patent were ‘‘fairly placed in issue,’’ and were not akin to the infringement claims in Alcon Research that were merely ‘‘referenced in the complaint’’ and later withdrawn. Accordingly, the Court
agrees with Biogen that ‘‘[h]aving pleaded and maintained’’ these defenses, ‘‘Defendants bore the burden of
proving them by clear and convincing evidence’’ and
‘‘failed to do so.’’ Biogen Br. at 34.
With respect to Defendants’ improper inventorship
defense, as with their defenses of obviousness-type double patenting and anticipation by the Goeddel patent, Defendants pled this defense in their Answers but did not
request a jury instruction or Verdict Form question on
this defense, did not move for JMOL on this defense, did
not seek to withdraw this defense before trial, and did
not present any evidence of this defense during trial.
Unlike the other challenged defenses, however, Defend-

103a
ants did not identify their inventorship defense in the
Joint Pretrial Statement or their Trial Brief. Given that
Defendants did not raise this defense in their pretrial
submissions and did not otherwise pursue this defense in
the case, the Court considers Defendants’ improper inventorship defense abandoned but finds that an entry of
judgment on this defense based on an alleged failure of
proof is inappropriate. See Apple, Inc. v. Samsung Elecs. Co., 67 F.Supp.3d 1100, 1116-17 (N.D. Cal. 2014)
(concluding that because the defendant ‘‘raised [certain]
defenses in its Answer but did not raise them in the pretrial statement nor litigate them at trial,’’ these defenses
were ‘‘abandoned’’ but ‘‘no judgment may be rendered on
these defenses’’ in favor of the plaintiff), aff ’d, 816 F.3d
788 (Fed. Cir. 2016), vacated in part on reh’g en banc, 839
F.3d 1034 (Fed. Cir. 2016); Silicon Graphics, Inc. v. ATI
Techs., Inc., 573 F.Supp.2d 1108, 1113-14 (W.D. Wisc.
2008) (entering judgment in favor of the plaintiff with respect to only the defendants’ invalidity counterclaims
that were pursued at trial, but deeming ‘‘abandoned or
waived’’ the remaining counterclaims ‘‘[b]ecause defendants had a full chance to try all of their claims of invalidity’’), aff ’d, 607 F.3d 784 (Fed. Cir. 2010).
In sum, the Court concludes that the defenses of obviousness-type double patenting, anticipation by the
Goeddel patent, and improper inventorship that Defendants could have asserted against the ’755 patent claims
but did not litigate at trial, as indicated above, are
deemed waived.
4. Subsidiary Damages Issues
a. Applicable Legal Principles for Patent
Damages
A patent owner, upon a finding that a patent is infringed, is entitled to recover ‘‘damages adequate to

104a
compensate for the infringement, but in no event less
than a reasonable royalty.’’ 35 U.S.C. § 284. Having prevailed on liability, a patent owner may receive a reasonable royalty or lost profits. See Asetek Danmark A/S v.
CMI USA Inc., 852 F.3d 1352, 1362 (Fed. Cir. 2017). ‘‘To
recover lost profits, a patent owner must prove a causal
relation between the infringement and its loss of profits.’’
Georgetown Rail Equip. Co. v. Holland L.P., 867 F.3d
1229, 1240 (Fed. Cir. 2017) (internal quotation marks and
citation omitted). In other words, the patent owner must
show a reasonable probability that, ‘‘but for’’ the infringing activity, it would have made the additional profits enjoyed by the infringer. Micro Chem., Inc. v. Lextron,
Inc., 318 F.3d 1119, 1122 (Fed. Cir. 2003); Mentor
Graphics Corp. v. EVE-USA, Inc., 851 F.3d 1275, 1285
(Fed. Cir. 2017) (‘‘[T]he fact finder’s job is to determine
what would the patent holder have made (what would his
profits have been) if the infringer had not infringed.’’),
reh’g en banc denied, 870 F.3d 1298 (Fed. Cir. 2017), cert.
dismissed, No. 17-804, ––– U.S. ––––, 139 S.Ct. 44, 201
L.Ed.2d 1122, 2018 WL 3978434 (U.S. Aug. 17, 2018).
There is ‘‘no particular required method to prove but
for causation’’ in patent cases. Mentor Graphics, 851
F.3d at 1284. One ‘‘useful, but non-exclusive’’ method to
establish the patent owner’s entitlement to lost profits is
the test first articulated in Panduit Corp. v. Stahlin
Bros. Fibre Works, Inc., 575 F.2d 1152 (6th Cir. 1978).
Id. (citation omitted). The Panduit test requires the patent owner to show: (1) demand for the patented product;
(2) absence of acceptable non-infringing alternatives; (3)
manufacturing and marketing capability to exploit the
demand; and (4) the amount of profit it would have made.
Id. at 1285 (citing Panduit, 575 F.2d at 1156). Once the
patent owner makes a prima facie showing under Pan-

105a
duit, it can be reasonably inferred that the lost profits
claimed were caused by the infringing sales, and the burden shifts to the infringer to show that the inference is
unreasonable for some or all of the lost sales. See RiteHite Corp. v. Kelley Co., 56 F.3d 1538, 1545 (Fed. Cir.
1995) (en banc).
The Federal Circuit has instructed that the ‘‘but for’’
inquiry ‘‘requires a reconstruction of the market, as it
would have developed absent the infringing product, to
determine what the patentee ‘would . . . have made.’ ’’
Grain Processing Corp. v. Am. Maize-Prods. Co., 185
F.3d 1341, 1350 (Fed. Cir. 1999) (citation omitted). ‘‘[A]
fair and accurate reconstruction of the ‘but for’ market
also must take into account, where relevant, alternative
actions the infringer foreseeably would have undertaken
had he not infringed.’’ Id. at 1350-51. Consistent with
this standard, this Court instructed the jury that it ‘‘must
take into account, where relevant, alternative actions that
Serono would have undertaken had it not infringed.’’ Final Jury Instructions at 43.
‘‘The goal of lost profit damages is to place the patentee in the same position it would have occupied had there
been no infringement.’’ Mentor Graphics, 851 F.3d at
1285. The question of legal compensability is one ‘‘to be
determined on the facts of each case upon mixed considerations of logic, common sense, justice, policy and precedent.’’ Altana Pharma AG v. Teva Pharms. USA, Inc.,
No. 04-2355, 2013 WL 12157873, at *6 (D.N.J. Jan. 11,
2013) (quoting Rite-Hite, 56 F.3d at 1546). While the
availability of lost profits presents a question of law, RiteHite, 56 F.3d at 1544, whether acceptable non-infringing
alternatives exist, which may reduce or preclude a lost
profits damages award, presents a question of fact,
Minn. Mining & Mfg. Co. v. Johnson & Johnson Ortho-

106a
paedics, Inc., 976 F.2d 1559, 1577 (Fed. Cir. 1992) (citing
Radio Steel & Mfg. Co. v. MTD Prods., Inc., 788 F.2d
1554, 1556 (Fed. Cir. 1986)).
b. Parties’ Contentions
The jury did not reach the damages questions on the
Verdict Form because it found that the ’755 patent claims
were invalid as anticipated over the prior-art uses of native, human interferon-Ⱦ. See Verdict Form at 5-6, Qs.
13-18. Rule 50(b) permits post-trial JMOL motions as to
issues ‘‘not decided by a verdict.’’ Fed. R. Civ. P. 50(b).
Biogen requests that if the Court enters JMOL in its favor on anticipation, the Court should schedule a new trial
on damages. In addition, Biogen asks that the Court either (1) enter judgment in its favor as to three subsidiary
damages-related issues and conditionally grant a new trial under Rule 50(c); or (2) in the alternative, grant a new
trial on all damages issues under Rule 59. Biogen Br. at
35.
With respect to the first subsidiary damages issue, in
seeking JMOL, Biogen reiterates essentially the same
argument it made in opposition to Defendants’ motion for
partial summary judgment as to Biogen’s claim of lost
profits. As discussed in the Court’s Opinion denying Defendants’ summary judgment motion, the parties’ dispute
with respect to Biogen’s entitlement to lost profits damages concerns a Nonsuit and Option Agreement, entered
into by Serono and Biogen in October of 2000 (STX0166). ECF No. 884 at 2. That agreement gave Serono
certain rights, including an option to obtain a license to
the patent application that later issued as the ’755 patent.
Serono’s option to obtain a license to the ’755 patent was
available to Serono when the ’755 patent issued in September of 2009. It appears that, to date, Serono has not
exercised its option, and the option remains available.

107a
As it did on summary judgment, Biogen contends that
exercising the option under the Nonsuit and Option
Agreement is not an ‘‘alternative action,’’ and that ‘‘licensed Rebif ’’ is not a non-infringing alternative. Biogen
Br. at 35-37. Biogen asserts that ‘‘the Federal Circuit
and various district courts have rejected the notion that
the mere right to take a license precludes recovery of lost
profits.’’ Id. at 36 (citations omitted). Biogen cites Immersion Corp. v. HTC Corp., No. 12-259, 2015 WL
834209, at *5 (D. Del. Feb. 24, 2015) as an example where
a court rejects as ‘‘inconsistent with the premise of the
lost profits analysis’’ the argument that in the but-for
world, infringement can be ‘‘factored out’’ by assuming
that the infringer would have exercised a license to make
the otherwise-infringing sales. Second, Biogen also seeks
a judgment in its favor that Biogen had the ‘‘capacity to
manufacture and sell enough product to meet demand if
Defendants had not been taking Biogen’s market share.’’
Biogen Br. at 37-38. Third, Biogen seeks a judgment in
its favor that Biogen sells Avonex®, Plegridy®, and
Tecfidera® to Biogen U.S. Corp. and profits on those
sales. Id. at 38-39.
In opposition, Defendants contend that none of Biogen’s cited cases ‘‘involved a unilateral ‘right’ to participate in the market,’’ and disagree with Biogen’s interpretation of the Immersion court’s decision, which, in Defendants’ view, merely ‘‘rejected as ‘too far’ the argument
that the defendant would have taken a license not only to
the patents, but to non-infringing products as well.’’
Defs. Opp. at 29 (citing Immersion, 2015 WL 834209, at
*5). With respect to Biogen’s capacity to meet demand,
Defendants contend that the jury was free to discard or
disbelieve Biogen’s evidence. Id. With respect to Biogen’s profits from sales to Biogen U.S. Corp., Defendants

108a
contend that this argument was contradicted by the testimony of Biogen’s Senior Director of Tax, Mr. Eric
Tisch, that Biogen ‘‘sells only the drug substance for further processing’’ and that the ‘‘transfer price on which
Biogen’s $4.56 billion in purported lost profits depends is
set unilaterally by Biogen MA Inc. to achieve tax benefits
and could be changed at any time.’’ Id. (citing 1/31/18 Tr.
at 63:12-64:9, 80:19-82:14).
c. Biogen Is Not Entitled to JMOL as to Subsidiary Damages Issues
The Court declined to conclude on summary judgment
that the Nonsuit and Option Agreement precludes Biogen’s claim of lost profits as a matter of law. In particular, the Court determined that Serono’s motion raised
genuine issues of material fact that were appropriate for
a jury’s consideration. ECF No. 884 at 10-12. As observed in this Court’s prior decision, other district courts
faced with arguments similar to those Defendants raised
have sent the issue to the jury for resolution. See Cardiac Pacemakers, Inc. v. St. Jude Med., Inc., 418
F.Supp.2d 1021, 1038 (S.D. Ind. 2006), aff ’d in part, rev’d
in part and remanded, 576 F.3d 1348 (Fed. Cir. 2009);
GlobespanVirata, Inc. v. Texas Instruments, Inc., No.
03-2854, ECF No. 239 (D.N.J. Nov. 7, 2005). No new authority has been cited that would compel this Court to
rule as a matter of law that Defendants’ theory of lost
profits is foreclosed. 23 Although the district court in ImImmersion Corp. v. HTC Corp. involved a motion to exclude expert testimony as opposed to a summary judgment or JMOL motion.
The license agreement at issue, if accepted, would have licensed the
patents-in-suit as well as certain of the plaintiff ’s software. No. 12259, 2015 WL 834209, at *3 (D. Del. Feb. 24, 2015). The plaintiff ’s
damages expert’s lost-profits opinion was based on a hypothetical
‘‘but for’’ world in which the defendant took a license to the patents
and the plaintiff ’s non-patented software. The district court deter-

23

109a
mersion questioned the correctness of a damages theory
Biogen contends is similar to the one Defendants have
advanced, noting that ‘‘no case accepting this sort of lost
profits analysis’’ had been cited, the court also noted ‘‘[t]o
be fair, there is also no case rejecting this sort of lost
profits analysis.’’ 2015 WL 834209, at *5 n.7. In addition,
during the trial both sides presented evidence in support
of their positions on the subsidiary damages issues raised
in Biogen’s motion, and the jury did not reach the question of damages. In light of the Court’s rulings on the
parties’ JMOL motions, the issue of damages still remains for resolution. The Court finds that Biogen’s alternative request of having a new jury decide all damages
issues as part of determining the amount of damages is
the most prudent course of action. Accordingly, the
Court denies Biogen’s Rule 50(b) JMOL motion as to the
subsidiary damages issues and grants Biogen’s alternative request for a new trial on all damages issues pursuant to Rule 59.
B. Defendants’ Post-Trial Motions
Defendants move for JMOL under Rule 50(b) as to (1)
patent ineligibility; (2) obviousness; (3) lack of enablement and lack of adequate written description; (4) contributory infringement by Pfizer; and (5) lost profits
damages. The Court addresses each of Defendants’ motions in turn. The Court also addresses Biogen’s JMOL
mined that this opinion went ‘‘too far’’ and was ‘‘not a viable theory’’
because it included as recoverable lost profits ‘‘whatever profits
would have been made if Defendants licensed the software.’’ Id. at
*5 (after citing the proposition that the Patent Act ‘‘protects the
right to exclude, not the right to exploit,’’ rejecting the expert’s lostprofits analysis that ‘‘in essence, begins with the infringer taking a
license, and then asks, what else would the infringer have bought
from the patent holder?’’ (quoting King Instruments v. Perego, 65
F.3d 941, 949 (Fed. Cir. 1995))).

110a
motion as to Defendants’ patent-ineligibility defense,
specifically, Biogen’s contention that Defendants waived
their defense and that, even absent waiver, Defendants’
defense fails on the merits.
1. Patent Eligibility (Defendants’ and Biogen’s
Motions)
a. Applicable Legal Principles for Patent Eligibility
Section 101 of the Patent Act states that ‘‘[w]hoever
invents or discovers any new and useful process, machine, manufacture, or composition of matter, or any new
and useful improvement thereof ’’ may obtain a patent.
35 U.S.C. § 101. This provision contains certain ‘‘implicit
exceptions’’: laws of nature, natural phenomena, and abstract ideas. Berkheimer v. HP Inc., 881 F.3d 1360, 1366
(Fed. Cir. 2018) (‘‘Because patent protection does not extend to claims that monopolize the ‘building blocks of
human ingenuity,’ claims directed to laws of nature, natural phenomena, and abstract ideas are not patent eligible.’’ (quoting Alice Corp. Pty. Ltd. v. CLS Bank Int’l,
573 U.S. 208, 134 S.Ct. 2347, 2354, 189 L.Ed.2d 296
(2014))), denying en banc reh’g, 890 F.3d 1369 (Fed. Cir.
2018). As with enablement, obviousness, and indefiniteness, ‘‘whether a claim recites patent eligible subject
matter is a question of law which may contain underlying
facts.’’ Id. at 1368 (citations omitted); see also Aatrix
Software, Inc. v. Green Shades Software, Inc., 882 F.3d
1121, 1128 (Fed. Cir. 2018), denying en banc reh’g, 890
F.3d 1354 (Fed. Cir. 2018).
In Mayo Collaborative Services v. Prometheus Laboratories, Inc., 566 U.S. 66, 132 S.Ct. 1289, 182 L.Ed.2d 321
(2012), and as later reiterated in Alice, the Supreme
Court established a two-step test to determine whether
claimed subject matter is patent eligible under § 101: (1)

111a
the court determines whether the claims at issue are directed to a patent-ineligible concept (i.e., a law of nature,
a natural phenomenon, or an abstract idea) and, if so, (2)
the court must ‘‘consider the elements of each claim both
individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of
the claim’ into a patent-eligible application.’’ Alice, 134
S.Ct. at 2355 (quoting Mayo, 566 U.S. at 77-79, 132 S.Ct.
1289). ‘‘While each step involves its own separate inquiry,’’ they may ‘‘involve overlapping scrutiny of the
content of the claims.’’ Interval Licensing LLC v. AOL,
Inc., 896 F.3d 1335, 1342 (Fed. Cir. 2018) (quoting Elec.
Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353
(Fed. Cir. 2016)).
The Supreme Court has explained that laws of nature,
natural phenomena, and abstract ideas are not patentable because ‘‘they are the basic tools of scientific and
technological work,’’ Mayo, 566 U.S. at 71, 132 S.Ct. 1289
(citation omitted), even if the claimed subject matter is
‘‘[g]roundbreaking, innovative, or even brilliant,’’ Ass’n
for Molecular Pathology v. Myriad Genetics, Inc., 569
U.S. 576, 591, 133 S.Ct. 2107, 186 L.Ed.2d 124 (2013)
(‘‘Myriad I’’). The Supreme Court has cautioned, however, that ‘‘too broad an interpretation of ’’ ineligible subject
matter ‘‘could eviscerate patent law’’ because ‘‘all inventions at some level embody, use, reflect, rest upon, or apply laws of nature, natural phenomena, or abstract ideas.’’ Mayo, 566 U.S. at 71, 132 S.Ct. 1289. Thus, with respect to the first step of the Alice inquiry, ‘‘it is not
enough to merely identify a patent-ineligible concept underlying the claim; we must determine whether that patent-ineligible concept is what the claim is ‘directed to.’ ’’
Vanda Pharms. Inc. v. West-Ward Pharms. Int’l Ltd.,
887 F.3d 1117, 1134 (Fed. Cir. 2018) (quoting Rapid

112a
Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d 1042, 1050
(Fed. Cir. 2016)); see also Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1346 (Fed. Cir. 2015)
(‘‘Under step one . . . the claims are considered in their
entirety to ascertain whether their character as a whole
is directed to excluded subject matter.’’).
In addition, the Supreme Court has described the second step of the Alice inquiry as a search for an ‘‘inventive
concept’’—i.e., an element or combination of elements
that is ‘‘sufficient to ensure that the patent in practice
amounts to significantly more than a patent upon the [ineligible concept] itself.’’ Alice, 134 S.Ct. at 2355 (quoting
Mayo, 566 U.S. at 73, 132 S.Ct. 1289). The ‘‘inventive
concept must be evident in the claims.’’ RecogniCorp,
LLC v. Nintendo Co., 855 F.3d 1322, 1327 (Fed. Cir.
2017); see also Alice, 134 S.Ct. at 2357 (‘‘[W]e must examine the elements of the claim to determine whether it
contains an ‘inventive concept.’ ’’). The second step is satisfied when the claim limitations ‘‘involve more than performance of ‘well-understood, routine, [and] conventional
activities previously known to the industry.’ ’’ Berkheimer, 881 F.3d at 1367 (citation omitted). ‘‘[W]hether a
claim element or combination of elements is wellunderstood, routine and conventional to a skilled artisan
in the relevant field is a question of fact’’ that must be
proven by clear and convincing evidence. Id. at 1368 (citing Microsoft, 564 U.S. at 95, 131 S.Ct. 2238); see also
Berkheimer, 890 F.3d at 1371 (Moore, J., concurring)
(‘‘Because the patent challenger bears the burden of
demonstrating that the claims lack patent eligibility . . .
there must be evidence supporting a finding that the additional elements were well-understood, routine, and
conventional.’’ (internal citation omitted)). In addition,
whether a ‘‘particular technology is well-understood, rou-

113a
tine, and conventional goes beyond what was simply
known in the prior art’’ and the ‘‘mere fact that something is disclosed in a piece of prior art, for example, does
not mean it was well-understood, routine, and conventional.’’ Berkheimer, 881 F.3d at 1369.
b. Waiver of Defendants’ Patent-Ineligibility
Defense
As a threshold matter, Biogen contends, that the
Court need not reach the merits of Defendants’ patentineligibility challenge on the ground that the defense,
which allegedly rests on disputed facts, was never presented to the jury and is therefore waived. Biogen points
out that while the Joint Pretrial Statement lists patent
eligibility among the issues of law to be litigated, (ECF
No. 916 at 13), and Defendants’ Trial Brief similarly contends that the ’755 patent claims are patent ineligible,
(ECF No. 901 at 2), Defendants did not seek resolution
before or during the trial of disputed facts upon which
the defense rests. 24 Biogen Opp. at 8-11. Specifically,
Biogen asserts that Defendants did not move for summary judgment on this defense, nor did they present this
Biogen notes that, as a point of comparison, the factual inquiries
underpinning Defendants’ other legal defense of obviousness were
included in the ‘‘Issues of Fact to be Litigated’’ section of the Joint
Pretrial Statement and Defendants actively litigated that defense to
the jury during the trial. See ECF No. 916 at 11; 6/6/18 Tr. at
182:14-183:3; id. at 192:18-24 (arguing that ‘‘by not putting anything
in the Joint Pretrial Statement about the facts that might be implicated by the eligibility defense, that was a waiver’’). In response,
Defendants argue that by not listing the factual inquiries of their
patent-ineligibility defense in the Joint Pretrial Statement, they
were being transparent about their position as to the legal nature of
the defense, and that Biogen could have listed any underlying factual
inquiries of the defense in the ‘‘Issues of Fact to be Litigated’’ section of the Joint Pretrial Statement but chose not to. See 6/6/18 Tr.
at 192:5-17, 213:23-214:9.
24

114a
defense to the jury. Biogen further contends that Defendants’ decision to raise their patent-ineligibly defense
in a Rule 50(a) motion is prejudicial to Biogen because it
deprived Biogen of the ability to develop a record to effectively respond to Defendants’ arguments. See 6/6/18
Tr. at 187:15-19.
By contrast, Defendants contend that questions of law
such as patent eligibility are ‘‘regularly vetted in a Rule
50 motion when not presented to the jury’’ and that any
facts underlying the legal defense are undisputed. ECF
No. 1017 at 3. In Defendants’ view, the ‘‘Section 101 issue is a straightforward legal issue for the Court that can
be determined on the face of the patent and the patent
claims alone.’’ 6/6/18 Tr. at 199:22-25; see also id. at
199:6-9 (disputing that there are ‘‘facts that need to be
adjudicated in connection with’’ determining whether the
claims are patent eligible). Defendants also point out
that ‘‘well-known model jury instructions lack any mention of eligibility.’’ ECF No. 1002 (‘‘Defs. Reply’’) at 4;
see also 6/6/18 Tr. at 197:15-18.
The Court declines to preclude Defendants from raising a patent-eligibility challenge based on an alleged
waiver. Unlike their defenses of obviousness-type double
patenting, anticipation by the Goeddel patent, and improper inventorship, Defendants moved under Rule 50(a)
for JMOL as to patent ineligibility during trial. The cases Biogen cites do not appear to compel a finding of waiver under these circumstances, given that in those cases
either the movant had not moved for JMOL during trial
or its Rule 50(a) motion provided insufficient notice of the
precise legal challenge, an argument that Biogen does

115a
not appear to make. 25 Moreover, as Defendants note, ‘‘as
a procedural matter, the Federal Circuit has observed
frequently that § 101 disputes may be amenable to resolution on motions for judgment on the pleadings, motions
to dismiss, or summary judgment.’’ TriPlay, Inc. v.
WhatsApp Inc., No. 13-1703, 2018 WL 1479027, at *6 (D.
Del. Mar. 27, 2018), reconsideration denied, 2018 WL
3545500 (D. Del. July 24, 2018); see also Berkheimer, 881
F.3d at 1368 (noting that ‘‘not every § 101 determination
contains genuine disputes over the underlying facts material to the § 101 inquiry’’); Exergen Corp. v. Kaz USA,
Inc., 725 F. App’x 959, 963-68 (Fed. Cir. 2018) (affirming
denial of a post-trial motion of § 101 ineligibility and noting that no factual or legal issues regarding the defense
were submitted to the jury); 26 Chamberlain Grp., Inc. v.
Techtronic Indus. Co., 315 F.Supp.3d 977, 986-90 (N.D.
See Erfindergemeinschaft UroPep GbR v. Eli Lilly & Co., 276
F.Supp.3d 629, 654 (E.D. Tex. 2017) (finding waiver of writtendescription theory where the defendant’s ‘‘general statement’’ in its
oral Rule 50(a) motion was ‘‘not sufficient to provide notice’’ to the
plaintiff of the defendant’s ‘‘entirely new theory’’); Asetek Danmark
A/S v. CMI USA, Inc., 100 F.Supp.3d 871, 893-94 (N.D. Cal. 2015)
(finding that the defendant waived indefiniteness defense based in
part on the defendant’s failure to seek JMOL on the defense during
trial, which could have prompted the plaintiff to submit rebuttal evidence on the issue); Fractus, S.A. v. Samsung Elecs. Co., 876
F.Supp.2d 802, 838-39 (E.D. Tex. 2012) (finding waiver where the
defendant did not move for JMOL regarding indefiniteness at the
close of its case-in-chief or at the close of the evidence and therefore
deprived the plaintiff of the opportunity to substantively respond
with its own testimony or evidence).
26
The Court notes that in Exergen Corp. v. Kaz USA, Inc., the defendant had ‘‘acquiesced in the district court’s resolution of any underlying fact questions’’ of the § 101 determination and through the
joint pretrial submission the parties ‘‘agreed that the district court
may, in its discretion, opt to send fact issues to the jury or not.’’ 725
F. App’x 959, 968 (Fed. Cir. 2018).
25

116a
Ill. 2018) (addressing as a legal matter and denying a
Rule 50(b) JMOL motion on § 101 ineligibility following
jury trial). Furthermore, the parties agree that it is an
open question as to whether the Seventh Amendment
applies to the factual underpinnings of a patent-eligibility
challenge. See 6/6/18 Tr. at 185:1-3, 197:18-22; Biogen
Opp. at 9; Exergen, 725 F. App’x at 968.
Given these circumstances, the Court is disinclined to
deny Defendants’ motion on the ground that it is procedurally improper. The Court therefore addresses Biogen’s alternative argument that, even if Defendants’ defense were properly preserved, entry of JMOL that the
’755 patent claims are patent eligible is appropriate because Defendants have not carried their burden of proving, by clear and convincing evidence, that the ’755 patent
claims are patent ineligible.
c. Parties’ Contentions on Patent Eligibility
Defendants contend that the ’755 patent claims are ineligible under 35 U.S.C. § 101 and therefore invalid. Defendants frame their patent-ineligibility defense as an
issue of law for the Court to decide and contend that the
Court can reach its decision based on the face of the ’755
patent alone. 6/6/18 Tr. at 199:4-9, 199:22-25. With respect to the first step of the Alice inquiry, in Defendants’
view, the claims ‘‘cover a natural phenomenon and abstract idea’’ because they are ‘‘directed to a method of
treatment which uses the same IFN-Ⱦ polypeptide as
that found in nature to perform the same function that it
performs in nature.’’27 Defs. Br. at 1-2; see also 6/6/18 Tr.
at 175:5-177:1. Relying on In re BRCA1- & BRCA2During oral argument, Defendants indicated that all three categories of patent-ineligible subject matter apply. 6/6/18 Tr. at 224:21225:8.
27

117a
Based Hereditary Cancer Test Patent Litigation, 774
F.3d 755 (Fed. Cir. 2014) (‘‘Myriad II’’) and In re Roslin
Institute (Edinburgh), 750 F.3d 1333 (Fed. Cir. 2014),
Defendants contend that the fact that the claimed interferon-Ⱦ protein to be administered is made recombinantly does not, standing alone, render it or its use patent eligible given that the recombinant and native interferon-Ⱦ
proteins share the same linear array of amino acids.
Defs. Br. at 5-6. In addition, Defendants contend that
the claims recite ‘‘abstract ideas’’ because they are ‘‘directed to the idea—but not any particular manner—of
using a product of nature (recombinant human IFN-Ⱦ) to
perform the same function that it performs in nature
(treating viral diseases).’’ Id. at 7 (citations omitted).
With respect to the second step of the Alice inquiry,
Defendants assert that the claims do not contain an inventive concept because they add no improvement or anything else new in terms of treatment. Id. at 7-10. In
Defendants’ view, the concept of administering a therapeutically effective mount of a ‘‘preexisting polypeptide’’
to a patient in need of treatment for certain diseases does
not render the claims patent eligible because ‘‘practitioners had long administered native human IFN-Ⱦ to patients to treat these diseases.’’ Id. at 1-2; see also Defs.
Reply at 3 (arguing that the claims lack an inventive concept because they ‘‘provide no unconventional manipulation of or improvement to the known methods of treating
viruses with IFN-Ⱦ’’).
In response, Biogen argues that Defendants’ § 101
challenge lacks legal support. With respect to the first
step of the Alice inquiry, according to Biogen, method of
treatment claims, including those involving the administration of naturally-occurring products, have consistently been held patent eligible. Biogen Opp. at 12-17.

118a
Biogen also asserts that the claims exclude treatment
with native interferon-Ⱦ and are instead limited to treatment with recombinant interferon-Ⱦ made in a nonhuman host, and thus ‘‘pose[ ] no Section 101 concerns.’’
Id. at 6; see also id. at 14-16. Biogen further contends
that there is no legal support for Defendants’ proposition
that a method of treatment with a manmade protein is
ineligible for patenting if that protein is identical to a
naturally-occurring protein, and that even if there were
support for such a proposition, the undisputed trial evidence shows that the three-dimensional proteins of native and recombinant interferon-Ⱦ are not identical. Id.
at 16-17.
With respect to step two of the Alice inquiry, Biogen
contends that a jury could have reasonably found based
on the record evidence that determining whether recombinant interferon-Ⱦ made in a non-human host had biological activity akin to that of the native protein and could
thus be used as a therapeutic agent was anything but
‘‘routine and conventional.’’ Id. at 2, 17-19. On this point,
Biogen argues that the jury heard ample evidence that
the ‘‘best molecular biologists labored—in a worldwide,
round-the-clock race’’ to express recombinant interferonȾ and to ‘‘prove that the expressed protein had biological
activity like native interferon-Ⱦeta and thus could be used
as a therapeutic treatment.’’ Id. at 18 (citations omitted).
In Biogen’s view, ‘‘routine and conventional is a harder
standard to meet than obvious,’’ (6/6/18 Tr. at 219:7-8),
and here, the jury heard ample evidence on, and rejected,
Defendants’ obviousness defense. Biogen Opp. at 19
(‘‘[I]t is simply not possible for the subject matter of a
patent claim to be both nonobvious but yet sufficiently
well known to be ‘routine and conventional.’ ’’). Thus, according to Biogen, even if the evidence and arguments

119a
Defendants raise in their JMOL motion were presented
to the jury, a reasonable jury could conclude that Defendants failed to establish by clear and convincing evidence that the ’755 patent claims are patent ineligible.
d. The ’755 Patent Claims Are Patent Eligible
Under step one of the Alice inquiry, the Court determines whether the ’755 patent claims are directed to a
patent-ineligible concept. In doing so, the Court looks at
the ‘‘focus’’ of the claims and their ‘‘character as a whole.’’
Elec. Power, 830 F.3d at 1353. In addition, consistent
with the parties’ approach in their briefs, the Court
‘‘compare[s] the claims at issue with claims that have
been considered in the now considerably large body of
decisions applying § 101.’’ TriPlay, 2018 WL 1479027, at
*6 (citation omitted). Based on a review of the ’755 patent claims and relevant case law, the Court concludes
that the ’755 patent claims are not directed to a patentineligible concept.
Underlying Defendants’ patent-ineligibility argument
is the premise that naturally-occurring interferon-Ⱦ and
recombinant interferon-Ⱦ share the same linear sequence
of amino acids. In Defendants’ view, under Myriad II
and Roslin, this shared amino-acid sequence alone renders recombinant interferon-Ⱦ ineligible under § 101. See
Defs. Br. at 6 (Defendants contending that ‘‘like the
clones in Roslin and the DNA strands in Myriad II, the
recombinant IFN-Ⱦ whose use the ’755 patent covers is
an ‘exact genetic cop[y] of patent ineligible subject matter’ that is not ‘distinct in any relevant way’ from its native counterpart’’ (quoting Roslin, 750 F.3d at 1337,
1339)). In their brief, Defendants rely on the parties’
agreed-to construction of the word ‘‘polypeptide’’ and
contend, without apparent citation to the factual record,
that the ‘‘linear sequence folds into the therapeutically

120a
effective conformation the claims employ just as native
IFN-Ⱦ does in the body.’’ Id. at 3. The Court already rejected this argument in its anticipation analysis at the
summary judgment stage, see Summ. J. Op. at 28, and in
Section III.A.1 of this Opinion, in concluding that the fact
that native and recombinant interferon-Ⱦ share the same
amino-acid sequence (or primary structure) does not
render them the same. The Court finds this argument
unavailing in the patent-eligibility context as well. The
’755 patent claims encompass not only the amino-acid sequence but also the three-dimensional structure of the
polypeptide, including any attached carbohydrate
groups, that is necessary for the polypeptide to display
biological activity and be used in medical treatment as
required by the claims. As discussed above with respect
to Biogen’s anticipation JMOL motion, the record evidence shows that the three-dimensional native and recombinant interferon-Ⱦ proteins are not the same. See,
e.g., 2/9/18 Tr. at 87:24-88:7 (Lodish) (testifying that the
InterPharm Study revealed differences in the structures
of the sugars of native and recombinant interferon-Ⱦ and
that he ‘‘wouldn’t call them identical’’); 2/15/18 PM Tr. at
48:21-23 (Garcia) (‘‘[R]ecombinant interferon beta is not
identical to native interferon beta.’’); id. at 100:5-101:2
(explaining that the sugar groups of native and recombinant interferon-Ⱦ are ‘‘not identical, because the enzymes
and the machinery used to add and trim and process
these glycosylations are different in the animal cells than
they are in the human cells’’).
Moreover, there is a distinction in the case law with
regard to the patentability of method of treatment claims
on the one hand and product claims and claims directed
to methods of diagnosis on the other. As discussed
above, the ’755 patent claims a method for immunomodu-

121a
lation, or treating viral diseases, cancers, or tumors, by
administering to a patient a ‘‘therapeutically effective
amount’’ of a composition comprising a ‘‘recombinant’’
interferon-Ⱦ polypeptide produced in a ‘‘non-human host’’
that had been ‘‘transformed by a recombinant DNA molecule.’’ The Court previously construed claim 1 of the
’755 patent as reciting a ‘‘one-step method of ‘administering’ to a patient in need the specified recombinant
HuIFN-Ⱦ.’’ Markman Op. at 17. Recent decisions by
the Supreme Court and Federal Circuit addressing § 101
in the contexts of genetics and medical treatment inform
this Court’s analysis. With respect to the distinction
drawn in the case law between method of treatments
claims and other types of claims and its impact on this
case, this Court looks first to the Supreme Court’s Mayo
decision. The Supreme Court in Mayo held that a claim
directed to a diagnostic method for ‘‘optimizing’’ the dosage of certain drugs by administering those drugs to a
patient and measuring the level of metabolites in the
blood, wherein the level of metabolites indicated whether
to adjust the dosage, recited a natural law. 566 U.S. at
74-77, 132 S.Ct. 1289. The next year, the Supreme Court
in Myriad I held that a ‘‘naturally occurring DNA segment is a product of nature and not patent eligible merely because it has been isolated.’’ 569 U.S. at 580, 133
S.Ct. 2107. Importantly, the Supreme Court differentiated product claims (i.e., claims directed to physical
things such as genetic material) from method claims, noting that ‘‘method claims’’ and ‘‘patents on new applications of knowledge about [particular] genes’’ were ‘‘not
implicated by [its] decision.’’ Id. at 595, 133 S.Ct. 2107.
Earlier this year, the Federal Circuit in Vanda examined the Supreme Court’s Mayo and Myriad I decisions
in determining the patent eligibility of a method of

122a
treatment claim involving the step of ‘‘determining’’ with
a genotyping assay, and then ‘‘administering’’ a certain
amount of drug based on that determination in order to
‘‘treat a particular disease.’’ 887 F.3d at 1134. Relying in
part on the Supreme Court’s distinction in Myriad I between method claims and claims to ‘‘naturally occurring’’
products, the Federal Circuit concluded that the claimed
method of treatment was patent eligible under the first
step of the Alice analysis. Id. at 1136. In addition, the
Federal Circuit evaluated the method of treatment
claims as a whole and determined that, unlike the claims
in Mayo, the claims were ‘‘directed to a method of using’’
a drug to treat a particular disease rather than being ‘‘directed to’’ a natural relationship that occurs in the human
body. Id. at 1135.
Defendants attempt to analogize claim 1 of the ’755 patent to the claims at issue in Mayo, (6/6/18 Tr. at 230:1225), but the claims in Mayo were directed to a diagnostic
method and not to the application of a drug to treat a
particular disease. While the Mayo claims recited a step
of administering a drug to a patient, that step was performed in order to gather data about the natural relationships, and thus was ancillary to the overall diagnostic
focus of the claims. 28 As the Federal Circuit recognized
in Vanda, method of treatment claims (which apply natural relationships as opposed to being ‘‘directed to’’ them)
were identified by the Supreme Court as not being implicated by its Mayo and Myriad decisions because they
‘‘confine their reach to particular applications.’’ 887 F.3d
For the same reasons, Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371 (Fed. Cir. 2015) and Genetic Technologies Limited v.
Merial L.L.C., 818 F.3d 1369 (Fed. Cir. 2016), which, like Mayo, involved claims to methods of diagnoses rather than methods of treatment, are inapposite.
28

123a
at 1135; see also CellzDirect, 827 F.3d at 1049 (citing
‘‘treating headaches with aspirin’’ as an example of a patent-eligible claim); Pernix Ireland Pain DAC v. Alvogen
Malta Operations Ltd., No. 16-139, 2018 WL 2768655, at
*2 (D. Del. June 8, 2018) (‘‘A claim to a method of treating an illness is typically more than an expression of a
natural law; if it were otherwise, pharmaceutical patents
would be hard to come by, as most methods of treatment
using pharmaceuticals consist simply of the administration of a drug that affects the human body in a manner
that is dictated by laws of nature.’’). Moreover, on June
7, 2018, the PTO issued a Memorandum providing guidance on the examination of method of treatment claims in
view of the Federal Circuit’s Vanda decision. ECF No.
1010, Ex. 1. The Memorandum states that “ ‘method of
treatment’ claims that practically apply natural relationships should be considered patent eligible,’’ and that ‘‘it is
not necessary for ‘method of treatment’ claims that practically apply natural relationships to include nonroutine
or unconventional steps to be considered patent eligible
under 35 U.S.C. § 101.’’ Id. at 2-3. While not binding on
this Court, the PTO’s guidance is nevertheless persuasive.
The method claims at issue in this case are thus also
distinguishable from the claims held ineligible in Myriad
II and Roslin. Myriad II and Roslin involved claims not
to methods of treatment but rather to man-made, physical things that were identical to products of nature. For
example, in Myriad II, the Federal Circuit held that the
claimed single-stranded DNA primers, which had the
same structure and function as naturally-occurring primers, were not patent eligible. 774 F.3d at 760. That
same year, the Federal Circuit held unpatentable claims
to a genetic copy of a naturally-occurring organism—

124a
Dolly, a cloned sheep—because she ‘‘is an exact genetic
replica of another sheep and does not possess ‘markedly
different characteristics from any [farm animals] found in
nature.’ ’’ In re Roslin, 750 F.3d at 1337 (quoting Diamond v. Chakrabarty, 447 U.S. 303, 310, 100 S.Ct. 2204,
65 L.Ed.2d 144 (1980)). Here, the claims at issue are
method of treatment claims, not claims to DNA or polypeptides. Moreover, as stated above, based on the record
evidence no reasonable jury could conclude that the recombinant protein administered in the claimed method is
identical to the protein found in nature.29
The Court has undertaken step one of the Alice inquiry as a legal issue based on a review of the ’755 patent
claims, as Defendants propose, and concludes that the
claims are not directed to a patent-ineligible concept.
Therefore, the Court need not reach step two of the Alice
inquiry. See Vanda, 887 F.3d at 1134 (‘‘If the claims are
not directed to a patent ineligible concept at step one, we
Defendants also cite Boehringer Ingelheim Pharmaceuticals, Inc.
v. HEC Pharm Co., in which a claim to administering a drug (DPP-I
inhibitor) for treating and/or preventing metabolic diseases was held
patent ineligible. No. 15-5982, 2016 WL 7177704, at *9 (D.N.J. Dec.
8, 2016). This Court notes that the Boehringer court itself rejected
the defendants’ characterization of the method claim at issue as a
natural law like those in Mayo, holding instead that ‘‘the act of administering the DPP-IV inhibitor . . . is an abstract idea.’’ Id. Here,
Defendants have not persuaded this Court that claims to methods
requiring the physical act of administering a drug to treat a patient
are ‘‘abstract ideas,’’ which the Federal Circuit has described as
‘‘methods which can be performed mentally, or which are the equivalent of human mental work.’’ CyberSource Corp. v. Retail Decisions,
Inc., 654 F.3d 1366, 1371 (Fed. Cir. 2011). In any event, Boehringer
pre-dates Vanda and the Federal Circuit’s detailed discussion of the
‘‘distinction between method of treatment claims and those in
Mayo.’’ Vanda Pharms. Inc. v. West-Ward Pharms. Int’l Ltd., 887
F.3d 1117, 1135 (Fed. Cir. 2018).
29

125a
need not address step two of the inquiry.’’ (citation omitted)). Accordingly, the Court denies Defendants’ Rule
50(b) JMOL motion and grants Biogen’s Rule 50(b)
JMOL motion on this defense.
Even if the Court were to proceed to step two of the
Alice inquiry, for example, based on a finding that the
’755 patent claims are directed to a product of nature, it
would still deny Defendants’ motion. The dispute at step
two turns on whether the elements or combination of elements of the claims were ‘‘well-understood, routine, and
conventional’’ as of June 6, 1980. The Court agrees with
Biogen that the evidence presented at trial, even if not
adduced for the specific purpose of establishing that step
two was met, nonetheless bears on this question. See
6/6/18 Tr. at 218:14-220:1, 219:7-13; see also Exergen
Corp. v. Kaz USA, Inc., 172 F.Supp.3d 366, 367 (D. Mass.
2016) (denying judgment of invalidity under § 101 ‘‘with
the benefit of the evidence presented at the well-litigated
jury trial’’ and ‘‘[g]uided by the jury’s verdict, and by the
pleadings specific to th[e] case’’), aff ’d, 725 F. App’x 959
(Fed. Cir. 2018); Internet Patents, 790 F.3d at 1347 (noting that a ‘‘pragmatic analysis of § 101 is facilitated by
considerations analogous to those of §§ 102 and 103 as
applied to the particular case’’). The Court has looked to
the additional claim elements individually and as an ordered combination. The claims require methods of
treatment using recombinantly-expressed interferon-Ⱦ
shown to have the biological activity like that of the native protein. The patent specification discloses the benefits of the claimed method over prior-art treatments using the native protein, see PTX0001 (’755 patent) at 4:1013; 6:54-7:7, and does not state or even suggest that expressing a biologically-active protein sufficient for therapeutic use by employing recombinant DNA technology

126a
was well-known, routine, or conventional. Moreover, as
discussed in Section III.B.2 below, there is legally sufficient evidence in the record to support the jury’s finding
that the claimed method would not have been obvious to a
person of ordinary skill in the art (‘‘POSA’’) as of June 6,
1980 in view of the work of several scientists working at
that time to express biologically-active recombinant interferon-Ⱦ. See 2/20/18 AM Tr. at 82:17-83:1 (Green)
(opining that since the ‘‘best people in the world’’ were
‘‘working day and night spending months and months’’
trying to produce biologically-active recombinant interferon-Ⱦ, this would not have been ‘‘routine’’ to a POSA);
see also 1/25/18 PM Tr. at 102:12-103:15 (Derynck); 2/5/18
Tr. at 136:17-137:21 (Taniguchi); 5/7/12 Goeddel Dep. Tr.
at 79:24-80:18. Based on a review of the claims, the specification, and other evidence and testimony in the record,
and guided by the jury’s verdict on obviousness, the
Court concludes that Defendants have not met their burden of proving by clear and convincing evidence that the
claim elements merely involve the ‘‘performance of ‘wellunderstood, routine, [and] conventional activities previously known to the industry.’ ’’ Berkheimer, 881 F.3d at
1367.
2. Obviousness
a. Applicable Legal Principles for Obviousness
A patent claim is invalid if ‘‘the differences between
the subject matter sought to be patented and the prior
art are such that the subject matter as a whole would
have been obvious at the time the invention was made to
a person having ordinary skill in the art to which said
subject matter pertains.’’ 35 U.S.C. § 103(a). Obviousness is a legal conclusion based on underlying factual determinations, including (1) the scope and content of the

127a
prior art; (2) the differences between the claims and the
prior art; (3) the level of ordinary skill in the art; and (4)
objective indicia of non-obviousness. See Purdue Pharma L.P. v. Epic Pharma, LLC, 811 F.3d 1345, 1351 (Fed.
Cir. 2016). Prior art under 35 U.S.C. § 102(g) may serve
as prior art in an obviousness analysis under § 103. See
Tyco Healthcare Grp. LP v. Ethicon Endo-Surgery, Inc.,
774 F.3d 968, 977 (Fed. Cir. 2014). Section 102(g) states,
in relevant part:
A person shall be entitled to a patent unless . . . before such person’s invention thereof, the invention
was made in this country by another inventor who
had not abandoned, suppressed, or concealed it. In
determining priority of invention under this subsection, there shall be considered not only the respective dates of conception and reduction to practice of
the invention, but also the reasonable diligence of
one who was first to conceive and last to reduce to
practice, from a time prior to conception by the other.
35 U.S.C. § 102(g)(2).
The jury was instructed that it ‘‘must determine the
date of the invention for the alleged prior art’’ which ‘‘can
be the date when the invention of the prior art was reduced to practice or when the invention was conceived
provided the inventors were diligent in reducing the invention to practice.’’ Final Jury Instructions at 29. The
jury was also instructed that:
Conception is the mental part of an inventive act,
i.e., the formation in the mind of the inventor of a
definite and permanent idea of the complete and
operative invention, enough that one skilled in the
art could understand the invention as it is thereafter to be applied in practice. An idea is definite and

128a
permanent when the inventor has a specific, settled
idea, a particular solution to the problem at hand,
not just a general goal or research plan he hopes to
pursue. Where the idea is in constant flux, it is not
definite and permanent. A conception is not complete if the subsequent course of experimentation,
especially experimental failures, reveals uncertainty that so undermines the specificity of the inventor’s idea that it is not yet a definite and permanent
reflection of the complete invention as it will be
used in practice.
Id. at 29-30; see also Burroughs Wellcome Co. v. Barr
Labs., Inc., 40 F.3d 1223, 1228 (Fed. Cir. 1994). The jury
was further instructed that a ‘‘claimed invention is ‘reduced to practice’ when it has been constructed/used/tested sufficiently to show that it will work for its
intended purpose or when the inventor files a patent application.’’ Final Jury Instructions at 30.
Finally, ‘‘because obviousness, like any other ground
of invalidity, must be established by clear and convincing
evidence,’’ the defendant’s burden on a JMOL motion is
‘‘doubly high: it must show that no reasonable jury could
have failed to conclude that [the defendant’s] case had
been established by clear and convincing evidence.’’
Boehringer Ingelheim Vetmedica, Inc. v. ScheringPlough Corp., 320 F.3d 1339, 1353 (Fed. Cir. 2003) (internal citation omitted).
b. Parties’ Contentions
The jury found that the ’755 patent claims were not
‘‘invalid as obvious in view of the activities of Dr.
Tadatsugu Taniguchi, Dr. Jan VilĀek, Dr. David Goeddel,
or other prior art.’’ Verdict Form at 3, Q. 9. Defendants
assert that there is an insufficient evidentiary basis to
uphold the jury’s finding that the ’755 patent claims are

129a
not invalid for obviousness, and that Defendants ‘‘presented largely uncontested evidence’’ that the claims
would have been obvious to a POSA as of June 6, 1980. 30
Defs. Br. at 11.
Defendants identify three ‘‘separate and independent’’
grounds on which they contend the jury should have
found the ’755 patent claims invalid for obviousness. Id.
at 10. First, Defendants rely on the scientific work of
Tadatsugu Taniguchi, Ph.D. at Harvard University prior
to June 6, 1980. Specifically, Defendants rely on Dr.
Taniguchi’s synthesis of the ‘‘117 plasmid’’ that was designed to produce mature, biologically-active, recombinant human interferon-Ⱦ in Escherichia Coli (‘‘E. coli’’)
bacteria cells, and they identify ‘‘at least three occasions’’
before June 6, 1980 on which the 117 plasmid purportedly
‘‘produced positive results demonstrating the production
of biologically active recombinant JPN-b in E. coli in controlled experiments.’’ Id. at 11-12. Defendants cite New
York University School of Medicine Professor Jan VilĀek,
M.D., Ph.D.’s trial testimony that his blinded cytopathic
effect assay of Dr. Taniguchi’s plasma samples provided
‘‘ultimate proof’’ that Dr. Taniguchi had produced biologically-active recombinant interferon-Ⱦ in E. coli in May of
1980. Id. at 12.
Second, Defendants rely on the scientific work of David Goeddel, Ph.D. at Genentech, Inc. prior to June 6,
1980. Specifically, Defendants rely on Dr. Goeddel’s synDr. Lodish defined a POSA as a person with a ‘‘Ph.D. in molecular
biology research or comparable work experience or a B.S. in biology,
biochemistry, or molecular biology having two or more years in
standard laboratory techniques of molecular biology.’’ PDX15-5.
Biogen’s experts offered opinions at trial based on that definition of a
POSA. See 2/15/18 PM Tr. at 49:3-24 (Garcia); 2/20/18 AM Tr. at
26:10-16, 76:20-77:19 (Green).
30

130a
thesis of the ‘‘Trp-69 plasmid’’ designed to produce mature, biologically-active recombinant interferon-Ⱦ in E.
coli, and they identify ‘‘at least three occasions’’ before
June 6, 1980 on which Dr. Goeddel purportedly ‘‘observed biological activity in experiments testing the
product of this plasmid.’’ Id. at 14. According to Defendants, the uncontroverted evidence at trial showed that
Dr. Taniguchi’s and Dr. Goeddel’s plasmids could be
‘‘scaled up, purified, formulated, and administered using
techniques well known by 1980.’’ Id. at 15.
Third, Defendants rely on the publication of the DNA
sequence for interferon-Ⱦ and the alleged admissions
made by Biogen in an affidavit by ’755 patent inventor
Dr. Fiers, dated November 19, 2001, which Biogen submitted to the Canadian Patent Office during a conflict
proceeding involving Dr. Fiers’s Canadian Application
No. 374,378 (the ‘‘Fiers Affidavit’’) (STX-0002). In particular, Defendants contend that Biogen admitted that,
with the interferon-Ⱦ DNA sequence in hand, as of June
6, 1980 a POSA would have expected to be able to produce mature, biologically-active, recombinant human interferon-Ⱦ in E. coli that could be used for treating tumors and viruses in humans. Id. at 16-17.
In response, Biogen argues that none of the three
grounds identified by Defendants merit overturning the
verdict, and that Defendants’ cited evidence is far from
un contested. Biogen contends that there is more than
sufficient evidence to support the jury’s finding that neither Dr. Taniguchi nor Dr. Goeddel had made the
claimed invention prior to June 6, 1980 and, consequently, a POSA would not have found the ’755 patent claims
obvious in light of the work of these scientists. Biogen
Opp. at 20-23. Biogen also asserts that the jury was free
to credit the evidence presented by Biogen, including tes-

131a
timony by its experts Michael Green, M.D., Ph.D., a Professor and Chair of the Department of Molecular, Cell,
and Cancer Biology at the University of Massachusetts
Medical School and Director of the school’s Cancer Center (ECF No. 916 at 16; 1/29/18 AM Tr. at 18:15-22), and
Christopher Garcia, Ph.D., a Professor of Molecular and
Cellular Physiology and a Professor of Structural Biology at Stanford University (ECF No. 916 at 21-22; 2/15/18
PM Tr. at 41:22-25). In Biogen’s view, the jury was free
to believe Dr. Green’s and Dr. Garcia’s testimony that a
POSA would not have known or reasonably expected that
recombinantly-produced interferon-Ⱦ would be biologically active. Biogen Opp. at 24. Biogen further contends
that Defendants walked the jury through the Fiers Affidavit on multiple occasions and in great detail during the
trial, and that the jury was free to reject Defendants’ obviousness arguments based thereon. Id. at 24-25.
c. Defendants Are Not Entitled to JMOL of
Obviousness
The Court finds that substantial evidence supports the
jury’s verdict that the ’755 patent claims are not invalid
for obviousness. The jury was presented with ample fact
testimony, expert testimony, and exhibits pertaining to
Defendants’ obviousness defense. In particular, the jury
heard testimony and evidence concerning Dr. Taniguchi’s
series of experiments carried out prior to June 6, 1980 to
test for biological activity of recombinant human interferon-Ⱦ made in E. coli. In making its obviousness determination, the jury was free to weigh the evidence of
Dr. Taniguchi’s individual experiments that Defendants
highlight in their brief against the contrary evidence that
certain of Dr. Taniguchi’s other experiments yielded false
positives, inconclusive results, or results showing no biological activity. See, e.g., Dr. Taniguchi’s Laboratory

132a
Notebook (PTX0411) at 6-33, 36-63; 2/5/18 Tr. at 142:2144:4, 160:5-166:16, 167:1-20 (Taniguchi); 1/24/12 Weissmann Dep. Tr. at 138:2-139:5 (Dr. Taniguchi’s mentor
testifying that Dr. Taniguchi ‘‘did not get expression of
biologically-active protein’’). For instance, as recorded in
Dr. Taniguchi’s laboratory notebook page dated June 4
and 5, 1980, one of Dr. Taniguchi’s experiments yielded a
false positive where the result was marked ‘‘should be
negative.’’ PTX0411 at 53; see also 2/13/18 AM Tr. At
25:24-28:13 (Lodish) (testifying that false positives can be
due to contaminants). In addition, the jury reasonably
could have discounted Dr. VilĀek’s testimony concerning
Dr. Taniguchi’s allegedly favorable results in light of this
contrary evidence, and/or credited Dr. VilĀek’s other testimony that it was ‘‘very possible’’ that they were still
testing for biological activity of recombinant interferon-Ⱦ
after June 6, 1980. 2/6/18 PM Tr. at 51:13-18.
Similarly, the jury was free to weigh the evidence of
Dr. Goeddel’s three pre-June 6, 1980 experiments that
purportedly confirmed biological activity against the contrary evidence that over 100 of Dr. Goeddel’s assays,
conducted before and after June 6, 1980, were inconclusive or yielded negative results. See 2/20/18 AM Tr. at
64:22-65:7, 65:16-68:17, 69:21-70:4 (Green). For instance,
in an experiment on May 20, 1980 upon which Defendants
rely and about which Dr. Goeddel had recorded ‘‘Looks
good!’’ in his laboratory notebook, Dr. Goeddel detected
activity only in a mixed pool of clones that would require
further, clone-by-clone testing. See Dr. Goeddel’s Laboratory Notebook (STX-0053) at 16; 2/20/18 AM Tr. at
65:12-66:17 (Green) (testifying that Dr. Goeddel’s written
comment about his preliminary result when read in the
context of the laboratory notebook page was merely an
‘‘instruction to keep working’’ rather than a ‘‘declaration

133a
of victory’’). Dr. Green testified that these results were
not conclusive, (2/20/18 AM Tr. at 66:12-24), and in fact,
when Dr. Goeddel assayed individual clones eight days
later, all of his results were negative, (id. at 66:25-67:4;
STX-0053 at 20). The jury also saw evidence that in later
experiments in May of 1980, Dr. Goeddel noted that his
assay was ‘‘not a good assay,’’ (STX-0053 at 20), and that
the ‘‘cells look unhealthy,’’ (PTX0029A at 3375). See
2/20/18 AM Tr. at 67:5-11 (Green); see also id. at 71:20-22
(Green) (testifying that there was ‘‘no doubt in [his]
mind’’ that Dr. Goeddel did not possess recombinant interferon-Ⱦ prior to June 6, 1980). Thus, there was sufficient evidence for a reasonable jury to find that Dr.
Taniguchi and Dr. Goeddel had not made biologicallyactive, recombinant interferon-Ⱦ by June 6, 1980. 31
Defendants assert that, conception aside, prior invention under
§ 102(g) can occur ‘‘if the prior inventor ‘reduced to practice’ his or
her invention before the priority date of the challenged claims.’’
Defs. Reply at 6. Defendants contend that evidence of ‘‘a successful
experiment’’ is sufficient to show a prior invention was ‘‘reduced to
practice’’ under § 102(g), and that here, the record evidence showed
that both Dr. Taniguchi and Dr. Goeddel ‘‘actually produced mature
human IFNb recombinantly in E. coli on multiple occasions’’ before
June 6, 1980. Id. at 7. Defendants quote the standard from the doctrine of simultaneous conception and reduction to practice—namely,
that ‘‘[i]n some instances, an inventor is unable to establish a conception until he has reduced the invention to practice through a successful experiment.’’ Amgen, Inc. v. Chugai Pharm. Co., 927 F.2d 1200,
1206 (Fed. Cir. 1991). The jury was instructed, however, that an invention is ‘‘reduced to practice’’ when it has been ‘‘constructed/used/tested sufficiently to show that it will work for its intended
purpose or when the inventor files a patent application.’’ Final Jury
Instructions at 30. Defendants have not sufficiently explained why
the jury should have disregarded negative or inconclusive test results and, in any event, the jury was free to disbelieve Defendants’
witnesses that any of Dr. Taniguchi’s or Dr. Goeddel’s preliminary,
pre-June 6, 1980 experiments, when viewed in the context of the se31

134a
Defendants contend, however, that the testimony of
their experts Dr. Lodish and Dr. Gutterman ‘‘provided
substantial evidence’’ that a POSA would have reasonably expected to be able to produce recombinant interferon-Ⱦ in E. coli and that the protein produced would have
the biological activity of native interferon-Ⱦ. Defs. Br. at
16. Contrary to Defendants’ assertion, on a Rule 50(b)
JMOL motion, the question is not whether substantial
evidence supports the moving party’s position, but rather
whether substantial evidence supports the jury’s verdict.
See Power Integrations, 843 F.3d at 1326 (noting that on
a JMOL motion, the moving party ‘‘must show that the
jury’s findings, presumed or express, are not supported
by substantial evidence’’). Here, the jury heard contrary
testimony from Biogen’s experts, Dr. Green and Dr. Garcia, that a POSA would not have had a reasonable expectation that recombinantly-produced interferon-Ⱦ would
be biologically active. See 2/20/18 AM Tr. at 75:8-19,
76:9-80:2 (Green); 2/15/18 PM Tr. at 61:23-64:13, 67:1071:21, 72:24-73:23 (Garcia). For instance, Dr. Green testified that he met the definition of a POSA in 1980 and
that, in his opinion, ‘‘the notion of going from the DNA
sequence, getting an expression vector and having any
expectation that it would express biologically active glycosylated protein was well beyond [his] capacity’’ and
‘‘certainly would have taken much more than routine exries of follow-up experiments, constituted ‘‘a successful experiment.’’
Viewing the evidence in the light most favorable to Biogen, including
testimony by Dr. Taniguchi himself that reproducibility of experiments is important for confirming results, (2/5/18 Tr. at 48:22-49:21),
under either Defendants’ proposed standard in their motion or the
standard set forth in the jury instructions, a reasonable jury could
find that Defendants failed to show by clear and convincing evidence
that either Dr. Taniguchi or Dr. Goeddel had reduced to practice the
claimed invention prior to June 6, 1980.

135a
perimentation.’’ 2/20/18 AM Tr. at 76:20-77:19; see also
id. at 26:10-16. In addition, Dr. Garcia testified that as of
1980, ‘‘no human glycoprotein had ever been expressed in
E. coli before,’’ (2/15/18 PM Tr. at 58:1-10), and it was an
‘‘open question’’ whether E. coli’s ‘‘primitive simple protein synthesis machinery’’ would be able to produce interferon-Ⱦ that folds into the appropriate three-dimensional
structure to render it biologically active, (id. at 64:4-13).
‘‘[F]aced with competing expert testimony,’’ the jury
was free to disbelieve Defendants’ experts and credit Biogen’s experts. Intellectual Ventures I LLC v. Motorola
Mobility LLC, 870 F.3d 1320, 1327 (Fed. Cir. 2017) (affirming district court’s decision denying JMOL where
substantial evidence supported jury’s verdict that patent
claim was not obvious); see also MobileMedia Ideas LLC
v. Apple Inc., 780 F.3d 1159, 1168 (Fed. Cir. 2015)
(‘‘[W]hen there is conflicting testimony at trial, and the
evidence overall does not make only one finding on the
point reasonable, the jury is permitted to make credibility determinations and believe the witness it considers
more trustworthy.’’ (citation omitted)); Edwards Lifesciences AG v. CoreValve, Inc., 699 F.3d 1305, 1313 (Fed.
Cir. 2012) (noting that when ‘‘testimony at trial [is] in direct conflict,’’ the court deciding a JMOL motion ‘‘may
not weigh the evidence, determine the credibility of witnesses, or substitute its version of the facts for the jury’s
version’’ (quoting Lightning Lube, 4 F.3d at 1166)).
Where, as here, there is ‘‘substantial evidence for a reasonable jury finding,’’ it is not this Court’s ‘‘function to
second guess or reevaluate the weight given to that evidence.’’ MobileMedia, 780 F.3d at 1168 (citation omitted).
Furthermore, as the Court stated in its decisions
denying Defendants’ Motion for Summary Judgment of

136a
Invalidity Under 35 U.S.C. § 103 and denying-in-part Biogen’s Motion In Limine No. 3, the jury was permitted
to consider the Fiers Affidavit along with other record
evidence in making its obviousness determination.
Summ. J. Op. at 9-11; ECF No. 906 at 6-7. The Court
concluded that there were genuine issues of material fact
‘‘regarding the content of the document and context in
which it was submitted that [were] appropriate for a jury’s consideration in the first instance.’’ Summ. J. Op. at
9. The Court subsequently declined to preclude any section of the Fiers Affidavit, including those sections that
Biogen characterized as legal argument. ECF No. 906 at
6. At trial, the jury heard ample expert testimony and
other evidence regarding the Fiers Affidavit and nonetheless rejected Defendants’ obviousness defense. In
short, the Court denied Defendants’ summary judgment
motion due to genuine factual disputes, and the jury later
resolved those disputes against Defendants. For the reasons set forth in the Court’s earlier decisions, the Court
declines to hold as a matter of law that the statements in
the Fiers Affidavit are binding admissions on Biogen as
to the obviousness of the ’755 patent claims that warrant
overturning the jury’s verdict. No new authority has
been cited that provides that a district court may substitute an obviousness conclusion drawn by a party or inventor in a foreign proceeding in place of its own analysis. See Summ. J. Op. at 9-10. Moreover, as the Court
previously stated, ‘‘[t]he obviousness inquiry is undertaken from the perspective of a POSA’’ and the Federal Circuit ‘‘prohibits conducting an obviousness inquiry from
the inventor’s point of view.’’ Id. at 10 n.8 (citing Arkie
Lures, Inc. v. Gene Larew Tackle, Inc., 119 F.3d 953, 956
(Fed. Cir. 1997)).

137a
Viewing the evidence in the light most favorable to Biogen, the Court finds that substantial evidence supports
the jury’s finding that the ’755 patent claims are not invalid for obviousness. Accordingly, the Court denies Defendants’ Rule 50(b) JMOL motion as to obviousness.
3. Enablement and Written Description
a. Applicable Legal Principles for Enablement and Written Description
The first paragraph of 35 U.S.C. § 112 requires, inter
alia, that the specification of a patent enable any person
skilled in the art to which it pertains to make and use the
full scope of the claimed invention. See Warner-Lambert
Co. v. Teva Pharms. USA, Inc., 418 F.3d 1326, 1336-37
(Fed. Cir. 2005). To invalidate a patent for lack of enablement, ‘‘a challenger must show by clear and convincing evidence that a [POSA] would not be able to practice
the claimed invention without undue experimentation.’’
Allergan, Inc. v. Sandoz Inc., 796 F.3d 1293, 1309 (Fed.
Cir. 2015) (internal quotation marks and citation omitted). ‘‘Enablement is determined as of the effective filing
date of the patent’s application.’’ ALZA Corp. v. Andrx
Pharms., LLC, 603 F.3d 935, 940 (Fed. Cir. 2010) (citation omitted). Enablement is a question of law based on
underlying factual inquiries. See In re Wands, 858 F.2d
731, 737 (Fed. Cir. 1988) (noting that the analysis of undue experimentation ‘‘is not a single, simple factual determination, but rather is a conclusion reached by weighing many factual considerations’’). The factors that a
court may consider in determining whether a disclosure
would require undue experimentation are: ‘‘(1) the quantity of experimentation necessary, (2) the amount of direction or guidance presented, (3) the presence or absence of working examples, (4) the nature of the invention, (5) the state of the prior art, (6) the relative skill of

138a
those in the art, (7) the predictability or unpredictability
of the art, and (8) the breadth of the claims.’’ Id.
The written description requirement mandates that
‘‘the disclosure of the application relied upon reasonably
conveys to those skilled in the art that the inventor had
possession of the claimed subject matter as of the filing
date.’’ Ariad Pharms., Inc. v. Eli Lilly & Co., 598 F.3d
1336, 1351 (Fed. Cir. 2010) (en banc) (citation omitted).
‘‘[T]he level of detail required to satisfy the written description requirement varies depending on the nature
and scope of the claims and on the complexity and predictability of the relevant technology.’’ Id. (citation omitted). Compliance with the written description requirement is a question of fact that must be assessed on a
case-by-case basis. See Allergan, 796 F.3d at 1308 (citing
Alcon Research, 745 F.3d at 1190).
Consistent with the Court’s rulings denying Defendants’ Motion for Summary Judgment of Invalidity Under
35 U.S.C. § 112 and Bayer’s Motion for Summary Judgment of Invalidity No. 3 (Lack of Written Description),
the jury was instructed that ‘‘it is the method of treatment that must be [described and enabled], not the proteins to be used or the way they are made.’’ Final Jury
Instructions at 36, 38; see also Summ. J. Op. at 14 (‘‘[T]he
Court finds that it is not the genus of expression systems
that must be enabled and described, it is the method of
treatment that must be enabled and described.’’); id. at
30 (‘‘[T]he Court concludes that it is not the recombinant
polypeptides themselves that must meet the written description requirement.’’).
b. Parties’ Contentions
The jury found that the ’755 patent claims were neither invalid for lack of enablement nor for lack of adequate written description. Verdict Form at 4, Qs. 10-11.

139a
Defendants contend that judgment of invalidity for lack
of enablement and lack of adequate written description
should be entered. Specifically, Defendants assert that
the evidence and testimony presented at trial established
that the ’755 patent fails to enable and describe expression of recombinant interferon-Ⱦ polypeptides in the full
range of ‘‘non-human hosts’’ for administration to human
patients. Defs. Br. at 19-21. Defendants also contend
that the ’755 patent fails to enable and describe the
claimed methods of treatment ‘‘using the wide scope of
the claimed variant polypeptides.’’ Id. at 21-22. Lastly,
Defendants assert that the ’755 patent fails to enable and
describe the claimed method of immunomodulation because it does not ‘‘teach how to selectively obtain’’ either
upregulation or downregulation of the immune system
using recombinant interferon-Ⱦ, nor does it disclose a use
of recombinant interferon-Ⱦ polypeptides in a method of
immunomodulation. Id. at 22-23; see also Defs. Reply at
8.
Biogen contends, in response, that sufficient evidence
supports the jury’s verdict that the claims were neither
invalid for lack of enablement nor for lack of adequate
written description, and that Defendants merely rehash
the arguments raised (and rejected) on summary judgment. Biogen Opp. at 26. Biogen also asserts that Defendants recount their own experts’ testimony but omit
the contrary evidence on which the jury was entitled to
rely. Id, at 26-32.
c. Defendants Are Not Entitled to JMOL of
Lack of Enablement or Lack of Adequate
Written Description
The Court finds that substantial evidence supports the
jury’s verdict that the claims are not invalid for lack of
enablement or lack of adequate written description. De-

140a
fendants’ motion appears to focus on the scope of the
non-human hosts and recombinant polypeptides. As this
Court stated in its decision denying Defendants’ Motion
for Summary Judgment of Invalidity Under 35 U.S.C.
§ 112, it is not the genus of non-human hosts or recombinant polypeptides that must be enabled and described, it
is the method of treatment that must be enabled and described. Summ. J. Op. at 14. Even if Defendants’ proposed framework were correct, however, there is ample
evidence in the record for a reasonable jury to conclude
that the claims are not invalid for either lack of enablement or lack of adequate written description.
i)

Non-Human
Hosts
With respect to Defendants’ contention as to the ’755
patent’s purported failure to enable expression of recombinant polypeptides in non-human hosts other than E.
coli for administration to a patient, Defendants cite Dr.
Lodish’s trial testimony. They omit, however, the fact
that the jury also heard testimony from Biogen’s expert,
Dr. Green, regarding the availability of non-human hosts
other than E. coli as of June 6, 1980 as identified in the
literature and the ’755 patent itself. See 2/20/18 AM Tr.
at 26:21-27:8, 106:25-111:13; PTX0001 (’755 patent) at
13:54-64. Additionally, the jury heard evidence that Defendants’ own expert, Dr. Lodish, previously testified in a
separate lawsuit that ‘‘[b]y February 25, 1980 many types
of cells had been used as host cells, and workers of ordinary skill in the art had various types of cultured cells
that could be used as host cells in transformation experiments.’’ Initial Expert Report of Harvey F. Lodish,
Ph.D. dated August 27, 2004 in In re Columbia University Patent Litigation, No. 04-MD-01592 (D. Mass.)
(PTX1069) at 24; see also 2/20/18 AM Tr. at 109:3-110:18

141a
(Green). Citing various pre-1980 publications, Dr. Lodish
had testified in the prior lawsuit that ‘‘[s]everal types of
human, mouse, and Chinese hamster cell lines, including
Chinese Hamster Ovary cells lines, were in routine use.’’
PTX1069 at 24; see also id. at 28 (stating that ‘‘it was
known by February 25, 1980 that one could cause . . . foreign DNA encoding a protein to be expressed in a cultured mammalian cell’’). During trial in this case, Dr.
Green informed the jury that he was ‘‘in complete
agreement’’ with Dr. Lodish’s previous statements.32
2/20/18 AM Tr. at 110:13-18.
With respect to written description, although Defendants again rely on Dr. Lodish’s testimony regarding the
’755 patent’s purported failure to adequately describe
methods of treatment using recombinant polypeptides
produced in hosts other than E. coli, the jury also heard
Dr. Green’s testimony that the ’755 patent specification
In their JMOL motion, Defendants rely on the same Federal Circuit decisions they cited in their summary judgment motion to support their argument that the ’755 patent claims cannot be enabled as
a matter of law: Monsanto Co. v. Syngenta Seeds, Inc., 503 F.3d 1352
(Fed. Cir. 2007), Plant Genetic Systems, N.V. v. DeKalb Genetics
Corp., 315 F.3d 1335 (Fed. Cir. 2003), Adang v. Fischhoff, 286 F.3d
1346 (Fed. Cir. 2002), In re Goodman, 11 F.3d 1046 (Fed. Cir. 1993),
and In re Vaeck, 947 F.2d 488 (Fed. Cir. 1991). See Defs. Br. at 19.
Defendants contend that in these cases, the Federal Circuit held invalid for lack of enablement claims that were ‘‘directed to a genus of
host cells that was far narrower than that claimed in the ’755 patent’’
and with later priority dates. Id. As this Court stated in its decision
denying Defendants’ summary judgment motion, these cases ‘‘merely reaffirm the fact-specific nature of [the enablement] inquiry.’’
Summ. J. Op. at 16. The jury heard evidence and testimony regarding Defendants’ enablement defense and resolved the factual disputes against Defendants. This Court declines to find on a JMOL
motion that the ’755 patent claims are not enabled as a matter of law
based on the cited authority.
32

142a
expressly describes other host cells that could be used
besides E. coli, including Pseudomonas, Bacillus subtilis, Bacillus stearothermophilus and other bacilli,
yeasts and other fungi, and plant and animal cells. See
id. at 110:24-111:13; PTX0001 (’755 patent) at 13:54-59.
Faced with conflicting expert testimony on these issues,
the jury was ‘‘permitted to make credibility determinations and believe the witness it consider[ed] more trustworthy.’’ MobileMedia, 780 F.3d at 1168.
ii)

Recombinant
Polypeptides
With respect to Defendants’ argument that the ’755
patent fails to enable and describe the full range of
claimed recombinant interferon-Ⱦ polypeptides, Biogen’s
expert, Dr. Garcia, testified that the ’755 patent describes
the structures likely to be common to the polypeptides
meeting the limitations of claim 1, informs the reader
‘‘what kinds of changes you can make to the polypeptides
while staying within the scope of the patent,’’ including
‘‘common optimization’’ techniques, and ‘‘discloses a
whole montage of possible tests that one could use to assess the function and the activity of the beta interferon.’’
2/15/18 PM Tr. at 86:9-89:2. In addition, Dr. Green and
Dr. Garcia each described to the jury the various tests
for biological activity disclosed in the ’755 patent. See
2/20/18 AM Tr. at 30:23-33:5 (Green); 2/15/18 PM Tr. at
88:5-89:2 (Garcia); see also 2/7/18 PM Tr. at 62:15-18
(Gutterman) (agreeing that the ’755 patent offers ‘‘extensive teaching’’ about how to test whether any individual
polypeptide has the required biological activity). Moreover, Dr. Green opined that the patent describes and enables the therapeutic use of recombinant interferon-Ⱦetalike proteins. 2/20/18 AM Tr. at 23:8-12. Again, while
Defendants cite expert testimony favorable to their § 112

143a
invalidity defenses, as discussed above with respect to
the jury’s obviousness determination, faced with competing expert testimony, the jury was free to disbelieve Defendants’ experts and credit Biogen’s experts. See Intellectual Ventures, 870 F.3d at 1327; MobileMedia, 780
F.3d at 1168; Edwards Lifesciences, 699 F.3d at 1313.
iii)

Immunomodulation
Sufficient evidence also supports the jury’s finding
that the ’755 patent enables and describes the use of recombinant interferon-Ⱦ polypeptides for immunomodulation. The Court provided the jury with its definition of
the term ‘‘immunomodulation’’ as ‘‘regulation of the immune system by immunopotentiation (up-regulation) or
immunosuppression (down-regulation).’’ Final Jury Instructions at 17. The ’755 patent discloses that interferon-Ⱦ may ‘‘play a role in regulation of the immune response’’ and ‘‘can be both immunopotentiating and immunosuppressive in vivo and in vitro.’’ PTX0001 (’755
patent) at 3:33-36. The jury was free to reject Dr. Gutterman’s testimony that ‘‘a clinician would need to know
how to ‘selectively obtain’ upregulation or downregulation of the immune system in order to use IFN-Ⱦ in a
therapeutically effective manner.’’ Defs. Br. at 22 (citing
2/7/18 AM Tr. at 75:13-19 (Gutterman)). Contrary to Defendants’ assertion, there is no requirement that immunomodulation means exclusively up-regulation or exclusively down-regulation, and the jury was not asked to
determine whether, in treating MS, interferon-Ⱦ acts by
only up-regulation or only down-regulation. Moreover,
the jury heard expert testimony and was presented with
evidence, including Pfizer’s and Serono’s own internal
presentations and statements to the FDA, showing that
interferon-Ⱦ upregulates some parts of the immune sys-

144a
tem and downregulates others in treating MS. See, e.g.,
1/29/18 PM Tr. at 22:17-19, 23:17-29:11, 32:14-33:24,
38:19-24, 40:9-42:2 (Kinkel); PTX0059 (Rebif® BLA) at
163; PTX0061 (Rebif® BLA) at 19-20; PTX0227 (Serono
presentation) at 1, 26-29; PTX0659 (Pfizer presentation)
at 14, 87; PTX0056 (Betaseron® Product License Application) at 77-78, 922. The jury was free to believe this
evidence and testimony in reaching its verdict on Defendants’ § 112 defenses. Finally, a reasonable jury could
have also credited the evidence that the issue of whether
the patent sufficiently describes and enables the full
scope of the claims was before the PTO when it issued
the patent. See, e.g., 2/15/18 PM Tr. at 99:2-11 (Garcia);
2/20/18 AM Tr. at 111:9-13 (Green); 2/7/18 AM Tr. at
94:24-95:24 (Gutterman); see also Microsoft, 564 U.S. at
111, 131 S.Ct. 2238.
Viewing the evidence in the light most favorable to Biogen, the Court finds that substantial evidence supports
the jury’s finding that the ’755 patent claims are not invalid for lack of enablement or lack of adequate written description. Accordingly, the Court denies Defendants’
Rule 50(b) JMOL motion as to enablement and written
description.
4. Contributory Infringement By Pfizer
a. Applicable Legal Principles for Contributory Infringement
Section 271(c) of the Patent Act deems a ‘‘contributory
infringer’’ one who ‘‘offers to sell or sells’’ within the
United States a ‘‘component of a patented machine, manufacture, combination or composition, or a material or
apparatus for use in practicing a patented process, constituting a material part of the invention, knowing the
same to be especially made or especially adapted for use
in an infringement of such patent, and not a staple article

145a
or commodity of commerce suitable for substantial noninfringing use.’’ 35 U.S.C. § 271(c). The patentee bears the
burden of proving contributory infringement by a preponderance of the evidence. See Octane Fitness, 134
S.Ct. at 1758; Seal-Flex, 172 F.3d at 842.
The Federal Circuit has explained that the ‘‘ordinary
meaning of a sale’’ under Section 271 ‘‘includes the concept of a transfer of title or property’’ and may be determined by ‘‘the agreement by which such a transfer takes
place.’’ Halo Elecs., Inc. v. Pulse Elecs., Inc., 769 F.3d
1371, 1379 (Fed. Cir. 2014) (citations omitted), vacated
and remanded on other grounds, ––– U.S. ––––, 136 S.Ct.
1923, 195 L.Ed.2d 278 (2016); NTP, Inc. v. Research In
Motion, Ltd., 418 F.3d 1282, 1319 (Fed. Cir. 2005), abrogated on other grounds, Zoltek Corp. v. United States,
672 F.3d 1309 (Fed. Cir. 2012).
In addition, an ‘‘offer to sell is a distinct act of infringement separate from an actual sale’’ and ‘‘differs
from a sale in that an offer to sell need not be accepted to
constitute an act of infringement.’’ Transocean Offshore
Deepwater Drilling, Inc. v. Maersk Contractors USA,
Inc., 617 F.3d 1296, 1308 (Fed. Cir. 2010) (citing MEMC
Elec. Materials, Inc. v. Mitsubishi Materials Silicon
Corp., 420 F.3d 1369, 1376 (Fed. Cir. 2005)). An offer to
sell is analyzed ‘‘using traditional contract principles.’’
Id. (citing Rotec Indus., Inc. v. Mitsubishi Corp., 215
F.3d 1246 (Fed. Cir. 2000)). An alleged infringer must
‘‘communicate[ ] a ‘manifestation of willingness to enter
into a bargain, so made as to justify another person in
understanding that his assent to that bargain is invited
and will conclude it.’ ’’ MEMC, 420 F.3d at 1376 (quoting
Rotec, 215 F.3d at 1257). ‘‘The underlying purpose of
holding someone who offers to sell liable for infringement
is to prevent ‘generating interest in a potential infringing

146a
product to the commercial detriment of the rightful patentee.’ ’’ Transocean, 617 F.3d at 1309 (quoting 3D Sys.,
Inc. v. Aarotech Labs., Inc., 160 F.3d 1373, 1379 (Fed.
Cir. 1998)).
b. Parties’ Contentions
The jury found that Pfizer ‘‘has contributed to the direct infringement of the asserted claims of the ’755 patent by healthcare professionals and/or patients by selling or offering to sell Rebif.’’ Verdict Form at 3, Q. 8.
Defendants contend that there is no legally sufficient evidentiary basis on which the jury could have found that
Pfizer has contributorily infringed the asserted claims of
the ’755 patent under 35 U.S.C § 271(c). 33 According to
Defendants, while Pfizer has previously co-promoted Rebif® with Serono, Pfizer did not and does not sell, offer to
sell, or import Rebif® into the United States.34 Defs. Br.
at 23. Defendants assert that the jury heard evidence
that while Pfizer has the right to promote (or detail) Rebif®, it does not have the right to sell Rebif®, as reflected in Serono and Pfizer’s collaboration agreement dated
Defendants do not challenge the jury’s finding that Serono has
contributed to the infringement of the asserted claims. See Verdict
Form at 3, Q. 7.
34
Defendants’ challenge to the jury’s finding of contributory infringement against Pfizer relates solely to the issue of whether Pfizer ‘‘sold or offered to sell Rebif in the United States during the time
the ’755 patent was in force, from September 2009 to the present.’’
Final Jury Instructions at 24. Defendants do not challenge the jury’s findings with respect to the other elements of contributory infringement—namely, that ‘‘healthcare professionals and/or multiple
sclerosis patients using Rebif directly infringe the ’755 patent in the
United States,’’ that ‘‘Rebif has no substantial, non-infringing use,’’
or that Pfizer ‘‘was aware of the ’755 patent and knew that Rebif was
being used by healthcare professionals and/or patients in a manner
that infringes a claim of the ’755 patent.’’ Id.
33

147a
July 10, 2002 (STX-946). Id. at 23-24. The collaboration
agreement provides that Serono ‘‘grants to Pfizer the exclusive right, together with SERONO, to promote and
Detail (but not to sell) the Product in the Territory in the
Field.’’ STX-946 at 10. Defendants also cite deposition
testimony of Pfizer’s corporate representatives in arguing that ‘‘Pfizer indisputably has no title or property interest in Rebif to transfer.’’ Defs. Br. at 23-24. Moreover, in Defendants’ view, ‘‘Pfizer cannot offer to sell what
it does not have the right or ability to sell.’’ Id. at 24.
Biogen contends, in opposition, that sufficient evidence
supports the jury’s determination that Pfizer sells Rebif®, offers to sell Rebif®, or both. Biogen Opp. at 32.
With respect to Pfizer purportedly selling Rebif®, Biogen asserts that Defendants’ brief omits the collaboration
agreement’s provision requiring Serono and Pfizer to
‘‘work diligently and use reasonable efforts to promote
the sale of ’’ Rebif® in the United States. Id. at 33-34;
STX-946 at 22, § 5.1. Biogen also contends that the jury
heard evidence regarding Pfizer’s efforts to support the
sale and marketing of Rebif® in exchange for a share of
the net sales of Rebif®, and that Serono and Pfizer do
not know whether any given sale of Rebif® is due to Serono’s or Pfizer’s detailing efforts. Biogen Opp. at 34-35.
Moreover, Biogen asserts, in support of its argument
that Pfizer offers to sell Rebif®, that Pfizer’s sales representatives visit thousands of doctors and nurses each
year to ‘‘encourage them to prescribe Rebif®,’’ and that
Defendants’ argument that Pfizer cannot ‘‘offer to sell’’
Rebif® because Pfizer cannot ‘‘sell’’ Rebif® ‘‘blinks reality.’’ Id. at 37-38.

148a
c. Defendants Are Not Entitled to JMOL of
No Contributory Infringement By Pfizer
The Court finds that substantial evidence supports the
jury’s verdict that Pfizer is liable for contributory infringement. In particular, substantial evidence supports
a finding that Pfizer at least ‘‘offers to sell’’ Rebif® within the United States.
Defendants contend that Pfizer cannot, as a matter of
law, ‘‘offer to sell’’ Rebif® within the meaning of § 271(c)
because Pfizer merely details Rebif® and Serono, not
Pfizer, is the company that manufactures Rebif® and ultimately transfers title to the drug. See, e.g., Defs. Br. at
24 (‘‘Pfizer cannot offer to sell what it does not have the
right or ability to sell.’’); id. at 24 n.5 (Pfizer ‘‘could not
enter into any bargain regarding the sale of Rebif ’’). Defendants do not appear to cite authority that supports
such a proposition. Nor have Defendants persuaded this
Court to hold as a matter of law that a contractual provision granting a company the right to promote (or detail)
‘‘but not to sell’’ a product singularly shields that company from liability for ‘‘offering to sell’’ a product under
§ 271. Rather, determining whether there has been an
‘‘offer to sell’’ requires applying traditional contract law
principles to the particular facts of the case, taking into
account the circumstances in which such offers are made.
In this case, the jury heard testimony regarding the
‘‘structure and realities of the heavily regulated pharmaceutical industry.’’ Christopher v. SmithKline Beecham
Corp., 635 F.3d 383, 396 (9th Cir. 2011), aff ’d, 567 U.S.
142, 132 S.Ct. 2156, 183 L.Ed.2d 153 (2012). Since ‘‘federal law prohibits pharmaceutical manufacturers from
directly selling prescription medications to patients,’’ id.,
companies such as Serono and Pfizer promote pharmaceutical drug products to physicians through a process

149a
called ‘‘detailing,’’ whereby their sales representatives
‘‘provide information to physicians about the company’s
products in hopes of persuading them to write prescriptions for the products in appropriate cases,’’ Christopher,
567 U.S. at 150, 132 S.Ct. 2156 (citation omitted). 35 Although not a patent case, the Ninth Circuit in Christopher
described the process in detail and defined a ‘‘sale’’ in this
industry as the ‘‘exchange of nonbinding commitments
between the [sales representative] and physician at the
end of a successful call.’’ 635 F.3d at 396 (‘‘Through such
commitments, the manufacturer will provide an effective
product and the doctor will appropriately prescribe; for
all practical purposes, this is a sale.’’).
The evidence presented at trial, from which the Court
draws all reasonable inferences in favor of Biogen,
demonstrates that Pfizer’s conduct at least constitutes an
‘‘offer to sell’’ Rebif® within the meaning of § 271(c). For
instance, Defendants’ collaboration agreement explicitly
requires that both Serono and Pfizer ‘‘work diligently
and use reasonable efforts to promote the sale of ” Rebif® in the United States. STX-946 at 22, § 5.1. The
agreement also requires Serono to make ‘‘commission
payments’’ to Pfizer based on a percentage of the net
sales of Rebif® and requires Pfizer to make sales of Rebif® ‘‘a factor in the determination of the incentive compensation for its Sales Representatives.’’ Id. §§ 5.2, 7.2.
In addition, Pfizer’s sales team, comprised of about
75,000 sales representatives, visits healthcare professionals across the country to persuade them to prescribe Rebif® to their patients. 1/31/13 Mehl Dep. Tr. at 21:1322:15, 23:7-15, 31:3-6. Indeed, various Serono and Pfizer
Pfizer’s corporate representative provided a similar definition of
‘‘detail.’’ 1/25/13 Gans Dep Tr. at 37:20-38:14.

35

150a
representatives testified regarding Pfizer’s efforts to
support the sale and marketing of Rebif® in exchange
for a share of the net sales of Rebif®. See, e.g., 1/25/13
Gans Dep. Tr. at 23:8-24:3 (stating that both Serono and
Pfizer are ‘‘involved in the . . . actual sale of—or the promotion of Rebif to physicians at the . . . sales level or the
field level’’); id. at 34:6-20 (Pfizer gets ‘‘a share of the net
sales’’ of Rebif®); 1/11/13 Huycke Dep. Tr. at 65:8-24
(explaining that Serono and Pfizer each deploys a
salesforce across the United States and have a ‘‘shared
responsibility’’ over the sale of Rebif®); 2/13/13 Moore
Dep. Tr. at 21:17-22:8, 22:10-21 (stating that ‘‘detailing is
intended to lead to greater prescription, which would
lead to sales’’); 1/31/13 Mehl Dep. Tr. at 21:13-22:15, 23:715, 31:3-6 (explaining that there is a ‘‘sales team on both
sides’’ and agreeing that Pfizer ‘‘sell[s] Rebif ’’ by helping
‘‘promote the product through a contract with’’ Serono).
Based on this evidence and testimony, a reasonable jury
could have determined that Pfizer could, in fact, ‘‘enter
into a bargain’’ regarding the sale of Rebif®, and that a
pharmacy would thereafter fill a prescription for Rebif®
from a physician visited by a Pfizer sale representative.
See 1/11/13 Huycke Dep. Tr. at 74:21-75:13 (explaining
that after a successful detail, typically ‘‘the prescription
will be written in the form of an SRF, which can, one
means, be faxed to the MS Lifelines or the prescription
could be given to a specialty pharmacy, and that will
trigger the reimbursement, the verification and eventually the product shipment’’). Indeed, the evidence showed
that neither Serono nor Pfizer knows whether any given
sale of Rebif® is due to Serono’s or Pfizer’s sales team’s
detailing efforts. See 1/25/13 Gans Dep. Tr. at 36:21-24
(explaining that there is ‘‘no mechanism’’ to track sales
due to either company’s marketing efforts); id. at 25:5-16
(stating that ‘‘[m]ost territories are shared by Pfizer and

151a
Serono’’ sales representatives and an individual doctor
may get called on by a sales representative from both
companies). That Serono is the source of Rebif® and ultimately transfers title to Rebif® does not preclude the
jury’s having found that Pfizer ‘‘offers to sell’’ Rebif®. 36
Sufficient evidence supports such a finding, and Defendants have not cited authority that warrants disrupting
that finding.
Viewing the evidence in the light most favorable to Biogen, a reasonable jury could have found by a preponderance of the evidence that Pfizer is liable for contributory infringement. Accordingly, the Court denies Defendants’ Rule 50(b) JMOL motion as to contributory infringement by Pfizer.

Defendants cite Milo & Gabby, LLC v. Amazon.com, 144
F.Supp.3d 1251, 1252-53 (W.D. Wash. 2015), aff ’d sub nom. Milo &
Gabby LLC v. Amazon.com, Inc., 693 F. App’x 879 (Fed. Cir. 2017),
to support their argument that Pfizer ‘‘could not enter into any bargain regarding the sale of Rebif ’’ and for the proposition that ‘‘[a]n
offer is the manifestation of willingness to enter into a bargain, so
made as to justify another person in understanding that his assent to
that bargain is invited and will conclude it.’’ Defs. Br. at 24 n.5. In
that case, the district court adopted the jury’s advisory verdict that
online retailer Amazon did not ‘‘offer to sell’’ the accused products by
allowing non-party ‘‘sellers’’ to list such products on Amazon’s website. Amazon.com, 144 F.Supp.3d at 1252. The court’s ruling was
based on a review of the record and the jury’s specific factual findings that Amazon did not communicate through its website a description or price of the products or that it was willing to enter into a bargain to sell the products. Id. Here, based on a review of the record
evidence and considering the particular practices within the pharmaceutical industry, it would not have been unreasonable for the jury to
have found that Pfizer’s sales representatives, in their face-to-face
meetings with healthcare providers, ‘‘manifest[ed] [a] willingness to
enter into a bargain’’ regarding the prescription and sale of Rebif®.
36

152a
5. Lost Profits Damages
a. Legal Principles for Lost Profits Damages
The legal principles for lost profits damages are set
forth in the Court’s discussion in Section III.A.4 above
regarding Biogen’s JMOL motion as to subsidiary damages issues.
b. Parties’ Contentions
As discussed above, the jury did not reach the damages questions on the Verdict Form, having concluded that
the ’755 patent claims are invalid as anticipated over the
prior-art uses of native interferon-Ⱦ. Defendants seek a
judgment that Serono’s right to license the ’755 patent
forecloses Biogen’s lost profits claim because ‘‘no reasonable jury could conclude that Serono would ever be off
the market.’’ Defs. Br. at 25. According to Defendants,
Biogen’s own witnesses testified that a market without
Rebif® is ‘‘inconceivable’’ and that the evidence showed
that Serono would have exercised its unilateral right to
sell Rebif® under license rather than leave the market.
Id. Defendants also reiterate the arguments in their
Daubert motion to preclude Biogen’s damages expert
Kevin Murphy, Ph.D.’s testimony, arguing that his damages analysis improperly disregarded Serono’s noninfringing alternative action and suggested that patent
damages are intended to punish Serono rather than compensate Biogen. Id. at 26.
In response, Biogen contends that Defendants merely
restate their arguments that the Court rejected in denying their summary judgment motion, in denying their
Daubert motion against Dr. Murphy, and during the
crafting of the jury instructions. Biogen Opp. at 38. Biogen also argues that contrary to Defendants’ assertion,
there was substantial evidence that Serono believed that
the Nonsuit and Option Agreement did not even apply to

153a
sales of Rebif®, and that this was the same evidence the
Court considered when it denied Defendants’ summary
judgment motion. Id. at 39-40 (citing 7/22/16 Newland
Dep. Tr. at 18:18-19:22, 42:20-44:4, 60:21-61:4, 61:7-61:24,
70:17-72:20, 72:22-24; 1/31/18 Tr. at 53:5-17 (De Luca);
3/22/16 Brudnick Dep. Tr. at 14:17-15:10).
c. Defendants Are Not Entitled to JMOL as
to Lost Profits Damages
As discussed above, the Court orders a new trial on all
damages issues, including the issue of whether licensed
Rebif® constitutes a non-infringing alternative. Again,
the Court declined to conclude on summary judgment
that the Nonsuit and Option Agreement precludes Biogen’s claim of lost profits as a matter of law. ECF No.
884. In particular, the Court determined that Serono’s
motion raised genuine issues of material fact that were
appropriate for a jury’s consideration. Id. at 10-12. In
instructing the jury on the law of damages, the Court
stated that the jury ‘‘must take into account, where relevant, alternative actions that Serono would have undertaken had it not infringed.’’ Final Jury Instructions at
43. During the trial both sides presented expert testimony in support of their positions on this issue, and the jury
did not reach the question of damages. Defendants
largely reiterate the same case law they cited in their
summary judgment motion as to Biogen’s claim of lost
profits, and have not cited new authority that would compel this Court to rule as a matter of law that the Nonsuit
and Option Agreement forecloses Biogen’s lost profits
claim. Accordingly, the Court denies Defendants’ Rule
50(b) JMOL motion as to lost profits damages.
IV. CONCLUSION
For the reasons discussed above, Biogen’s JMOL motions with respect to anticipation, induced infringement

154a
against Pfizer and Serono, and certain non-litigated defenses are hereby GRANTED. The Court also conditionally orders a new trial on anticipation and induced
infringement against Pfizer and Serono pursuant to Rule
50(c), and orders a new trial on all damages issues pursuant to Rule 59. Biogen’s remaining JMOL motions and
each of Defendants’ JMOL motions are hereby DENIED. An appropriate Order will be entered.
Date: September 7, 2018

s/Hon. Claire C. Cecchi
Hon. Claire C. Cecchi
United States District Judge

155a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
NO. 2019-1133
————
BIOGEN MA INC.,
Plaintiff-Appellee,
v.
EMD SERONO, INC.,
PFIZER INC.,
Defendants-Appellants,
BAYER HEALTHCARE PHARMACEUTICALS INC.,
NOVARTIS PHARMACEUTICALS CORPORATION
Defendants.
————
Appeal from the United States District Court for the
District of New Jersey in No. 2:10-cv-02734-CCC-MF,
District Judge Claire C. Cecchi.
————
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
————
December 18, 2020
————

156a
Before PROST, Chief Judge, NEWMAN, LOURIE, LINN *,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellee Biogen MA Inc. filed a combined petition for
panel rehearing and rehearing en banc. A response to
the petition was invited by the court and filed by Appellants EMD Serono, Inc. and Pfizer Inc. The petition was
referred to the panel that heard the appeal, and thereafter the petition for rehearing en banc was referred to the
circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December 28,
2020.
FOR THE COURT
December 18, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Linn participated only in the decision on the petition
for panel rehearing.

*

157a
APPENDIX G
RELEVANT STATUTORY PROVISION
1. The 2006 version of Title 35 of the U.S. Code provides in relevant part as follows:
§ 102. Conditions for patentability; novelty and loss
of right to patent
A person shall be entitled to a patent unless—
(a) the invention was known or used by others in this
country, or patented or described in a printed publication
in this or a foreign country, before the invention thereof
by the applicant for patent, or
(b) the invention was patented or described in a printed
publication in this or a foreign country or in. public use or
on sale in this country, more than one year prior to the
date of the application for patent in the United States, or
(c) he has abandoned the invention, or
(d) the invention was first patented or caused to be patented, or was the subject of an inventor’s certificate, by
the applicant or his legal representatives or assigns in a
foreign country prior to the date of the application for patent in this country on an application for patent or inventor’s certificate filed more than twelve months before the
filing of the application in the United States, or
(e) the invention was described in (1) an application for
patent, published under section 122(b), by another filed in
the United States before the invention by the applicant for
patent or (2) a patent granted on an application for patent
by another filed in the United States before the invention
by the applicant for patent, except that an international
application filed under the treaty defined in section 351(a)
shall have the effects for the purposes of this subsection of
an application filed in the United States only if the

158a
international application designated the United States and
was published under Article 21(2) of such treaty in the
English language;1 or
(f) he did not himself invent the subject matter sought
to be patented, or
(g)(1) during the course of an interference conducted
under section 135 or section 291, another inventor involved
therein establishes, to the extent permitted in section 104,
that before such person’s invention thereof the invention
was made by such other inventor and not abandoned, suppressed, or concealed, or (2) before such person’s invention thereof, the invention was made in this country by another inventor who had not abandoned, suppressed, or
concealed it. In determining priority of invention under
this subsection, there shall be considered not only the respective dates of conception and reduction to practice of
the invention, but also the reasonable diligence of one who
was first to conceive and last to reduce to practice, from a
time prior to conception by the other.

1

So in original. The semicolon probably should be a comma.

